<html>
<title> - STATE OF THE RURAL ECONOMY: SECRETARY OF AGRICULTURE SONNY PERDUE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


   STATE OF THE RURAL ECONOMY: SECRETARY OF AGRICULTURE SONNY PERDUE

=======================================================================

                                 HEARING

                               BEFORE THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 17, 2017

                               __________

                            Serial No. 115-6


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov
                         
                         
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]    


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-545 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ee899e81ae8d9b9d9a868b829ec08d8183c0">[email&#160;protected]</a> 




                        COMMITTEE ON AGRICULTURE

                  K. MICHAEL CONAWAY, Texas, Chairman

GLENN THOMPSON, Pennsylvania         COLLIN C. PETERSON, Minnesota, 
    Vice Chairman                    Ranking Minority Member
BOB GOODLATTE, Virginia,             DAVID SCOTT, Georgia
FRANK D. LUCAS, Oklahoma             JIM COSTA, California
STEVE KING, Iowa                     TIMOTHY J. WALZ, Minnesota
MIKE ROGERS, Alabama                 MARCIA L. FUDGE, Ohio
BOB GIBBS, Ohio                      JAMES P. McGOVERN, Massachusetts
AUSTIN SCOTT, Georgia                FILEMON VELA, Texas, Vice Ranking 
ERIC A. ``RICK'' CRAWFORD, Arkansas  Minority Member
SCOTT DesJARLAIS, Tennessee          MICHELLE LUJAN GRISHAM, New Mexico
VICKY HARTZLER, Missouri             ANN M. KUSTER, New Hampshire
JEFF DENHAM, California              RICHARD M. NOLAN, Minnesota
DOUG LaMALFA, California             CHERI BUSTOS, Illinois
RODNEY DAVIS, Illinois               SEAN PATRICK MALONEY, New York
TED S. YOHO, Florida                 STACEY E. PLASKETT, Virgin Islands
RICK W. ALLEN, Georgia               ALMA S. ADAMS, North Carolina
MIKE BOST, Illinois                  DWIGHT EVANS, Pennsylvania
DAVID ROUZER, North Carolina         AL LAWSON, Jr., Florida
RALPH LEE ABRAHAM, Louisiana         TOM O'HALLERAN, Arizona
TRENT KELLY, Mississippi             JIMMY PANETTA, California
JAMES COMER, Kentucky                DARREN SOTO, Florida
ROGER W. MARSHALL, Kansas            LISA BLUNT ROCHESTER, Delaware
DON BACON, Nebraska
JOHN J. FASO, New York
NEAL P. DUNN, Florida
JODEY C. ARRINGTON, Texas

                                 ______

                   Matthew S. Schertz, Staff Director

                 Anne Simmons, Minority Staff Director

                                  (ii)
                             
                             
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page
Bustos, Hon. Cheri, a Representative in Congress from Illinois, 
  submitted report...............................................    67
Conaway, Hon. K. Michael, a Representative in Congress from 
  Texas, opening statement.......................................     1
    Prepared statement...........................................     3
Kuster, Hon. Ann M., a Representative in Congress from New 
  Hampshire, submitted letter....................................    72
Lujan Grisham, Hon. Michelle, a Representative in Congress from 
  New Mexico, submitted photo and article........................    74
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, opening statement...................................     4

                                Witness

Perdue, Hon. Sonny, Secretary, U.S. Department of Agriculture, 
  Washington, D.C................................................     5
    Prepared statement...........................................     7
    Submitted questions..........................................    75

 
   STATE OF THE RURAL ECONOMY: SECRETARY OF AGRICULTURE SONNY PERDUE

                              ----------                              


                        WEDNESDAY, MAY 17, 2017

                          House of Representatives,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Committee met, pursuant to call, at 10:00 a.m., in Room 
1300 of the Longworth House Office Building, Hon. K. Michael 
Conaway [Chairman of the Committee] presiding.
    Members present: Representatives Conaway, Thompson, 
Goodlatte, Lucas, King, Rogers, Gibbs, Austin Scott of Georgia, 
Crawford, DesJarlais, Hartzler, Denham, LaMalfa, Davis, Yoho, 
Allen, Bost, Rouzer, Abraham, Kelly, Comer, Marshall, Bacon, 
Faso, Dunn, Arrington, Peterson, David Scott of Georgia, Costa, 
Walz, Fudge, McGovern, Vela, Lujan Grisham, Kuster, Nolan, 
Bustos, Maloney, Plaskett, Adams, Evans, Lawson, O'Halleran, 
Panetta, Soto, and Blunt Rochester.
    Staff present: Bart Fischer, Caleb Crosswhite, Callie 
McAdams, Jackie Barber, Josh Maxwell, Matthew S. Schertz, 
Stephanie Addison, Rachel Millard, Anne Simmons, Evan 
Jurkovich, Keith Jones, Kellie Adesina, Lisa Shelton, Liz 
Friedlander, Mary Knigge, Matthew MacKenzie, Mike Stranz, Troy 
Phillips, Nicole Scott, and Carly Reedholm.

OPENING STATEMENT OF HON. K. MICHAEL CONAWAY, A REPRESENTATIVE 
                     IN CONGRESS FROM TEXAS

    The Chairman. Good morning. This hearing of the Committee 
on Agriculture entitled, State of the Rural Economy: Secretary 
of Agriculture Sonny Perdue, will come to order.
    I would ask David Scott to open us with a prayer. David.
    Mr. David Scott of Georgia. Sure. We will bow our heads, 
please. Dear Heavenly Father, we come before your throne of 
grace to first of all say thank you. We thank you for so many 
blessings that you bestow upon us; many which we don't even 
know. On this occasion, we ask a special blessing on our 
agriculture industry, and that your blessings come upon our new 
Secretary of Agriculture, Sonny Perdue. Dear Heavenly Father, 
finally, we thank you for your Holy Spirit, for oftentimes we 
know not what we should pray for as we ought, but your Holy 
Spirit intercedes for us with groanings that cannot be uttered. 
We thank you for that, and we ask your Holy Spirit to enter 
this room today. These and other blessings we ask in your son, 
Christ Jesus', name. Amen.
    The Chairman. David, thank you.
    Mr. Secretary, welcome. You and I have had several 
conversations before this morning, but let me officially 
congratulate you on becoming our nation's 31st Secretary of 
Agriculture. We are excited about working with you and couldn't 
be happier with the President's selection of you to be the 
current Agriculture Secretary. We are eager to work with you.
    We also know you have a great heart and concern for 
America's farmers and ranchers. And we know that you have both 
the policy and political acumen to get a lot of things done at 
the Department. In short, I don't think there is a better man 
for the job of Secretary of Agriculture in these challenging 
times.
    While it took some time to get you confirmed, I want to 
commend you for landing on your feet and going full throttle 
right from the very start. I greatly appreciate you weighing in 
with the Administration on the vital importance of trade to our 
nation's farmers and ranchers, particularly regarding NAFTA.
    Your work to begin reining in the Waters of the U.S. 
regulation, by putting in place a new rule that fully respects 
private property rights, federalism, and no fewer than three 
Supreme Court rulings, is critical to helping dismantle this 
attempted Federal land grab.
    Your successful support of the issuance of an Executive 
Order by the President to revisit the myriad of regulations 
affecting American agriculture could not be more appreciated. 
And again, thank you for taking on these other challenges.
    Restoring some common sense into the school lunch program, 
and putting the brakes on harmful regulations that would 
threaten longstanding livestock marketing arrangements and 
would force organic producers to comply with overly 
prescriptive animal protection welfare practices are also 
welcome actions.
    As you begin the work of implementing Federal biotech 
labeling requirements, I hope that you exercise the same kind 
of prudent judgment.
    Thank you for your role in helping ensure that the United 
States fully enforces its trade laws, including those against 
Mexico's illegal dumping of sugar onto the U.S. market. I also 
want to underscore the importance of your leadership in working 
with USTR to continue building the case against China's 
domestic support and TRQ administration for corn, rice and 
wheat.
    If we are to regain America's confidence in trade, we must 
hold our trading partners accountable for their commitments. On 
the topic of the importance of trade, you announced this week 
that you are embarking on a reorganization of the Department of 
Agriculture which would include an Under Secretary focused 
solely on trade.
    I look forward to hearing more about your ideas on how to 
make the Department even more effective in the important work 
that it does every day, even as it does so within the confines 
of tighter budgets. As we look to the budget, it is important 
to point out that our current farm bill is expected to save $23 
billion over 10 years, but the most recent CBO projections show 
that the 2014 Farm Bill is actually now targeted to reduce 
spending by some $104 billion, nearly four times the level 
anticipated.
    This is an achievement made possible by the hard work and 
determination of the Members of this Committee and our 
counterparts in the Senate. Mr. Secretary, I hope and trust 
that you will make sure the President knows about this as he 
makes tough choices on the allocation of scarce budget 
resources.
    As you know, America's farmers and ranchers have seen their 
net incomes cut in half over the last 4 years. Times are 
difficult on the farms and ranches across this country these 
days. And, if those who are paid to make forecasts about these 
things are correct, economic times in the farm and ranch 
industry will not be any better over the next several crop 
years.
    It is my experience in farm and ranch country that a bad 
farm economy can adversely impact the entire economy, while a 
good farm economy can boost the nation's economy and job 
creation. It is also my experience that strong U.S. farm policy 
not only sees our farmers and ranchers through hard times, but 
it mitigates the adverse impacts on the national economy and 
jobs.
    Thus far, we have had a safety net in place that is largely 
working as intended, with the exceptions of cotton and dairy. 
America's cotton farmers, and the entire industry, have rallied 
around a way to mend their safety net to make it more effective 
in mitigating the effects of China's and India's predatory 
trade practices.
    We believe that you have the legal authority to effectuate 
this policy, and I would urge you with the utmost urgency to 
exercise that authority. As you know, Congress would have done 
this a couple of weeks ago but for the recklessness of a couple 
of folks in the other chamber. It didn't happen, and we will 
continue to state that over and over. It was reckless and 
inappropriate.
    And while the dairy industry continues working on a unified 
approach to mending its safety net, I believe that there is 
ample authority for you to help them as well, as did your 
predecessor. If we can thread these two needles, we will be in 
a much better position to deliver on the President's promise of 
a strong farm bill passed on time.
    [The prepared statement of Mr. Conaway follows:]

  Prepared Statement of Hon. K. Michael Conaway, a Representative in 
                          Congress from Texas
    Mr. Secretary, welcome to you, sir.
    We have visited many times before--including prior to your taking 
office--but allow me to officially declare this Committee's sincere 
congratulations on becoming our nation's 31st Secretary of Agriculture.
    We are eager to work with you and are certain you will uphold the 
office with the utmost respect and concern for rural America's 
interests.
    We also know you have a great heart and concern for America's 
farmers and ranchers. And, we know that you have both the policy and 
political acumen to get things done.
    In short, I don't think that there is a better man for the job of 
Secretary of Agriculture in these challenging times.
    Mr. Secretary, while it took some time to get you confirmed, I want 
to commend you for landing on your feet and going full throttle from 
the second you took office.
    I greatly appreciate you weighing in with the Administration on the 
vital importance of trade to our nation's farmers and ranchers, 
particularly regarding NAFTA.
    Your work to begin reining in the Waters of the U.S. regulation and 
put in place a new rule that fully respects private property rights, 
federalism, and no fewer than three U.S. Supreme Court rulings is 
critical to helping dismantle this attempted Federal land grab.
    And your successful support for the issuance of an Executive Order 
by the President to revisit the myriad of regulations affecting 
American agriculture could not come soon enough.
    Whether it is Department of Labor regulations that frustrate the 
goal of a functional guest worker program or the onslaught of EPA 
regulations that number too many to be mentioned by name, you have a 
big lift in front of you.
    Thank you, Mr. Secretary, for taking on this challenge.
    Restoring some common sense into the school lunch program and 
putting the brakes on harmful regulations that would threaten 
longstanding livestock marketing arrangements and would force organic 
producers to comply with overly prescriptive animal welfare practices 
are also very welcome actions.
    As you begin the work of implementing Federal biotech labeling 
requirements I hope that you exercise the same kind of prudent 
judgment.
    Thank you for your role in helping ensure that the United States 
fully enforces its trade laws, including against Mexico's illegal 
dumping of sugar onto the U.S. market. I also want to underscore the 
importance in your leadership in working with USTR to continue building 
the case against China's domestic support and TRQ administration for 
corn, rice and wheat.
    If we are to regain America's confidence in trade, we must hold our 
trading partners accountable for their commitments.
    On the topic of the importance of trade, you announced this week 
that you are embarking on a reorganization of the Department of 
Agriculture which would include an Under Secretary focused solely on 
trade.
    I look forward to hearing more about your ideas on how to make the 
Department even more effective in the important work that it does every 
day, even as it does so within the confines of tighter budgets.
    As we look to the budget, it is important to point out that the 
current farm bill was expected to save $23 billion over 10 years, but 
the most recent Congressional Budget Office projections show that the 
2014 Farm Bill is now on target to save $104 billion--more than four 
times what was anticipated.
    That is an achievement made possible by the hard work and 
determination of the Members of this Committee and our counterparts in 
the Senate. Mr. Secretary, I hope and trust that you will make sure the 
President knows about this as he makes the tough choices on the 
allocation of scarce budget resources.
    As you know, America's farmers and ranchers have seen their net 
incomes cut in half in just 4 years.
    Times are very, very difficult on the farm and ranch these days.
    And, if those who are paid to make forecasts about these things are 
correct, economic times in farm and ranch country will get worse before 
they get better.
    It is my experience as a CPA in farm and ranch country that a bad 
farm economy can adversely impact the entire economy, while a good farm 
economy can boost the national economy and job creation.
    It is also my experience that strong U.S. farm policy not only sees 
our farmers and ranchers through hard times, but it mitigates the 
adverse impacts on the national economy and jobs.
    Thus far, we have a safety net in place that is largely working as 
intended, with two exceptions: cotton and dairy.
    America's cotton farmers--and the entire industry--have rallied 
around a way to mend their safety net to make it more effective in 
mitigating the effects of China's and India's predatory trading 
practices.
    You have the legal authority to effectuate this policy and I would 
urge you with the utmost urgency to exercise your authority.
    As you know, Congress would have done this a couple of weeks ago 
but for the recklessness of a couple of folks in the other chamber.
    And, while the dairy industry continues working on a unified 
approach to mending its safety net, I believe that there is ample 
authority for you to help when needed just as your predecessor did.
    If we can thread these two needles, we will be in a much better 
position to deliver on the President's promise of a strong farm bill 
passed on time.
    With that, I recognize my friend, the Ranking Member, for any 
opening remarks that he may have.

    The Chairman. And with that, I recognize my friend and 
Ranking Member for any comments that he has.

OPENING STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE 
                   IN CONGRESS FROM MINNESOTA

    Mr. Peterson. Well, thank you, Mr. Chairman. And I am very 
pleased to welcome Secretary Perdue to the Agriculture 
Committee. It took a while for you to get here but it is nice 
to see you have hit the ground running, and now that you are at 
USDA, I think I speak for all of us, when I say that we are 
ready to work with you.
    The Administration has been in need of someone who 
understands farm programs and their impact on rural America. 
Hopefully, now that you are there, you will get them to 
reconsider some of the proposed $4.7 billion in cuts to USDA 
that were outlined in the March budget. I know you weren't part 
of that, and I just don't think that anyone in the White House 
really understood what these cuts would mean to rural America.
    This hearing is focused on the rural economy, and as you 
are well aware, and everybody is, the rural economy, is 
trending downward. We had a pretty good year last year; 
relatively high yields that kept things afloat, in spite of the 
fact that the prices aren't what they should be, but I worry 
that we could find ourselves in real trouble if we have an 
ordinary year or somewhat of a down year this summer.
    This is why it is so important that the farm bill safety 
net be set right, so I will be looking forward to your thoughts 
on what you think needs to be done in the next farm bill, and 
what your role and what you anticipate the role of the 
Administration is going to be in that process.
    The farm bill is just one of the many topics I expect us to 
cover today. I know our Members are looking forward to hearing 
from the Secretary, so with that, Mr. Chairman, I will yield 
back.
    The Chairman. I thank the gentleman.
    The chair would request that other Members submit their 
opening statements for the record so our witness may begin his 
testimony, and to ensure there is ample time for questions.
    With that, I would like to welcome to our witness table the 
Honorable Sonny Perdue, Secretary of the U.S. Department of 
Agriculture, here in Washington, D.C. Mr. Secretary, the floor 
is yours.

 STATEMENT OF HON. SONNY PERDUE, SECRETARY, U.S. DEPARTMENT OF 
                 AGRICULTURE, WASHINGTON, D.C.

    Secretary Perdue. Well, thank you, Chairman Conaway, and 
thank you, Ranking Member Peterson. It is a delight to be with 
you this morning. And I look up there on the podium and see my 
good friend, Mr. Scott, who kindly showed up at my confirmation 
hearings, if you all are not familiar with that, but thank you 
again, David, for those very kind remarks there. And I see some 
other Georgia homeboys here with you today as well.
    But my staff was a little concerned, since this was our 
first date and I hadn't got a chance to meet all of you, that 
they had about 15 pages of prepared remarks, but I am going to 
not do that to you all. You can read my remarks in the written 
record, but I just really want to share a few things with you.
    You have indicated correctly that 2017-2018 is a very 
different economic situation for our farm community and our 
rural communities across this land than it was when the 2014 
Farm Bill was promulgated. We have some challenges ahead, our 
budget situations are challenging, but together we can weather 
that.
    I am excited about being in the Department. What I have 
found is a cadre of hardworking, dedicated career people over 
there, not ideological, but they are passionate about American 
agriculture, how we can make it better. My goal, and I have 
stated internally and externally, is to make you as the 
Committee on Agriculture here in the House proud of the way the 
USDA is run. My goal is to make it the most effective, most 
efficient, the best-managed, the best value agency in the 
United States Government.
    We had an opportunity in Georgia to do some of that. We 
have begun already in looking at that, and I know some of your 
questions will want to hear about my ideas for reorg, or I 
really call it realignment today. I look forward to hearing 
those and answering those. But the challenges we face now, you 
know that our farm economy is down about 50 percent, a drop in 
net income from where it was in 2013, as you all were looking 
and contemplating the 2014 Farm Bill. We have several members, 
particularly younger farmers, have leveraged-up in this 
situation where the revenue is not supporting their debt 
structure, and they are in some dire straits that way. The 
safety net that you all referred to, has worked very well, that 
you said, without maybe a couple of situations that we can 
improve on, has been a safety net. Our crop insurance combined 
with the ARC and PLC programs have worked very well generally. 
But we are in some dire straits out there. And the government 
payments totaled almost $13 billion in 2016, and based on those 
great yields that Ranking Member Peterson talked about, that we 
can't continue to depend on, it is going to be less than that 
in 2017.
    The crop insurance, again, has been a good support. But the 
other thing is Rural Development has been a wonderful program 
area. What I have learned about USDA; how vast, how broad, how 
helpful it can be in rural America overall. That is why I was 
glad to see and glad to participate with the President in his 
signing of the Executive Order, of interagency cooperation, 
determining what are those barriers to American agriculture and 
how can we eliminate those and mitigate those for the 
prosperity of rural America. It is not just the producers. You 
know if farms aren't doing well in our rural communities, those 
rural communities don't do well. We are looking at how we can 
help those thrive as well. And I look forward to explaining my 
vision for Rural Development with your questions.
    You also know that USDA provided approximately 243,000 
loans of $35.2 billion to farmers and ranchers. That led to a 
full utilization of the program level for Fiscal Year 2016, and 
with record loan levels at $6.3 billion. Those are the kind of 
things that we think will help the safety net out here. And I 
look forward to engaging with you personally here today, but 
also in your offices and your phone calls about the issues that 
pertain to your constituents in the ag community, so together 
we can resolve their concerns, their fears, their anxieties 
over where the future of agriculture goes, and address those in 
a way that makes sense for our shareholders, the taxpayers, and 
the United States of America.
    Thank you, Mr. Chairman.
    [The prepared statement of Secretary Perdue follows:]

Prepared Statement of Hon. Sonny Perdue, Secretary, U.S. Department of 
                     Agriculture, Washington, D.C.
    Good morning, Chairman Conaway, Ranking Member Peterson, and 
distinguished Members of the Committee. It is an honor to be with you 
today as the nation's 31st Secretary of Agriculture. I am truly humbled 
by the opportunity to serve the American people and our farmers, and I 
assure you I will work tirelessly on their behalf. I thank you for the 
opportunity to appear before you today, and I look forward to working 
with you in the coming months and years as we can continue our nation's 
agricultural preeminence, building the innovative progress of years 
gone by and growing to meet the needs and demands of customers and 
consumers here in America and around the world.
    Given that this is my first time appearing before your Committee, 
I'd like to take a moment to share a little of my background with you. 
I have lived a blessed life, growing up in rural Georgia on a dairy and 
diversified row crop farm. Early on, I decided I wanted to become a 
veterinarian, so, after high school, I enrolled at the University of 
Georgia. As I entered Veterinary school in 1967, Viet Nam was roiling, 
so I signed up for an early commissioning program in the U.S. Air 
Force. As I finished my veterinary education in 1971, I began active 
duty service in Columbus, Ohio as a base veterinarian with primary 
responsibilities in food safety, public health, and sanitation.
    Following completion of my active duty commitment, I joined a small 
veterinary practice in Raleigh, North Carolina. But I soon realized 
that I missed the farm and my former agricultural way of life. In 1976, 
my wife Mary and I and our two small girls moved back home where I 
partnered with my brother-in-law to build a grain elevator in my home 
county, which didn't yet have one. I've been in agribusiness since 1977 
and was the founder and operator of three agribusiness and 
transportation firms serving farmers across the Southeastern United 
States. Farming and farmers have been my life ever since.
    While I hadn't dreamed of elected politics growing up, I did 
understand that we all have civic rent, so I agreed to chair our local 
planning and zoning commission. After 10 years, a State Senate seat 
opened up and I was asked to run for the seat. I initially declined but 
a pre-planned family trip to Williamsburg, Virginia changed my mind 
after observing the founder's goals of citizen engagement.
    In 1990, the people of District 18 elected me to serve as a Member 
of the Georgia State Senate. I served for 11 years and during my tenure 
was elected by my colleagues to be Senate President Pro Tem. You've 
probably heard, and it's interesting to note, that I served both as a 
Democrat and as a Republican while in the Georgia State Senate.
    In 2002, I was elected the first Republican Governor of Georgia in 
more than 130 years. I assumed that office, believing that it was a big 
job, not a position. Our team worked diligently for 8 years, striving 
to make Georgia the best managed state in the nation. As you remember, 
the period from 2003 to 2011, were not the best economic times for our 
nation. But, we learned, with the help of a joyful state workforce, 
that we could continue to provide value to the citizens of Georgia, 
even in times of extreme budget pressures.
    Even though Georgia may not compare to some of your states in some 
agricultural sectors, I am still proud to come from a state whose 
number one economic driver is agriculture. In Georgia, agriculture is 
one area where Democrats and Republicans consistently reached across 
the aisle and worked together, and I look forward to doing the same 
with this Committee.
Gauging the State of the U.S. Agricultural Economy
    You asked me to provide an update today on the state of our 
agricultural economy. While I believe the farm safety net is working, 
we are seeing and hearing from producers that they believe it needs 
updates to meet the needs of the farm economy. Over the past 3 years, a 
strong dollar, generally weak global economic growth, and ample global 
production have combined to lower trade demand from the United States 
and to depress many commodity prices. As a result, we have seen a 50 
percent drop in net farm income from the all-time record highs farmers 
experienced in 2013. This has squeezed some of our farmers and others 
who also contribute to the ag economy, and we are seeing it across the 
countryside in a broad range of areas from input dealers to food 
manufacturers.
    According to our USDA economists, net farm income this year 
accounting for inflation will be the lowest since 2002. Of course 
farming is a cyclical business, and previous good times have helped 
some producers weather the current downturn in agricultural commodity 
prices and income. However, without the record levels of crop and 
livestock production we have seen over the past few years, farms would 
be in a much worse situation today. And we know that we can't always 
count on a bumper crop to pay off loans and to buy inputs for next 
season. Looking at the flood, fire, and snow conditions we've already 
seen this spring reminds us of that.
    It is clear that more and more producers are increasingly exposed 
to financial risk: bank credit is tightening, delinquency rates on both 
commercial and FSA loans, while still at relatively low levels, have 
been trending upwards since 2014, and land values are falling in many 
agricultural regions. All are contributing to increased uncertainty and 
concern in rural America. As you could expect, those producers with 
high costs of production, who rent a significant portion of their land 
base, or who have increased borrowing to cover operating costs have 
been most at risk as returns decline with commodity prices. About one-
in-five cotton, wheat, hog, and poultry farms have a debt-to-asset 
ratio of more than 40 percent and more than one-in-three of our 
youngest farmers are in a highly leveraged position.
    Nevertheless, even as falling global commodity prices continue to 
depress farm income, the current farm safety net that was created 
during the last farm bill is providing support for producers. Roughly 
1.8 million farms are enrolled in the Agriculture Risk Coverage (ARC) 
and Price Loss Coverage (PLC) programs, which are helping cushion the 
downturn in some commodity prices. To date, the ARC and PLC programs 
have provided $5.3 billion in financial assistance for crop year 2014 
to one million farms and $7.8 billion to 1.7 million farms for crop 
year 2015, which was paid out to producers last fall. Overall, in 
calendar year 2016, government farm payments totaled about $13.0 
billion in 2016 and are expected to total $12.5 billion in 2017. On top 
of that, the crop insurance program offset roughly $6.3 billion in farm 
losses in crop year 2015 and is expected to cover $3.6 billion in 2016.
    Yet, not all programs are functioning as producers hoped they 
would. For example, over 25,000 U.S. dairy farms--more than \1/2\--have 
enrolled in the Margin Protection Program for Dairy (MPP-Dairy), which 
provides payments if the margin between milk prices and feed costs 
falls below the coverage level selected by the producer. While many 
dairy producers saw milk prices fall below their overall costs of 
production, the margin between dairy prices and feed costs remained for 
the most part above the levels supported by the program. Many producers 
said the feed ration used in the MPP program was not representative of 
the rations they fed their cows. As a result, most dairy producers have 
been paying to participate in this program meant to insure them against 
tightening margins without realizing any benefits though their own 
margins were being squeezed. This is a critical issue for our dairy 
producers.
    As another example, cotton was taken out of the title I commodity 
programs. Cotton producers were allowed to participate in the ARC or 
PLC program on their base acres only by growing another crop. For 
cotton plantings, producers were allowed to participate in a new crop 
insurance program called the Stacked Income Protection Plan for 
Producers of Upland Cotton (STAX). While about 95 percent of cotton 
acres are enrolled in other types of crop insurance policies each year, 
only 25-30 percent of cotton acres have been covered by STAX since it 
began in 2015. Many cotton producers have found faults in STAX and 
assert it is not as beneficial as the assistance provided to other 
crops. Both the dairy and cotton examples are the types of issues that 
producers hope will be addressed in the next farm bill.
    As I mentioned, access to credit remains a significant issue for 
producers, particularly as working capital on farm businesses has 
fallen nearly seventy percent since 2012. Demand for credit continues 
to be strong, particularly for farm operating loans, as farmers cope 
with lower commodity prices. As commercial channels become more 
difficult for producers, we anticipate that demand for USDA credit 
assistance will continue to remain high. Since 2009, USDA has provided 
approximately 243,000 loans totaling over $35.2 billion to farmers and 
ranchers. The recent increase in demand led to full utilization of the 
program level for farm operating loans for Fiscal Year (FY) 2016, with 
record loan levels at $6.3 billion. So far in 2017, we've seen a slight 
decline of six percent in loan numbers and value over the same period 
in 2016, but that is a small decline coming off a record year-demand 
for FSA financing is still strong.
    Looking forward to the next farm bill, I hope we can work closely 
with you to identify ways to make USDA programs work better for 
America's farmers and ranchers. However, we have to be sure to make 
those programs work as a safety net that helps farmers in tough times. 
We don't want to see programs that encourage production choices simply 
to increase government payments to the farm; rather we want our 
producers to be responding to the market when they are deciding on what 
to plant for the coming year. In addition, I believe it is imperative 
to improve the tools the Department has to address pressing and 
difficult situations faced by our producers, and to react quickly and 
provide additional assistance if current market conditions persist or 
worsen. The authority of the Secretary has been limited by 
Congressional action when it comes to using CCC funding, Section 32, 
and other authorities to provide relief, while at the same time our 
farmers, ranchers, and constituents are asking USDA to help. I'm not 
suggesting that USDA would take action in every instance where a 
commodity sector or group of producers is hurting--we certainly must be 
mindful of fiscal challenges--but it would be helpful for the Secretary 
to have authority to evaluate the needs of U.S. agriculture and use 
these tools when appropriate. As another example, while not in this 
Committee's jurisdiction, USDA's annual appropriations is so 
prescriptive that it is rivaled only by the Department of Defense. For 
instance, I recently learned that there is language in our 
appropriations act that requires the Farm Service Agency to notify 
Congress of relocating any county based employee if the relocation 
would result in an office that has two or fewer employees. Even if an 
employee in an office of three wants to leave for a voluntary 
promotion, the agency could not relocate that person until Congress is 
notified. This kind of limiting language is what challenges USDA's 
ability to be a more nimble and effective organization.
Finding Opportunities, Making Progress
    As I've laid out, we have a farm economy that is facing increasing 
financial challenges and is not going in the direction we think it 
should or know it can. Like you, we want to do the best for our 
producers and provide critical tools and resources to help them 
succeed. To that end, this segues into the first of four goals I have 
set for my time as Secretary. First, I will maximize the ability of the 
men and women of America's agriculture and agribusiness sector to 
create jobs, to produce and sell the foods and fiber that feed and 
clothe the world, and to reap the earned reward of their labor. We want 
to remove obstacles, and give them every opportunity to prosper.
    Today, we need to feed some seven billion people. By the year 2050, 
that population will swell to 9.5 billion, over \1/2\ of which will be 
living in under-developed conditions. Also, the demographics of that 
population will change over time. If we examine the data available, we 
can see that our global population is aging, and by the year 2050, more 
of the population will be older than 65 than younger than 5 years of 
age. What this means is that as we move forward, the dietary demands of 
the global population are going to change. We are also going to see 
stronger middle classes in developing countries that will join the 
already strong middle classes in the developed world. This means that 
the demand for meat will grow exponentially as will the demand for 
grain production. To put the demand for food into perspective, we are 
going to have to double our production between now and 2050. We will 
have to produce more food in the next 30 years than has been produced 
in the last 8,000 years--a daunting task, to say the least. Rest 
assured it is a task that USDA is ready to take on.
    That being said, we cannot feed the world if we continue to place 
obstacle after obstacle in front of those who produce our food and 
fiber. People in agriculture used to fear disease and drought as the 
greatest threats to their livelihoods and their mission of feeding 
their neighbors and the world. Those hazards remain, but now too often 
it is the government--through interference and regulation--that poses 
the most existential threat to American farmers and producers. We aim 
to put a stop to that. As you may know, the President recently 
announced the creation of the Interagency Task Force on Agriculture and 
Rural Prosperity. With USDA as chair, we will examine, consider and 
take actions to address current barriers to economic prosperity and the 
welfare of communities in rural America, including how innovation and 
modern technology and infrastructure play a critical role in fully 
bringing communities into the 21st century. This multi-department group 
will find ways to improve regulatory flexibility and provide relief for 
farms and small businesses. We will examine how the Federal Government 
does business and how that impacts rural communities, and food and 
fiber production. And we will, at every turn, ensure that decisions and 
actions are founded in principles of sound science and validated facts. 
The questions we are asking at USDA, and that I will be asking the task 
force, are fundamental to this process: How do we impact jobs and job 
creation; are we doing things that make sense; do the costs outweigh 
the benefits; and, is there better way or better place we can do it?. 
We have a lot to tackle. It is long overdue and must and will be done.
    Another key issue that I hear about is the continued instability in 
the agricultural workforce. This instability often limits not only 
farmer's ability to grow their businesses but also consumers' access to 
freshly grown, local products. It is my priority to ensure farmers and 
ranchers have access to a legal and stable workforce and I look forward 
to working with the President, Congress, and with the other 
stakeholders to find a solution.
    We must also work with our producers to expand foreign markets to 
sell their products. Ninety-five percent of the world's consumers live 
outside of our borders. That means our trade agreements open a world of 
opportunities for American businesses. In FY 2016, American 
agricultural producers achieved $129.7 billion in exports, and FY 2017 
exports are projected to reach $136 billion. Agricultural exports 
totaled over $1 trillion for the period FY 2009 through FY 2016, the 
best 8 year stretch in history, and agriculture has produced a trade 
surplus each year since the 1960s. Agricultural exports support more 
than one million American jobs both on and off the farm each year, a 
significant part of the estimated 11.5 million jobs supported by total 
exports all across the country. Agricultural exports support farm 
income, which translates into more economic activity in rural areas. 
Each dollar of agricultural exports is estimated to stimulate another 
$1.27 in business activity.
    However, the slowing global economy and appreciating dollar have 
put unprecedented competition on U.S. farmers. Many countries do not 
respect fair trading rules that have already been agreed to as part of 
previous agreements and many others insist on enforcing trade barriers 
to our products that are not based on sound science. I assure you that 
USDA will use all the instruments available to us to ensure our 
agricultural producers and products get fair treatment in foreign 
markets. For example, we are challenging China's trade and support 
measures affecting our grain exports, and we are actively engaged in 
addressing the discriminatory and unfair dairy policies that Canada 
recently implemented. This Administration will not stand idly by as 
other countries try to take advantage.
    In addition, just last week, I directed a reorganization of USDA to 
focus our attention keenly on agricultural trade, consistent with 
direction from the 2014 Farm Bill. The Under Secretary for Trade and 
Foreign Agricultural Affairs will be responsible for coordinating 
agency efforts at opening new and protecting current markets. I believe 
your Committees had great forethought in including this provision in 
the farm bill, and this will strengthen USDA's ability to ensure a 
level playing field for U.S. farmers and ranchers in the global 
marketplace. Moreover, the Under Secretary for Trade will bring new 
energy and support to our interagency relationships with Commerce and 
the U.S. Trade Representative.
    As part of that reorganization, and touching on the equally 
important priority of customer service, we are combining the critical 
functions in our Farm Service Agency, Risk Management Agency, and 
Natural Resources Conservation Service under a single umbrella to 
ensure our services to farmers and ranchers are efficient, streamlined, 
and deliver the results that our producers expect and need. Our 
customers will have a one stop shop, with common leadership and one 
voice, to provide the services they need. The walls are coming down, 
and our employees will be empowered to work together to serve USDA's 
customers. I am also elevating our Rural Development program to report 
directly to my office. The economic vitality of small towns across 
America is crucial to the future of the agriculture economy, and we 
will be leveraging USDA's expertise in rural development as the 
Administration works to increase investments in America's 
infrastructure.
    Through these and other actions, USDA will prioritize customer 
service every day, across the mission areas. Our customers expect, and 
have every right to demand, that we conduct the people's business 
efficiently, effectively, and with the utmost integrity. Arguably, no 
other Federal agency has more direct interface with Americans than does 
the Department of Agriculture. In food and nutrition services alone, we 
interface with over 50 million Americans every year. This does not even 
count the children who benefit from school, summer, and child care 
nutrition programs. We touch millions of Americans through a host of 
other programs, as well. If we take into account our farm services, 
rural development, conservation, extension and education programs, we 
touch every single facet of American life. If we are to do the best for 
our producers and feed the world by 2050, we must not only continue to 
provide top rate customer service, but we must also develop strong 
partnerships so that we can face our challenges together. Together with 
our 100,000+ employees spread across thousands of locations around the 
United States and the globe, I know we can make USDA the best agency in 
the country.
    Next, since our taxpayers are also consumers, we know they expect a 
safe and secure food supply, and USDA is committed to continue to serve 
in the critical role of ensuring the food we put on the table to feed 
our families meets the strict safety standards we've established. By 
having the best science and data, we will be able to make strong 
strategic decisions that will transcend generations, not just the next 
budget cycle or farm bill.
    And, last but certainly not least, we must preserve the land--and 
we must relentlessly pursue clean air and water. Stewardship is not 
optional for farmers, producers and ranchers. American agricultural 
bounty comes directly from the all the resources used to produce food 
and fiber. Today, that land and those resources sustain more than 320 
million Americans and countless millions more around the globe. My 
father's words still ring in my ears, ``Son, if you take care of the 
land, it will take care of you. Owned or rented, we're all stewards, 
and our responsibility is to leave it better than we found it.'' 
Without proper care, our resources could be squandered. Science and 
hard work will help us find the best ways to produce our crops, be 
mindful of our use of inputs, preserve the soil, keep our air and water 
clean, and allow us to live in a better place than we found when we 
started. Rather than clearing another acre of land, let's first seek 
out ways to produce more with what we already have. If we live by these 
principles, we can preserve our wetlands, our watersheds, our forests, 
our prairies and our ecosystems for generations to come.
    In conclusion, I want to make clear that the U.S. Department of 
Agriculture will make sure that our interests are represented in policy 
deliberations, that we will advocate for agriculture at every turn, 
that we will seek out and open markets for our commodities, that we 
will be stewards of our land and that we will meet our moral obligation 
to feed a hungry, anxious world. We have a farm safety net that--while 
not perfect--is providing assistance to many, but that can be improved 
to be more market oriented. And, overall, I am confident in the future 
of the rural economy and see opportunities for us to continue to 
strengthen this outlook and create opportunities for Rural America in 
the future.
    I look forward to answering your questions.

    The Chairman. Well, Mr. Secretary, thank you very much.
    The chair reminds Members they will be recognized for 
questioning in order of seniority for Members who were here at 
the start of the hearing. After that, Members will be 
recognized in the order of arrival, and I appreciate Members' 
understanding.
    And with that, I recognize myself for 5 minutes.
    Mr. Secretary, again, thanks for being here, and we are 
looking forward to working with you across the myriad of issues 
that we have, going forward. As I mentioned in my opening 
comments, I represent a lot of cotton farmers. I believe we had 
a very elegant fix to the issue with respect to cotton, to the 
STAX program, that didn't work. It should have been in the 
omnibus bill, but our colleagues, particularly two of them in 
the Senate, refused to see the wisdom of that, and for their 
own purposes and own benefit, didn't let that happen. Now we 
are left with the same wreck in cotton. I hope I can count on 
working with you across whatever tools that we have. Obviously, 
we think that cottonseed could go under the title I program, 
and although there could be a lot of challenges with making 
that happen, we would look forward to working with you either 
on that or other issues with respect to getting some help to 
offset what China and India have done to the market, that will 
allow our producers to compete properly.
    I would like to turn now to the Trade Under Secretary that 
you have announced. Obviously, as authorizers of the 2014 Farm 
Bill, we thank you very much for seeing the wisdom of that. Can 
you talk to us a little bit about how you see your Under 
Secretary working with the other array of trade entities, 
whether it is the USTR, Department of Commerce, whoever that 
might be, and the role that that Under Secretary would play, 
not only in making sure the negotiations go the correct way, 
but also making sure that the Administration keeps a close eye 
on enforcement of the various trade things that we have out 
there. Could you walk us through your vision of that?
    Secretary Perdue. Certainly, I would be happy to, Mr. 
Chairman. Before I get into the answer to that question, you 
and I have had conversations. I was very pleased that the 
National Cotton Council came up with a very innovative and 
creative budget-neutral idea over their program, and it is very 
disappointing that we were not able to get that done, but we 
can look for its resolution in the 2018 Farm Bill as you 
indicated.
    Certainly, as I went around visiting, I visited with really 
\3/4\, 75 of your Members on the other side of the House, and 
trade was on all of their minds really because we are fortunate 
to live in a nation where we can grow more than we can consume, 
and that is the essence of trade; doing what we do well, and 
also it is a noble endeavor to feed the world. Our new motto 
for USDA is, ``Do right and feed everyone.'' And that is what 
we want to do; we want to feed the hungry here in the United 
States, but we want to feed the hungry around the world. And 
our producers and ranchers have demonstrated a capacity to 
share and to do that. That is what trade is all about.
    In the 2014 Farm Bill you all recognized that, and 
suggested very strongly for an Under Secretary for Trade. I 
happen to agree with you. It was not an easy thing to do. There 
were several components that had to come together, and we are 
working through those details right now. But we felt it was 
important because trade was almost number one on everyone's 
mind that I spoke with, internally, externally, in the Senate, 
and for those of you who commented as well. We have to sell our 
way out of this supply/demand situation that are depressing 
prices in the U.S. now, and that is what we hope to do.
    We have seen some early successes of that, and we will 
continue. The fact is, my opinion is that people do business 
with people, and I want someone every day that woke up with 
that on their mind: where can I go to sell United States 
agricultural products around the world, who is hungry, who will 
buy, how can we do the deal. Now, our role at USDA is to 
provide the expertise, the content, to the Secretary of 
Commerce, Secretary Ross, and to our new Trade Representative, 
Mr. Lighthizer, in order to be a triumvirate of sales. The 
Secretary of Commerce has a broader portfolio than we do at 
USDA. But that is the blending of trade; you do what you do 
well, and we sell you what we do well.
    I have been very impressed with Secretary Ross and his 
really sinking his teeth into ag issues and ag products there, 
and we are very pleased with the progress that we have made so 
far.
    We believe the Secretary of Trade will be on everyone's 
front door as often as can be. This guy is going to be a 
million mile flyer around the world to be there in person, 
because we know that foreign interests love to see you in 
person. It is an honor for them, for us to come to their 
doorstep, and call on them and say here is my card, we want to 
do the deal. And that is important. We can do conference calls, 
we can do videos, but the presence is important. That person 
could not do that when they were also charged with the Farm 
Service Agency of having all these multiple offices around the 
country dealing with those customer-facing issues every day. I 
felt very strongly that the segregation of that; having an 
Under Secretary for Trade, was vitally important to get the job 
done of selling these bountiful products.
    The Chairman. Well, again, thank you, Mr. Secretary, for 
being here. I look forward to working with you.
    With that, I will recognize the Ranking Member for 5 
minutes.
    Mr. Peterson. Thank you, Mr. Chairman.
    First of all, Mr. Secretary, I want to let you know, and I 
think you know this, that I very strongly support the Chairman 
and the cotton industry, and finding a fix for them, and so 
whatever you can do to help, I will be there to help as well.
    The Rural Development issue has caused some consternation 
here and there, but I take you at your word that you are going 
to continue to make that a priority, you are the Secretary, you 
decide how the Department should be run. And the only thing I 
would say is we are going to watch to make sure that Rural 
Development gets the same kind of emphasis that it always has. 
And you have said that, and I expect that will happen.
    And another issue that I hope you and Secretary Ross, and I 
think you will, keep the Mexicans' feet to the fire on the 
sugar issue and try to get that resolved. So far you have been 
doing a great job with that.
    One of the things that I went through here recently, we had 
a High-Path AI outbreak in my district, and the Department did 
a great job responding to it, and the state and everybody. I 
have had a firsthand look at this, and it is clear that the 
time to start a conversation with our trade partners regarding 
the use of vaccines to minimize the impact of High-Path AI 
doesn't need to happen during the course of the outbreak. It 
seems like what we do, but it needs to happen at a different 
time. That is when the trade impacts are the most damaging.
    Do you think that because of the trade impacts associated 
with a decision like the use of vaccines to eradicate a 
disease, such as a stamp-out procedure, should begin now rather 
than when we get into the next----
    Secretary Perdue. It is wise, obviously. Sometimes, I 
guess, the saying we have in Georgia, ``When the mule is out 
the gate, it is too late to close the gate.'' You don't get 
that opportunity after an outbreak has occurred. You all are 
wise in considering a vaccine bank, whether it is foot-and-
mouth disease, whether it is High-Path Avian Influenza.
    I will comment on the fact that while the 2015 outbreak of 
High-Path we were a little slow to respond, both at the state 
and probably the Federal level, the outbreak that we have had 
in Tennessee and north Alabama this year, I was very, very 
impressed with the process there. The biosanitary processes and 
protocols that our producers have learned, the depopulation, in 
the speed with which USDA moved over the indemnification 
issues, and there was no confusion there. To their credit, that 
was confined very, very tightly. And that is the best kind of 
insurance we can have, although this Committee and Congress is 
very wise to consider a foot-and-mouth disease bank, maybe 
High-Path AI as well, because of the damage to the market 
psychologically. What happens whenever we have any of these 
outbreaks, you go back to BSE almost 15 years ago or longer, 
that is how long it has taken us to get beef back into some 
nations there. It damages the market, not just for that period 
of time, but it gives people a loss of confidence in our 
reputation of safety in the U.S.
    We know that vaccination is effective, and you are wise to 
consider those efforts.
    Mr. Peterson. Thank you, and you are right that the people 
have learned a lot, and we are much better prepared to deal 
with this. But would a companion program for animal health 
mirroring the Plant Pests and Disease Program, administered by 
APHIS, be helpful in your opinion in managing these disease 
threats?
    Secretary Perdue. Certainly. From a food safety 
perspective, from the Animal and Plant Health Inspection 
Service, the USDA and those sub-agencies are probably second to 
none in the world. And that is why the USDA stamp is so 
valuable and revered around the world. People trust it and we 
want to continue to maintain those high standards in those 
areas.
    Mr. Peterson. I believe that you have tasked the Farm 
Service Agency with looking at a revamp of the CRP program. Did 
you give them any specific direction or are you just having 
them look at where things are at?
    Secretary Perdue. Well, Congressman, I am just beginning 
today my fourth week on the job, and while we are waiting for 
some of the other people to get into that, as you know, on the 
realignment we are talking about the FSA and NRCS and RMA being 
collocated and speaking with one voice and one database, 
frankly. But, again, the opportunity to deal with those kind of 
issues we have not specifically dealt with. I know a topic of 
interest and concern to you is CRP, I look forward to visiting 
with you again. I have not given specific directions. My 
comments about that is we can have some flexibility in the CRP 
program, maybe take out some of the least productive areas and 
use them rather than the whole-field type of philosophy we have 
had with CRP, give a little more flexibility in that way. With 
the wildfires we gave some flexibility regarding grazing on 
some of these areas as well. We want to be flexible while we 
maintain the integrity of the program, and help to train 
through FSA and NRCS our farmers to utilize their least 
productive acres; those that cost the most, and they may even 
have a better, higher net income if we don't try to plant wall-
to-wall.
    Mr. Peterson. Thank you, Mr. Secretary.
    And I yield back.
    The Chairman. The gentleman's time has expired.
    Mr. Lucas, 5 minutes.
    Mr. Lucas. Thank you, Mr. Chairman. And, Mr. Secretary, it 
is indeed good to see you.
    And you mentioned a moment ago on some of the burning 
issues, let's talk about that for a moment. I think most of my 
colleagues are aware that in the early part of March this year, 
a series of wildfires burned over 1\1/2\ million acres of land 
in western Oklahoma, western Kansas, and the Texas Panhandle. 
And these fires killed thousands of head of cattle, destroyed 
hundreds and hundreds of miles of fence, impacted countless 
families, businesses, and it is hard to estimate the impact on 
the smaller communities.
    On the 4th of April, 2017, USDA authorized emergency 
grazing on Conservation Reserve Program lands located in 
Kansas, Oklahoma, and Texas for 90 days. The flexibility to 
graze on CRP was, and is critical to the survival of many 
operations throughout my district. And that being said, it will 
take longer than 90 days to regrow the foliage, rebuild the 
facilities needed to maintain, contain, and care for the 
surviving livestock. And last week I, along with Representative 
Marshall on this Committee, and Representative Thornberry, sent 
you a letter requesting extension of the emergency grazing 
authorization past the current 90 day authorization. Would this 
extension be something that you would be willing to consider, 
Mr. Secretary?
    Secretary Perdue. Absolutely. I think it is a reasonable 
request. As you know, I didn't get to the burned areas, but my 
first trip outside was Kansas City. I heard directly from many 
of those affected about that. And that is a reasonable request, 
certainly one that we would consider very, very seriously in a 
reasonable request effort, because we know that grass doesn't 
just necessarily grow right back on those kind of issues.
    Mr. Lucas. Absolutely, Mr. Secretary. And I have lived all 
my life in northwest Oklahoma, but I have never seen anything 
of the magnitude of these fires. Drive for 20 miles and see not 
one living creature.
    Secretary Perdue. Yes.
    Mr. Lucas. It is just the most amazing thing. The potential 
for that extension would have a tremendous impact upon my 
constituents.
    To touch on one other point that my colleagues have talked 
about already, in concept, the NRCS, the FSA, and the RMA 
coordination could improve by being under a single mission area 
of farm production and conservation. And I am particularly 
sensitive about these issues because my district was ground 
zero in the Great Depression and the Dust Bowl of the 1930s. 
And part of why, in the drought of the 1950s, and the drought 
that we went through in the early part of this decade, things 
were so dramatically different were all of those conservation 
efforts properly practiced out there, encouraged by the NRCS 
and the predecessors of the Soil Conservation Service. How will 
you ensure that that conservation mission will not be 
diminished in any way under this new management program, and 
that the voluntary incentive-based conservation, which is the 
way we have practiced it since the 1930s, will continue to be 
the highest priority of the Department?
    Secretary Perdue. It is a good question. Mission has no 
change at all. Personnel, no change. All we are doing is trying 
to bring the family together where we can communicate better to 
serving that same customer, whether they are signing up for a 
farm program, an ARC, PLC, or EQIP or other things there, to 
come in. I view it as an economy of scale issue. If you have 
NRCS in one area, and you have FSA, and they have two people in 
the office and one of them out, our customers are suffering. If 
you have four people there, that is a little bit better economy 
of scale to serve people.
    We are really talking about the same customers. Now, from a 
family perspective, how do we communicate, when farmers and 
ranchers walk into those offices I want to say, whoever greets 
them, how can we help you today, not, that is not my job. And 
that is the purpose of the realignment. We will learn better to 
communicate, we will learn better the real needs of the farm 
rancher customer that walks in the door, helping to do a farm 
plan for them. If they are signing up for one thing and we are 
right there, then we can say, well, let's do an NRCS waterway 
program that way, and help them be more aware of all the things 
NRCS can do.
    I agree with you, the technology of better water, cleaner 
water, we are making great strides in. Our farm community is 
really understanding their stewardship ability, or really 
opportunity, better than they ever had. They now understand 
they are responsible for that off-flow off their farms, and 
they want to do the things. NRCS is critical in enabling them, 
teaching them, educating them how to do that.
    There will be no change in the mission. We are realigning, 
in a closer family atmosphere where we can have a critical mass 
to help people better.
    Mr. Lucas. Thank you, Mr. Secretary.
    I yield back.
    The Chairman. The gentleman's time has expired.
    Mr. Scott, 5 minutes.
    Mr. David Scott of Georgia. Thank you very much.
    Mr. Secretary, all of Georgia is very proud of you, and 
this nation will soon find out why. You are a wonderful, 
wonderful person, and we are delighted to have you as our 
Secretary of Agriculture.
    Mr. Secretary, we are faced with a very serious national 
crisis, and that national crisis is the expanding age of our 
farmers. The average age of our farmers is right at 60 years of 
age. And we in this Committee have put together a bill to 
address that. It is House Resolution 51. Let me just tell you, 
we have been on this mission for over 2 years. It gives us an 
opportunity to utilize the 19 1890s African American land-grant 
institutions, which you are familiar with. Fort Valley is a 
case in Georgia. And you know the whole history of that. We 
were able to make sure that we had these land-grants.
    You have the University of Florida, you have Florida A&M, 
and Prairie View in Texas, and so forth. The Presidents of 
these universities have come before this Committee and 
addressed this need. We have this bill. It is House Resolution 
51. What it does is this. It will allow us to utilize these 19 
1890s to address this issue and get our younger generation into 
farming, into agriculture. And more than that, agriculture is 
new farming, it is far beyond the mule and the plough from 
past; agriculture is a very sophisticated, technology-driven, 
science-driven engineering. These African American institutions 
have curricula applied to address what we refer to as STEM; 
science, technology, education, and math, at these.
    What we want to do with this bill is to change some 
language in the farm bill which would, one, right now these 
universities can only spend the money we give them in 
education, research, and extension. But we want to change and 
add a fourth area that they could spend it in, which would be 
student scholarships. We have also set aside and we are working 
with the CCC, which is the Commodities Credit Corporation, to 
make sure we have the sufficient funds available. We are 
offering $1 million for each of the 5 years, for each of the 19 
schools. That comes to $95 million. It is something that these 
universities who have been there in the fire, and have helped 
to find young people a way out of no options. And we have not 
exactly been efficient in applying funding, but this would be 
the area to do it.
    I want you to know that this is a bipartisan bill. We have 
Kevin Cramer, from North Dakota, as the sponsor on the 
Republican side, myself, several on this Committee; Ms. Fudge, 
Mr. Lawson, Ms. Adams, another Republican, Mrs. Mia Love out of 
Utah.
    So what I want to ask of you, and I know you have been on 4 
weeks, we want to make sure, we sent the bill to your staff, 
and certainly we want you to really get familiar with it and 
help us get this bill through our Committee here where it is 
now, onto the floor and to the Senate, and to the White House. 
We have been in touch with the White House. We are working with 
the Senior Legislative Director there, Marc Short. Marc is very 
familiar with it, and our Blue Dog Democratic meeting he and I 
talked about it. And President Trump is interested in this type 
of effort. And, of course, when you read it, if they haven't 
already informed you, the administration of this particular 
bill will be through the Department of Agriculture.
    So we appreciate you. We can't get it done without your 
help here. And so I want to ask you for your support, and to 
work with the Committee and help us get this through the House, 
through the Senate, and over to President Trump.
    Secretary Perdue. Congressman Scott, you have identified 
some real challenges. You talked about the age issue, but those 
are particularly significant and disadvantage to opportunities 
as well.
    Mr. David Scott of Georgia. Yes.
    Secretary Perdue. You know that I am very, very familiar 
with Fort Valley State University, having grown up in the 
county next door, and the beneficiary of one of their honorary 
doctorates as well. We understand the power of these land-grant 
universities here across the country, because our extension 
service is directly responsible for the productive capacity of 
that. If we can use some scholarship dollars to bring these 
young people in who have a desire. Many times they haven't had 
the advantage of growing up on a farm. We are seeing this in 4-
H and FFA where young people understand all the science, the 
technology, the big business, the problem is the high capital 
barrier to enter agriculture.
    Mr. David Scott of Georgia. Right.
    Secretary Perdue. But if we can train more people with a 
passion for agriculture in these institutions, and you have 
heard the President affirm his commitment to that with funding, 
I would welcome the opportunity to utilize those kind of funds 
across the HBCU community and those land-grant facilities where 
we can use that for the betterment of agriculture. I applaud 
you.
    I hate to tell you, your colleague, Mr. Bishop, has already 
beat you to the punch on that. He got me the copy of it, I am 
familiar with it.
    Mr. David Scott of Georgia. No wonder. Great.
    Thank you, Mr. Secretary.
    The Chairman. The gentleman's time has expired.
    Mr. Gibbs, 5 minutes.
    Mr. Gibbs. I thank the Chairman. And congratulations, Mr. 
Secretary, and thank you also for the willingness to take on 
this endeavor. It is not an easy task and I want to thank you 
for doing that.
    I see in your bio, I am from Ohio, that you did spend a 
little time in Ohio as a veterinarian during the Vietnam 
conflict, and so you got a little taste of the Buckeye State. I 
think you were just there in southern Ohio recently.
    Secretary Perdue. I did. We were in Cincinnati just 
recently and southern Ohio, but I was just south of Columbus at 
the Air Force base there and got familiar with a lot of your 
farmers out the south gate of that base, and they had some 
pretty nice pheasants at that time. I hope they are coming 
back.
    Mr. Gibbs. Yes, I hope so too. You might not remember, but 
about 3 years ago I was asked to make some remarks, it was the 
National Council of Farmer Co-ops in Hilton Head, and I 
remember this, after I had made my remarks you came up and 
introduced yourself and we had a nice little chat. And that is 
my only interaction so far I have had with you, and it was a 
good memory so I appreciate that.
    I want to mention a couple of things: I want to also thank 
you for re-evaluating the School Lunch Program, bring some 
commonsense to that, and I wish somebody, and maybe it will be 
you, not only talk about the nutrition aspects but let's talk 
about exercise and activity. School-age kids can burn a lot of 
calories, and I don't think they are getting the activity and 
exercise like we used to when we were kids. It is good that we 
are putting, I guess we only have two percent milk, it is one 
percent or skim milk in the schools, and just some common sense 
and reasonableness. And I know my dairy producers will 
appreciate that in Ohio, we are a big dairy state.
    Also I want to thank you too, on the regulatory side the 
Waters of the United States, some common sense in there, and 
working with Administrator Pruitt and the EPA to go back to the 
states, and work on a rule that addresses the Supreme Court 
decisions.
    Also I want to ask a question, first of all, on the crop 
insurance. Do you have any thoughts how we can make crop 
insurance better and make it a more essential part of the 
safety net program, because as a policymaker, when I talk to 
non-farming public, you talk crop insurance the non-farming 
public can understand that better. And I would argue in a 10 
year budget window, it probably isn't that much cost to the 
taxpayers, but it really helps in the years when we have a 
disaster, like a widespread drought. But on the revenue side 
and the weather side, can you maybe give us your thoughts of 
what we could do to make crop insurance even better, and it 
would work for the producers' aspect.
    Secretary Perdue. I would be happy to, Congressman. Again, 
what we see, I agree with you, I think an insurance program for 
our producers is a much more palatable safety net program from 
the public shareholder perspective than direct payments were. I 
thought you all made a lot of progress in 2014 in transitioning 
to that area of ARC, PLC, backed up with crop insurance, which 
put some responsibility on the producers themselves.
    Now, that insurance program is not perfect, we have some 
things we need to readjust. There is, on cotton, for instance, 
the Chairman is interested in, we have a quality issue that the 
quality degradation is not right. We hope to adjust that.
    The other thing that your producers may have, if they are 
on ARC, may have a county payment in one county, or might farm 
in both counties, and it is different and they don't quite 
understand those differences either as well. There is some fine 
tuning. Overall, the insurance program has been a great 
addition. We need to look at more specialty crops, how we can 
cover more specialty crops in that area and more. We don't want 
to create a program where our producers are farming for the 
program, and that happened in the past, and that creates some 
unnatural market forces that we don't want to have happen. We 
want a true safety net for those who are doing right, and we 
don't want people farming for insurance payments either, we 
want them farming legitimately. But the insurance ought to be 
utilized when there is a true revenue loss to that producer, be 
it be price, or be it be production, and how can we design that 
program.
    You all had a great start, and we will look forward to 
working with you all as we go through the 2014 Farm Bill to 
make sure that the RMA program is even more effective, going 
forward. We know that the STAX program was not as helpful to 
the cotton producers as you all would have hoped, and the dairy 
program, certainly on some of those issues----
    Mr. Gibbs. Yes. Well, I am really concerned about the 
dairy. We are running out of time here, but hopefully we can 
have time get to questions on trade and especially Asia and 
NAFTA.
    Secretary Perdue. Sure.
    Mr. Gibbs. I have to yield back now.
    The Chairman. The gentleman's time has expired.
    Mr. Costa, 5 minutes.
    Mr. Costa. Thank you very much, Mr. Chairman.
    Again, welcome, Mr. Secretary, and we look forward to 
working with you. And you, like myself and many of us here, 
reflect generations of farm families, and we obviously welcome 
you to this important effort as we look at reauthorizing the 
farm bill.
    I don't want to repeat what has been discussed already; 
Farm Credit, crop insurance, cotton, and dairy, but I would 
like to focus on some California issues specifically.
    As the number one agricultural state, the diversity and the 
breadth and the width, we take great pride in the production in 
California, and I know you are aware of it. My California 
colleagues and I here on the dais would like to invite you 
sooner rather than later to come out to California where we 
could have a conversation with our farmers, ranchers, dairymen 
and women, and talk about the complexity of California 
agriculture.
    Speaking of which, we worked very hard in the last farm 
bill to provide the opportunity for the California dairy 
industry to participate in the Federal Marketing Order. We have 
completed the process of the due diligence. USDA is moving on 
this Milk Marketing Order. I would like to get your thoughts on 
the current timeline, and can we tackle this final rule before 
the end of 2017? As you know, the quota issue, if you haven't 
been briefed on it, is a key part of whether or not the dairy 
producers will provide a \2/3\ vote to join the Federal 
Marketing Order.
    Secretary Perdue. Certainly, Congressman, I would be happy 
to answer as best I can. I will admit to you that even when we 
were in the dairy business, I am not sure I ever understood the 
Marketing Orders, but I hope to understand it better, going 
forward.
    Back to your original question about diversity of 
agriculture in California. I had the pleasure this past week of 
meeting with about 30 of your Western Growers there that 
comprised California, Arizona, a little bit of Nevada there.
    Mr. Costa. They said you did a good job.
    Secretary Perdue. And we talked about that. They were 
thrilled to know that while I grew up on a diversified row crop 
farm, my father's first love was truck farming; melons and 
beans and sweet corn, and those kinds of things. We kind of got 
out in a brotherhood bond there with those guys. But the Milk 
Marketing Order, you have a very significant dairy industry in 
California, and the Marketing Order is important for stability 
and predictability in the milk prices. As I understand it, we 
just completed the first step in that on the 15th of May here, 
releasing that, and I will commit to you that we will complete 
that Marketing Order by the end of the year.
    Mr. Costa. All right, let me move on because we don't get a 
lot of time here. Obviously, this is a conversation to be 
continued.
    Trade, obviously, is very important. I was disappointed 
when the President withdrew from all the work that had been 
done on the TPP. Nonetheless, there were a lot of elements in 
there that applied to both Mexico and Canada, and I want to 
applaud your efforts to taking that map. I would like to see 
that map that you took to the President and talked about the 
importance of our trading partners, both in Mexico and Canada.
    Do you believe that some of the elements that were 
contained in the TPP can be the basis of moving forward, as 
Secretary Ross and yourself and the trade ambassador do what 
the President has requested, and that is to renegotiate NAFTA?
    Secretary Perdue. Absolutely. Again, many of the principles 
that were included in that, and actually in tandem with the 
renegotiation of NAFTA, you might see sort of a trilateral TPP. 
I am just suggesting that, but many of the principles that you 
all had in these negotiations are still viable, it is just a 
matter of fine-tuning those in a way that makes sense, I don't 
think this Administration is not against free trade at all, it 
really is more concerned to fair trade.
    Mr. Costa. Well, and to that point, it works both ways. I 
mean we, in 2010, dealt with the Mexican trucking issue, and 
last year with the Country-of-Origin Labeling. If we play that 
game, they can play that game with reciprocity, and then it 
becomes a real problem, and we need to understand that. We 
stand ready to work with you on that.
    And then finally, agricultural labor is a big issue, and I 
know that Western Growers brought that to your attention. It is 
something we are going to have to continue to fix the broken 
immigration system in this country, and we would look forward 
to your support and efforts along those lines.
    Secretary Perdue. Absolutely. Again, I want to define my 
definition of fair trade. You don't have trade unless it is 
fair for all those involved.
    Mr. Costa. Right.
    Secretary Perdue. And we understand that. That is the 
essence of trade, actually. They have some pretty good 
negotiators on the other side as well, so I don't think you 
have to be too concerned about us taking advantage of anyone.
    Mr. Costa. No, it is just a two-way street, that is all.
    Secretary Perdue. Right. On the labor issue, it was trade, 
labor, and regulation as I heard over and over again; and 
critically important is agricultural labor. I had an 
opportunity to converse with the President on that. He 
understands the contribution that many immigrants are making to 
the ag economy, and we are going to help to provide a way 
forward for our producers in that area.
    Mr. Costa. Thank you.
    The Chairman. The gentleman's time has expired.
    Mr. King, 5 minutes.
    Mr. King. Thank you, Mr. Chairman.
    And, Mr. Secretary, I very much appreciate you being here.
    Secretary Perdue. Yes.
    Mr. King. I want to start out with a retraction of a 
statement that I made when I first heard of your name coming 
forward as Secretary of Agriculture, and I will say I thought 
it was candidly, but I said I hope it is more than about 
peaches and peanuts. And you came to Iowa 11 days after 
confirmation, and it was absolutely clear it is much, much more 
than about peaches and peanuts. And I was gratified to hear 
many of the things that you had to say there in the heart of my 
district. And I just wrote down a few of them here from memory. 
There will be a lot of colloquialisms that will come from our 
new Secretary of Agriculture, and it adds a lot of flavor to 
our rural life. For example, I am speaking of the trade that 
you grow it, we will sell it. I like that bumper sticker, and I 
have every confidence that will be the policy coming out of the 
USDA.
    And now, one of the other things you said is an oath is 
stronger even than a contract. That stuck in my mind as the 
piece of wisdom that a lot of us can apply to our job here 
every single day. And let's see, the equipment might be a 
little different but the people are the same. That is another 
thing that is true all across this country, and it is something 
we can keep in mind here in this Agriculture Committee. And I 
will leave out the full story about the cow's tail, but that 
made it all real, Mr. Secretary.
    So I wanted to welcome you to this Agriculture Committee, 
and I look forward to many discussions that we will have in the 
future years, and they will be very productive.
    One of the things on my mind though as far as an issue is 
concerned is the fear of foot-and-mouth disease, and it is some 
of the things that we have been working on for I would say a 
year and a half or 2 years now in my district and beyond. That 
is the worst calamity we can imagine as far as biosecurity 
situation is concerned. I have been doing some work there 
through Iowa State, and the request that I see across the 
industry is for a vaccine bank that starts out at about $150 
million, and then sells off some of that vaccine and keeps 
always a fresh supply there. We have another way to go where we 
can genetically design a vaccine that is going to be cheaper 
and can be reproduced more quickly.
    You went up the road to APHIS and I wasn't able to tag 
along on that stop, but I wondered if you had any fresh 
thoughts on FMD and what you might be able to tell this 
Committee on how you would approach our preparations for 
potential calamity.
    Secretary Perdue. Well, as a veterinarian, I obviously 
understand the benefit of vaccination, and the fact that we 
cannot psychologically afford even a foot-and-mouth disease 
scare here at all. We saw what BSE did to us, and we talked 
about that earlier, but I want to compliment you on how well 
you listened in Iowa. I was delighted to be in your district, 
and to move up from the cows on the farm, a very innovative 
family farm operation there, up to the APHIS Ames facility. I 
was very impressed. We talked specifically about vaccine banks 
there. They are a repository, along with Iowa State, a USDA 
facility responsible for vaccination protocols as well. I am 
hopeful, I look at vaccine banks as insurance, and you can't 
have your house burn down and take out insurance after the fact 
and have it pay off. You have to have vaccines and you have to 
have a vaccine availability ahead of the time. I look at it as 
a wise insurance program.
    Mr. King. And I know there have been some estimates out 
there on what kind of a cost it might be if we have an outbreak 
of FMD, but do you have a sense of that? And I don't want to 
hold you to that on oath because those things are kind of 
amorphous, but could you give us a sense of the scope that your 
perception is?
    Secretary Perdue. I don't have any numbers right there, but 
it would be the antithesis of priceless.
    Mr. King. Yes, I will go with that.
    Let me shift subjects just a little bit, there has been a 
little discussion here on crop insurance, and I want the record 
to show that I absolutely support crop insurance. It is the 
essential component for risk management. And if we don't have 
crop insurance, we lose perhaps generations, especially young 
farmers. And so it is essential to keep our family farms on the 
farm, the ones we have left.
    I will just ask the question this way. Would it be your 
belief that the unsubsidized premium for crop insurance should 
reflect the risk?
    Secretary Perdue. Again, any valid insurance program, 
whether it is crop insurance or any other insurance program, 
has to reflect the reality of risk there. That is what 
insurance is all about. As I said, as we continue to perfect 
the insurance program, because I agree with you, and as you 
well know, credit in these economic times is getting more 
tight, lenders are requiring an insurance product, maybe 
forward contracting as well, so that the producers can 
demonstrate repayment ability. And as we go through there, yes, 
I agree that it ought to be commensurate with risk. That is a 
tough issue, how do we do that individually, or by county or by 
region, in a way to do that. That is why reporting is so 
important for our farmers. The Census is so important for our 
farmers and producers to make sure we have accurate data that 
we can make good, wise actuarial decisions on.
    Mr. King. Thank you, Mr. Secretary.
    Mr. Chairman, I yield back.
    The Chairman. The gentleman's time has expired.
    Ms. Fudge, 5 minutes.
    Ms. Fudge. Thank you very much, Mr. Chairman. And thank 
you, Mr. Secretary.
    Mr. Secretary, it was really good to hear you talk about 
feeding the world. That is very different from the President's 
budget which has cut almost every single feeding program, or 
zeroed them out. I am hopeful that you will win.
    I am as well concerned, as my Ranking Member, about Rural 
Development. It is indicated in the reorganization plan that 
there would no longer be an Under Secretary; it was going to be 
elevated in some way. I am not sure how that is, except because 
the Under Secretary reports to you now, so I am not sure what 
that change is really going to be. But I am concerned, and 
certainly we will see how it goes as we move forward because, I 
tell you, you have been really busy in 4 short weeks. This is a 
major reorganization. I am just going to be watching, as is the 
rest of the Committee, to see how we progress with that.
    Mr. Lucas raised the issue of NRCS, which I am also 
concerned about. And my first question to you is should we, in 
the future, look forward to seeing any kind of mergers within 
the agency or plans to close any of our NRCS offices? And my 
second question relates to the Office of Advocacy and Outreach, 
which Congress put in place so that there would be an advocate 
on behalf of small, beginning, and minority farmers. Last year, 
the USDA elevated that office to report directly to the 
Secretary, to you, sir. Your proposed plan now drops it back 
down to reporting to the Assistant Secretary for Departmental 
Administration. I just want to know what your thinking was on 
that.
    Secretary Perdue. Okay. Those are three important issues, 
and I would be happy to address all of them, if you don't mind. 
Again, from an RD perspective, I welcome the accountability. I 
am an outcome kind of guy. As I understand the current 
organizational chart, the Under Secretaries report to the 
Deputy Secretary, and I view the RD portion of this, 
particularly in limited resources, possibly with an 
infrastructure program from the Administration and you all. I 
am not a micromanager but I am a hands-on manager, and this is 
an area that Secretary Vilsack and I had wonderful 
conversations about how the potential of USDA has been used 
across the country in rural communities, both in water systems, 
both in utilities, and both in community facilities. This is 
something I guess I jealously wanted to be a part of. When I 
say elevated, I mean elevated to a portion where that person is 
going to be sitting close to me, with walk-in privileges over, 
this is a great opportunity, this is the deal, what do you 
think about, how can we do better to do that.
    I welcome your oversight in the RD portion. The mission is 
not going to diminish whatsoever. The distribution network that 
has been developed out here with great people all over the 
country is not going to be diminished at all. The people in RD 
are going to report to this Assistant Secretary, who will have 
direct access to the Secretary, and I consider that an 
elevation. You can think about it as a nomenclature, but there 
was in no way a diminishment. If you gave me the opportunity in 
a corporation to have direct access to the CEO on walk-in 
privileges over ideas versus a title of a VP, give me that 
direct access anytime. That is the influence, that is the 
power, the access. That is the way I view the RD, and I look 
forward to your accountability in that.
    NRCS' mission is not going to change, people aren't going 
to change. Maybe some locations might change from an economy of 
scale perspective, as I explained earlier. If we have disparate 
people and maybe two per office in different places, and we can 
combine there to have an economy of scale that makes a 
difference of service to our customers, we may consider doing 
that. In fact, there are actually preclusions about closing any 
places. If there is any combination of bringing the family into 
one house rather than being scattered out in a compound, then 
we look to have better service in that way.
    Third, the advocacy and Secretary Vilsack had made a lot of 
progress in that. I don't see that diminishing whatsoever.
    Ms. Fudge. Thanks, Mr. Chairman. I yield back.
    The Chairman. The gentlelady yields back.
    Mr. Austin Scott, for 5 minutes.
    Mr. Austin Scott of Georgia. Thank you, Mr. Chairman. 
Governor, Mr. Secretary, Mary's husband.
    Secretary Perdue. All great titles.
    Mr. Austin Scott of Georgia. Yes. I am not sure if you 
would be mending fence or checking cows right now if she hadn't 
agreed to marry you. You probably wouldn't be here.
    Great man, great family, and what you will find from Sonny 
Perdue is, if he can help you, he will help you, and if he 
tells you he is going to do something, he is going to do it, 
and I have always appreciated that from you.
    And, Governor, just a couple of quick comments and 
questions maybe. I was at the USDA research station in Byron 
this last week. As you know, research is not something that you 
can simply cut on and off; it is a long-term commitment, it is 
a long-term investment, and that investment has to be coupled 
with extension for it to actually get to the fields and help 
the farmers and our economy. And so they brought up while I was 
there the hiring freeze, and certainly hope that as we go 
forward we are able to come out from underneath that hiring 
freeze, and that you have the flexibility to put the people in 
the most effective areas with regard to research, and that that 
partnership will be there with the states, I know under you for 
the extension to actually get that research to the field.
    Your commitment to 4-H, your commitment to FFA is something 
that also those two organizations are extremely important to 
rural America, and I know that those organizations will benefit 
from you being in that position as well.
    One of the things that has changed on the farm in the last 
couple of years, and is changing at an exponential rate, is the 
use of technology. We know that President Trump will have an 
infrastructure program that will be put forward. The rural 
broadband, as you know, we need that, quite honestly, more than 
we need roads and bridges in many of the counties that I 
represent. You know from growing up in Houston County, you have 
metropolitan areas and then just a few miles down the road you 
have areas like you grew up in, in Bonaire, and I lived in 
Ashburn for a long time. I tell people I live in Tifton now but 
I actually live in Chula, Georgia. And so if you could just 
speak to the rural broadband issue, and any assistance that you 
believe that the USDA can give us with making sure that the 
rural broadband is a part of President Trump's infrastructure 
package. I would appreciate your comments on that.
    Secretary Perdue. I would be happy to, friend. First of 
all, let me talk about research just a second because you 
mentioned that. And you are absolutely right, the reason our 
producers are so productive today in the 21st century is 
because of the research and the foundation that has been laid. 
It is not something that can be cut off and on. And the other 
thing is the delivery system of that basic and applied research 
to the field through the extension service has been the wonder 
of the world, and we see what difference it has made in our 
productivity, and will continue to need to be as we have to 
feed nine billion people by 2050.
    That is important, but you made a great point, another 
thing that is just as important is the technology, because you 
know your producers in middle and south Georgia are using 
technology for better water usage, better technology for 
precision agriculture, for monitoring crop needs; whether it is 
whatever adding, and the telemetry that is needed out there is 
dependent on wireless technology and WiFi. The other thing 
sociologically, Congressman, in today's world of connectivity, 
it might be true in your house with Wells' age, if the water 
goes off that is kind of a disadvantage, if your lights go off, 
oh, bummer, if your heat goes off you will get a blanket, but 
if your WiFi goes off that is a crisis. And that is kind of 
what happens out there in the world today is we are not 
sociologically, to Congressman Scott's point, we are not going 
to keep these young people on the farm attracted there if they 
don't have the connectivity they are used to when they go to 
college. They are not going to come back. And it is vitally 
important. The good news is this is square on the radar scope 
of the President, as well as the FCC Chairman. I have had 
conversations with him. He is anxiously awaiting the 
infrastructure plan where we can ambitiously take rural 
broadband ubiquitously across the country. As you know, there 
are places in our home state you can't even get a cell signal.
    We have a lot of challenges, but I am convinced of what you 
hit on, it is the modern-day road, sewer, water of the 21st 
century is connectivity. And I look forward to promulgating as 
much of that as we can across the country.
    Mr. Austin Scott of Georgia. Well, Mr. Secretary, thank 
you. And Wells is most upset right now that it is not duck 
season, turkey season, and Nash Springs Fishery Services just 
took the snapper season away from him and only gave him 3 days, 
so any help with that would be appreciated. Thank you.
    The Chairman. The gentleman yields back.
    Mr. McGovern, 5 minutes.
    Mr. McGovern. Thank you. Thank you, Mr. Secretary, for 
being here. And I appreciated reading that your new motto at 
USDA is, ``Let's do right and feed everyone.'' I think we all 
hopefully share that goal.
    I was a little surprised in your opening statement and in 
your written testimony I didn't see any mention of SNAP, which 
is the premiere anti-hunger program in this country. We have 42 
million Americans who are food-insecure, who are hungry, many 
of them rely on this program to be able to put food on their 
table for themselves and their kids. It is one of the most 
efficiently run Federal programs we have. And I want to take 
this opportunity to thank the men and women who work at USDA 
who oversee and implement this program because it has one of 
the lowest error rates and fraud rates of any Federal program 
we have. We might want to consider lending some of those staff 
to the Department of Defense to oversee their defense 
contracting. They might get it better over there. But the 
bottom line is this is a good program. I worry because there is 
lots of talk, I have a bunch of articles that appeared in the 
last couple of weeks of Members of this body, and some people 
in the Administration, looking at SNAP as a place to basically 
try to find money to pay for other priorities; essentially, 
using it as an ATM machine, and that would be a mistake. We 
have heard talk of block granting SNAP, we have heard talk of 
putting more restrictions on the program, putting more hurdles 
in place to make it more difficult for people to be eligible 
for the program, which would be a mistake. The average amount 
of time that people are on this program is less than a year. 
And the benefit, I would argue, is inadequate. It is, on 
average, about $1.40 per person, per meal, which you can't buy 
a coffee for that nowadays.
    My question to you is, and I am looking for some assurance 
here that; first, you are a strong defender of the program, 
that you are not advocating structural changes, or trying to 
put more hurdles in place to make it more difficult for poor 
people to get food, because it is a concern of a lot of people 
in this country. I would be interested in hearing your views on 
what you plan for SNAP.
    Secretary Perdue. Thank you, Congressman. I did not include 
that because I was hoping you would ask me the question. I 
thought you would. But nonetheless, I agree with all that you 
have said. It has been a very important, effective program. I 
am a continuing improvement guy; can we improve maybe the 
delivery and the processes and the protocols there. Yes, we 
have some disparity between our states of how they are 
implementing and executing that, and the cost over delivery, 
and I would like to see more unanimity in some of those 
delivery mechanisms, learning from the best, learning from one 
another about how we can deliver those programs even better. 
But as far as I am concerned, we have no proposed changes. You 
don't try to fix things that aren't broken. And when the motto 
is, ``Do right and feed everyone,'' I view that as very, very 
inclusive.
    Mr. McGovern. Well, I find that reassuring. Just one other 
point, there has been a lot of focus on this group of people 
called able-bodied adults without dependents, and some have 
suggested that we be tougher on that population because, as you 
know, the rules are that if you are on the program and you are 
not working, or you are in a job-training program in 3 months 
you lose the benefit and you are not eligible to get it back 
for another 3 years. Bottom line is a lot of those able-bodied 
adults without dependents are veterans who have returned from 
serving our country halfway around the world. And while it may 
sound nice to kind of go after that population, the bottom line 
is it is a complicated population.
    And one other thing. Ms. Fudge mentioned the issue of our 
commitment overseas. Again, acknowledging that you were not 
here when the President drafted his budget, I am worried that 
programs like the McGovern-Dole International Food for 
Education Program, which has fed millions of kids around the 
world in school settings, the most vulnerable children in the 
world, it has been a tremendous success. I have visited these 
programs. It is zeroed-out in the President's budget. I worry 
about the future of Food for Peace. I am hoping that you will 
be a strong advocate to put the money back in for those 
programs, because I do think they represent the best of our 
country, and they contribute greatly to our national security.
    Secretary Perdue. I can't disagree with you again, 
Congressman. Again, from the perspective of veterans, I will be 
in South Dakota this Friday at a Vets for Ag program as we help 
to transition them into those jobs, because as you well know, 
the Supplemental Nutrition Assistance Program was a time-
limited program in a tough time period to help them get a job 
and so we want to be part of growing the economy of help 
restoring these veterans to a livelihood; and, frankly, we need 
them in agriculture. That is the heartbeat of USDA regarding 
veterans in there.
    We also support the states' waiver ability for veterans in 
that as well on those kind of restrictions.
    Mr. McGovern. Right.
    And I hope maybe beyond veterans too, not just veterans but 
sometimes there are vulnerable populations in addition to that, 
McGovern-Dole and Food for Peace as well. Thank you.
    The Chairman. The gentleman's time has expired.
    Mr. Crawford, 5 minutes.
    Mr. Crawford. Thank you, Mr. Chairman. Mr. Secretary, thank 
you. Good to see you again.
    Secretary Perdue. Yes, sir.
    Mr. Crawford. It has been just a couple of weeks since we 
toured some of the devastation in my district. Let me thank you 
for your responsiveness, your Department's responsiveness, and 
your personal attention on that issue. I think our 100 year 
floods are coming a little more frequently than every 100 
years. This is our third in 6 years, you saw that yourself. And 
I guess, as I mentioned before, and has been talked about here, 
crop insurance is an important component, no question about it, 
but as it applies to rice the practical to replant provision 
there has really added more confusion than clarity. And so I am 
hoping that you can, and I am certain that you will work with 
us on actually trying to provide some flexibility on that 
because, as you know, after May 15 it is strictly not practical 
to replant rice and expect a yield, so having some alternative 
would be much appreciated.
    Secretary Perdue. Congressman, I agree with you. You know 
that those contracts are set and it can't be changed for this 
incident, this tragedy that just happened, but the RMA has 
learned from that, and certainly on some of these dates on 
practical replant, makes a huge difference for guarding yield 
production, the quality of seed, the hybrid seed, and other 
things, the chemicals that are linked with that. You will see, 
and I will commit to you that you will see some changes in the 
RMA practical dates, going forward, for the 2018 contract.
    Mr. Crawford. I appreciate that. And I also want to thank 
you for your comments during your confirmation hearing with 
regard to Cuba. I think that is very important, and we have had 
a chance to visit about that, the value proposition that 
presents for U.S. farmers and ranchers. And I know at this 
point the White House is right now undergoing a Cuba policy 
review, and considering whether or not to reverse course on our 
recent expansion of relations with Cuba. I hope that you will 
be a vocal advocate on that score so that when they do develop 
that policy, that it would be inclusive on the ag front.
    Secretary Perdue. Well, certainly, the financial policy 
that you all are faced is beyond my pay grade, but someone said 
it earlier, if our folks grow it, I want to sell it. And they 
eat in Cuba as well.
    Mr. Crawford. Absolutely. On that note, H.R. 525 is 
something we have been working on for a while now. The Cuba Ag 
Exports Act actually removes the financial restrictions that 
you mentioned. Right now, we can sell ag products in Cuba, it 
is a cash up-front requirement that is really an impediment to 
fully realizing the potential of that market for U.S. 
producers. Many of the Members on this Committee are cosponsors 
of that legislation, including the Chairman and the Ranking 
Member. And I hope that you would be able to review that and 
endorse that bill because we want to try to move that forward 
as quickly as we can, provide greater market access.
    Secretary Perdue. As I said, that is something I would be 
supportive of. If folks around the world need private credit to 
buy our products, I am all for that. I probably would have some 
personal concern if we were doing public credit to the Nation 
of Cuba.
    Mr. Crawford. Absolutely. I share that sentiment. The bill 
is written to address that very provision, that it is strictly 
a private transaction with no taxpayer backstop, and that is 
important to note.
    To go back to cotton real quick. I just want to echo the 
concerns of the Chairman in regards to the problems that we are 
facing in cotton country. We are behind you by one, we are 
number three in cotton and Georgia is number two, and the 
Chairman will claim credit for Texas being number one in cotton 
production, but we are all in this together. And cotton 
producers need relief, and they need it yesterday. And, when we 
start to lose our gin infrastructure, as the old saying goes, 
``You can cut down an oak tree in 5 minutes but it takes a long 
time to grow it back.'' And so as we start to see our ginning 
infrastructure disappear it is going to have an impact on our 
rural economies, and in the broader sense on our economy and 
state in general. I hope that, as you have indicated, and I am 
sure you will, use every tool at your disposal to help us 
address that issue of the cotton producers belt-wide.
    Secretary Perdue. Thank you, sir. I haven't told the 
Chairman yet, but our Chief Economist just said Georgia was 
number one in cotton.
    Mr. Crawford. Is that right?
    The Chairman. Depends on which year.
    Mr. Crawford. Well, I appreciate it, Mr. Secretary, and we 
certainly look forward to working with you. And I congratulate 
you, and you certainly are the right guy at the right time, and 
we appreciate you.
    Secretary Perdue. Thank you.
    The Chairman. The gentleman's time has expired.
    Mrs. Bustos, 5 minutes.
    Mrs. Bustos. Thank you, Mr. Chairman. Secretary Perdue, 
thank you for joining us today. I look forward to working with 
you as I represent the northwestern part of the State of 
Illinois.
    I want to start with a quick question, I hope, and then go 
into something a little more in-depth. To start with, our aging 
locks and dam system. There is $37 billion in agriculture and 
food products that flow through the Illinois ports and 
waterways. Upgrading aging locks and dams on the upper 
Mississippi and Illinois Rivers is a top priority for the 
growers that I represent in my region. Congress has authorized 
these upgrades, but the Administration has to request the 
funding. And what I would ask of you, if you can answer with a 
yes or no that would be appreciated, but can we count on you to 
push this Administration to invest in our water infrastructure, 
and specifically, will you push for 1,200 locks on the upper 
Mississippi and Illinois Rivers in the President's 
infrastructure plan.
    Secretary Perdue. Yes, in the broad answer. Specifically, 
on the 1,200 dam, we will look at that and see. I was at the 
White House yesterday for an infrastructure meeting, and let me 
tell you that inland waterways is right at the top of their 
list over the contribution to the economy. We know how 
important it is to the ag economy. I was on the banks of the 
Ohio River in Cincinnati the other day and saw some of those 
barge-loading facilities. It is a huge advantage for the U.S. 
economy, and producers especially. We have other parts in the 
world in South America that might compete with us production-
wise, but they don't have the infrastructure. That wonderful 
river network that runs through your state and all through the 
middle of our nation is a vital resource for the world economy. 
If there is anything we can do, I commit to being a serious 
advocate for American agriculture. The logistics part is part 
of that, and the waterways are right at the front of that.
    Mrs. Bustos. Yes, we have the legislation, it is just a 
matter of authorizing the expenditure on that. And I would like 
to offer an invitation to you to come see the locks and dam 
system along the Mississippi River. That is the entire western 
border of my district is the Mississippi, and seeing the locks 
and dams that were built in the 1930s that really need a lot of 
attention. But we would love to have you come and visit us, so 
consider that an invitation.
    Quickly shifting gears, yesterday the Joint Economic 
Committee released a report outlining many of the economic 
challenges in rural America, which I would like to have entered 
into the record. But I would also like to acknowledge something 
that Congresswoman Fudge said earlier, that I am concerned 
about the Trump Administration budget that calls for a 21 
percent cut in USDA, including eliminating Rural Development's 
water infrastructure programs, and the Rural Business--
Cooperative Service. Just a big concern. And that can be 
echoed, you will probably hear some other questions from my 
colleagues here. But the reorganization also eliminates the 
Rural Development mission area entirely, as well as the Senate-
confirmed Under Secretary, which you have addressed for a 
moment. But it is my understanding that you have already 
submitted the reorganization plan to Congress for the mandatory 
30 day notification period, however, just today, you sought 
public comment through a Federal Register notice on the 
proposal. I was wondering about the formal reorganization plan 
sent to Congress, why that was presented to Congress before 
seeking feedback from the impacted stakeholders. Just your 
thought on kind of that order of that.
    [The report referred to is located on p. 67.]
    Secretary Perdue. I am not sure I can answer that question 
specifically, other than that I have given my vision, and we 
are progressing in the protocol, as I understand it, directed 
by our General Counsel to implement this. I visited with your 
Chairman and Ranking Member here, the Chairman and Ranking 
Member of Ag Appropriations to let them know of my plans and to 
do that. I may not be as attuned to the Federal requirements of 
permission as they are, but all I know is my heartbeat is to 
make good and to do well, and to make sure USDA continues to 
serve [Audio malfunction in hearing room] the best way. I can't 
answer the specific process question that you asked.
    Mrs. Bustos. Okay. I think your microphone might have gone 
out for a second there.
    Secretary Perdue. I got cut off?
    Mrs. Bustos. We still want to hear you.
    All right, well, I am hoping that you will listen to that 
feedback that is offered, and I am sure you will.
    The other thing is, will someone in your office take on the 
day-to-day management responsibilities of leading Rural 
Development with this new structure? It is a staff of 5,000, it 
is a loan portfolio of more than $225 billion, and for that to 
go straight up to you, the concern is just the attention that 
is going to be given to Rural Development. It is a big concern.
    Secretary Perdue. No, I can't handle all that myself. We 
are going to have an Assistant Secretary directly reporting to 
me that will be the go-to person. If it makes you feel better 
to call that person ``Under Secretary'' then enjoy that, but 
that person is going to have not only the responsibility of 
managing that portfolio, doing what we were doing that way, but 
also having direct access so we can move quickly and nimbly 
with a vision of improving rural America. So that is important. 
That person will be Senate-confirmed in that area, so you will 
have an opportunity to visit with that person and ask them all 
those questions of their commitment and passion to Rural 
Development.
    Mrs. Bustos. Thank you, Mr. Secretary.
    My time has expired. I yield back.
    The Chairman. The gentlelady yields back.
    Mr. DesJarlais, 5 minutes.
    Mr. DesJarlais. Thank you, Mr. Chairman. Good morning, 
Secretary Perdue. Your presence is greatly appreciated here 
this morning.
    I represent Tennessee's Fourth Congressional District. It 
is home to the National Tennessee Walking Horse Celebration, 
with a nationwide economic impact of approximately $3.2 
billion. The Tennessee Walking Horse industry directly or 
indirectly employs over 20,000 people in largely rural areas in 
farming communities where economic hardship is commonplace. The 
previous Administration obstructed progress and refused to 
cooperate with the industry to develop scientific inspection 
methods to replace the current subjective methods that were 
prone to error. Can folks in Tennessee count on you to be 
supportive of the Walking Horse industry, and facilitate 
scientific and objective inspection methods to eliminate soring 
so that people can continue to enjoy this time-honored 
tradition?
    Secretary Perdue. Certainly. I would love to comment on 
that. As you know, we have delayed that rule in order that we 
can get the facts about that. Beautiful horses, beautiful 
animals, but we have to balance that with our humane treatment. 
That is what APHIS does. For the reputation of the wonderful 
people in the Walking Horse industry, they want the bad actors 
out as much as anyone does. That is what we hope to have as a 
regulatory protocol that will ensure how the enforcement 
operates in that, how that is done, best assures the public 
that these animals are not being treated inhumanely in order 
for them to perform. I welcome that.
    Mr. DesJarlais. All right. We look forward to working with 
you on that.
    The Tennessee Cattlemen's Association appreciates the 
establishment of an Under Secretary for Trade position created 
in the 2014 Farm Bill. How are the bilateral agreements 
progressing with the countries that have been part of the TPP 
agreement? And many of these countries, as you know, offer 
significant market opportunities for U.S. beef, and I hope that 
under your leadership we can count on you to negotiate these 
bilateral agreements.
    Secretary Perdue. Well, certainly, the two great wins in 
that area is American beef back into Brazil already, already 
the first shipment, and I hope we will be able to announce very 
soon and show you a picture of U.S. beef going into China, 
which is a huge market. I think your cattlemen are looking 
forward to that. There are technical issues to continue to 
resolve when dealing with some of the international buyers. It 
is the Yogi Berra philosophy, ``It ain't over until it is 
over.'' That is what we are working on.
    Mr. DesJarlais. Any updates on Japan?
    Secretary Perdue. Japan, again, Secretary Ross, the 
President obviously asked me to write him a letter that he 
could write a note to the President, when he met with the 
President of Japan, to indicate again the protocols that we 
need to do to get back into there as well.
    Mr. DesJarlais. All right. And, Secretary, as you know, the 
nation's poultry industry has been reeling from devastating 
outbreaks of High-Path Avian Influenza the past several years, 
most recently which occurred in my district. A GAO report 
released last week highlighted that USDA has taken significant 
steps to respond to the crisis, but few ways to determine the 
effectiveness of these steps. In your opinion, how can our 
farmers enhance biosecurity and make their livestock less 
susceptible to the introduction of disease?
    Secretary Perdue. As indicated earlier in my testimony, I 
am very, very pleased with the reaction of your Tennessee State 
authorities in conjunction with our USDA APHIS people over the 
containment of the recent outbreak in south central Tennessee. 
I thought that was the way the system should work. There was 
very timely action toward depopulation and eliminating the 
potential spread of that disease, and it has been long enough 
now that if that had not been effective, we would have seen 
that. I think the system is working. We learned a lot from 
2015, and your State of Alabama and the State of Georgia all 
collaborated very, very well to make sure that the High-Path AI 
was contained. I think we are making progress. Can we do 
better? We can always do better.
    Mr. DesJarlais. All right. Well, again, congratulations. We 
are glad that you are finally in place. It took too long, but 
we are glad to have you, and thanks for being here today.
    I yield back, Mr. Chairman.
    The Chairman. The gentleman yields back.
    Mr. Evans, 5 minutes.
    Mr. Evans. Thank you, Mr. Chairman. Good morning, Mr. 
Secretary. How are you today?
    Mr. Secretary, you are a veterinarian by trade, and that 
Pennsylvania is the home of one of the greatest veterinarian 
schools in the nation; University of Penn. I was just visiting 
that school last week. Can you share the importance of 
veterinarian programs that you look to strengthen as it relates 
to our nation? I don't hear a lot about that, and obviously, I 
am really concerned. And also the aspect of diversity added to 
the element of veterinarian school.
    Secretary Perdue. Right.
    Mr. Evans. Can you speak a little bit to that?
    Secretary Perdue. Well, when it comes to food safety, 
Congressman, there is a zero tolerance policy, and that is what 
Americans expect, that is what we have come to benefit from, 
and the veterinary profession is intimately involved in that. 
When I graduated from veterinary school in 1971, I had 
volunteered for an assignment in the United States Air Force. I 
don't know that I realized that that would be a food safety and 
public health mission there. When I served in Ohio it was food 
safety and public health, and I learned a broad perspective of 
how important that was. The food safety industry and profession 
had not matured at that time in the 1970s, but I learned a lot 
about it, was trained in that area.
    We have great veterinarians in our inspection services all 
over. And while you are correct, your veterinary school in 
Pennsylvania is one of the renowned ones, along with Iowa 
State, Kansas, and others, along with my alma mater, University 
of Georgia, have done a great job putting out professionals who 
are part of that food safety network. We have also got great 
career professionals in USDA under the guidance of 
veterinarians who are doing great work in that.
    Much of the foodborne illness you see happens after that in 
the supply chain, delivery, in restaurants, and others, but we 
are committed to a zero tolerance policy to make sure that the 
food that Americans feed their families are safe.
    Mr. Evans. Mr. Secretary, in Pennsylvania, I was in the 
state legislature, and we dealt with the issue of Pennsylvania 
of food deserts and food insecurity, and came up with a program 
called the FFI Program, which was a public-private partnership 
that worked to address food deserts. How do you seek to address 
food insecurity and food deserts?
    Secretary Perdue. Well, again, some of the programs that 
you all have funded that we have the opportunity to award some 
grants regarding fresh vegetables and others, it is a healthy 
food program, FINI is one of them in that area, as well as 
another one that has to deal with those problems. There is very 
little money in that, frankly, but we have used pilot projects 
to understand how we can make sure that those people in the 
areas where food is not readily available have access, be it 
local farmers' markets or other ways, and certainly to be able 
to use their Supplemental Nutrition Assistance Program to 
access those. We look forward to understanding better how we 
can even do better in that regard.
    Mr. Evans. I have always said that food policy is foreign 
policy, and we know that food is a bipartisan issue that we all 
have to eat. What would you do to assure that everyone on the 
spectrum, from neighborhoods to global food economies 
prioritize the importance of food policy?
    Secretary Perdue. Well, we talked about, I want the motto 
to be more than just a motto; ``Do right and feed everyone.'' 
We have an awesome opportunity in this country as abundant food 
suppliers for the world, and that doesn't exclude our American 
citizens too who have less opportunity for food safety and food 
nutrition. But the fact is that whether it is the P.L. 83-480 
program, Food for Peace, McGovern-Dole, or others, I hope that 
we can see these programs sustained and be able to use the 
bountiful production of our American producers in order to be a 
weapon for peace around the world.
    Mr. Evans. Mr. Chairman, I yield back the balance of my 
time.
    The Chairman. The gentleman yields back.
    Mr. LaMalfa, 5 minutes.
    Mr. LaMalfa. Thank you, Mr. Chairman. And welcome, Mr. 
Secretary. It is really great to have you here, and I hope 
things are going well for you in your transition. And it is 
also very heartening to hear the colleagues that you know the 
best; our Georgia colleagues, that have welcomed you here 
today, and the nonpartisan way which everybody likes working 
with you. That is a really good indicator compared to some of 
the things going on around this town.
    There are so many issues here, and I am hoping, of course, 
that we see a rebound in ag commodities at the farm gate there, 
and then we can see exports are expected to come back up a 
little bit from a peak of just a few years ago.
    We have a lot of issues going on. I have a northern 
California district, top of the state, and one of the things 
that we are very, very, concerned about is USDA's oversight of 
the Forest Service and the need to be much better managing our 
Federal lands, and moving more into biomass using this over-
inventory we have of forest products, so that really need to be 
managed much better, as we have wildfires every year and we 
need to incentivize the biomass situation.
    So as we work on the Federal land issue, what do you think 
we can do to grow the markets for biomass, have more economic 
activity that would be jobs right in our own backyard, for 
material that needs to be moved right out of our backyard, for 
private land and Federal land? What do you think we can do more 
in that area for biomass?
    Secretary Perdue. One of the things that has not been 
talked about in our realignment, reorganization had to do with 
aligning NRCS and their mission area with FSA. That leaves NRE 
really with the responsibility of managing our U.S. Forest 
Service. That is where over \1/3\ of the employees in USDA are, 
and that is, frankly, where some of the biggest challenges have 
come from. We face litigation, we face NEPA challenges, and 
other kinds of things in order to utilize the renewable 
resources on all of our millions of acres out here; northern 
California and many other states, to do that. Actually, that 
means jobs as well.
    The good news, the fact is a healthy forest is less 
vulnerable to fire, and you all know that the fire budget has 
kind of gotten upside down in the Forest Service. We are 
spending more to fight fires than we are to prevent fires. We 
hope to get that corrected with your help and reestablished. 
But I believe, again, a mission area that is focused directly 
on utilizing the renewable aspects; whether it is deadfall 
going into biomass, or recovering these trees that might be 
down, they have a certain period of time that you can harvest 
them and they would be good lumber, to get ahead of that curve. 
The challenge is right now so much of that budget is spent in 
suppression rather than prevention, and we have to get ahead of 
that. But that is my desire.
    Mr. LaMalfa. Switch from \1/3\ of the budget to \2/3\ over 
the years.
    Secretary Perdue. That is right.
    Mr. LaMalfa. We are trying to address that with other 
legislation.
    Secretary Perdue. Right. That is right.
    Mr. LaMalfa. You mentioned NEPA too, that is very 
frustrating after a fire you have already had, the need to get 
in there and salvage within a short amount of time. We have to 
get it done. Instead, we waste sometimes a year, year and a 
half, and the value of the wood is pretty much shot by then. 
Then it is just a detriment out there.
    Also, you did mention merging NRCS and others. That sounds 
like a great idea to have these folks be all speaking the same 
language.
    I also have a very large rice acreage that is in my 
district, and in my real life I am a rice farmer as well. You 
talked with Mr. Crawford about that a lot.
    Secretary Perdue. Yes.
    Mr. LaMalfa. California is number one in medium grade. 
Thank you for meeting the California folks earlier this week as 
well too; for rice. We just need a little more help in the 
exports on that, getting more of that product into Japan. There 
was a lot of disappointment over the TPP with only opening up 
another 50,000 tons, which I and about seven other growers 
could grow that ourselves. That didn't mean a whole lot, so 
maybe as that comes back around, we can see a little more entry 
for rice as well as other exports.
    Last, I would just like to hear what you think on this. We 
did hear a little mention of SNAP earlier. We have had a lot of 
hearings on that during this last year. Very comprehensive. And 
it keeps coming up the issue of SNAP, which is a program this 
Committee very strongly supports, but the way it is targeted, 
and there are a lot of issues with some of the products SNAP is 
being used for; soda and candy, and things like that, that 
aren't generally healthy, where the original intent was ag 
products that come from here. Could you just touch in general 
on what you feel the direction should be with SNAP, and what 
kind of products we should be using with that? Thank you.
    Secretary Perdue. Well, our desire as parents and 
grandparents is that the people who take advantage of SNAP 
would use them for healthy food products. That is the balance: 
on what level do we want to become a nanny state of directing 
how, and what, people feed their families. That is the 
challenge for that. And I probably lean more to the laissez-
faire rather than a prescriptive in that area, from a 
perspective of not wanting, if parents and people who use the 
SNAP benefits are not doing that at home, I don't know that we 
can corral them enough with restrictions in SNAP to make them 
do that. It is a really dicey issue of how we do that. We try 
to do it through education and through examples, and allowing 
SNAP to be used at local farmers' markets and making sure in 
our school program that the free vegetables and fruits are 
there so our kids can get used to that, and hopefully won't ask 
Mom and Dad for more of the other than they would healthy 
things. Someone mentioned earlier, and I wanted to comment on 
it then, but we have a serious obesity problem in our youth. 
How do we not only get a good nutrition program, but how do we 
get a good activity program going as well. All of that is 
complicated, complex, but it needs to be all of our business 
about that.
    Mr. LaMalfa. Thank you, sir.
    And, Mr. Chairman, I yield back.
    The Chairman. The gentleman's time has expired.
    Mr. Soto, 5 minutes.
    Mr. Soto. Thank you, Mr. Chairman. And, Secretary Perdue, 
thank you for coming today.
    I represent central Florida, your neighbor to the south. 
And we all here today have some of the great orange juice that 
is developed in central Florida. But I do want to say if we 
don't get citrus greening under control, it will be Brazilian 
orange juice pretty soon.
    Our production is down 70 percent over the last decade, and 
while we are developing resistant rootstocks, I wanted to gauge 
your commitment on continuing the robust funding to address 
this crisis that could eliminate all Florida citrus if we don't 
get a handle on it.
    Secretary Perdue. Done. It is obviously a serious issue. It 
has been a tenacious pest, and research is important to get 
that done, but we need to build that barrier. You are well 
aware of how many acres have been just plowed up in Florida 
over in the citrus industry, so I am a great consumer of that 
product you have in your hand there, and I want us to have more 
of it.
    Mr. Soto. Well, we appreciate that.
    In addition, we have a large cattle industry in and around 
my district, including the largest herd in the nation at 
Deseret Ranch, and we appreciate your commitment to help 
modernize the North American FMD vaccine bank. I do want to 
bring to your attention what you may already know, we had a 
small screwworm outbreak in the Keys, which was a pretty 
strange place for that to happen. While that is under control, 
it just highlights that we still have risk to Florida cattle.
    And one other thing I know my local cattle ranchers will be 
sending you an invite to the RAM Rodeo in Osceola County. I 
encourage you to come along if you can make it, or one of our 
others. It is part of our tradition there.
    The other issue I wanted to bring up is there has been 
reports that foreign farmers are bringing in fruits and 
vegetables labeled as organic, that are not organic. And in 
Florida, we are working on protecting a fruit and vegetable 
industry that is really struggling under low wages coming 
through areas like Mexico and Central America.
    It is a twofold question. What do you think we can do to 
assist in making sure organic means just that, particularly 
from foreign commodities, and what do you think we could do 
within the NAFTA confines to trigger higher wages under the 
existing provisions of NAFTA in Mexico and other areas?
    Secretary Perdue. Regarding the organic issue, certainly, 
that has become a valuable brand as we see the growth from 
consumers wanting more of that. The way the oversight works on 
that from USDA is we authorize or legitimize the certifiers; 
many times state agencies, to go out and make sure the 
principles and the processes and the programs that define 
organic are being carried out. As you might imagine, that is 
not a 24/7-type inspection. It works much like the 
Environmental Protection Agency authorizes state EPDs to work 
in that regard as well.
    That is a challenge. Our goal is to have better education 
of these authorizing certifiers, and to maybe do some auditing 
out here, not only of the certifiers, but on the ground as 
well, to do that. We want to jealously guard the legitimate. 
And there is some legitimate concern regarding cheaters coming 
into the country with organic labels, that aren't following 
organic processes. It is a very important responsibility of 
USDA. We have to leverage that because there is no way for USDA 
to have enough inspectors on the ground everywhere to certify 
organics. But in working with our authorized certifiers, and we 
will just try to do a better job in making sure those people 
who are violating the rules are not allowed to continue to do 
that.
    Mr. Soto. And then on the wage disparity through NAFTA in 
Mexico, and then also in other trade treaties in Central and 
South America, how could we help make sure that our agriculture 
products and fruits and vegetables can be competitive under 
existing provisions?
    Secretary Perdue. Certainly, our vegetable and our produce 
section of agriculture, and your people in south Florida and 
the growers in Florida have maybe been the ones that have not 
benefitted as much from NAFTA as the rice or the grain, the 
grain producers, or even dairy in that way. It is a real 
challenge, but most of the challenge comes from the 
countercyclical culture of growth. I mean they are lower in the 
hemisphere than we are, and can grow things different 
seasonally in that way. But we have to make sure that the 
safety of those products is just what we insist on in our 
American producers as well.
    And as regarding NAFTA negotiations, my hope and my 
advocacy will be that we don't go backward in that. But you 
see, that is one of the areas where we probably can improve our 
position vis-a-vis Mexico, with regarding fruits and 
vegetables.
    The Chairman. The gentleman's time has expired.
    Mr. Yoho, 5 minutes.
    Mr. Yoho. Secretary Perdue, thanks for being here. I feel a 
kindred spirit being a fellow veterinarian. And I don't know 
whether to call you Doc, Governor, or Secretary. If you are 
like me, you probably prefer Doc. And I look forward to helping 
you achieve your mission.
    The way you opened up, and everything you have said I am in 
alignment. And it just sounds like you have common sense. I can 
only feel that comes from working on the south end of a horse 
or a cow in your past. But what you were talking about, I look 
forward to helping you achieve your goal of making a 
realignment of the USDA to make it the most efficient agency in 
government. And that is such a critical thing, knowing the debt 
that our country is facing, we have to do more with less, and I 
look forward to working with you on that.
    And you also talked about the USDA stamp, it should be 
revered and trusted, and I agree, because that stamp around the 
world stands for the highest quality product that you can get, 
and it is so important that we protect it.
    And several of the things I wanted to talk about were 
already talked about. Your understanding of FMD, it is music to 
my ears. There was a point up here where it wasn't talked about 
much, and we know the threat. We haven't had that here since 
1929. If it comes here, it would be devastating. And certainly, 
we know what happened with BSE with the three cases that were 
here, and how long it is just now taking us to recover after 15 
years. And that was with no depopulation of any of the herds. 
And certainly, if we had an FMD outbreak, it would be 
devastating. It would take years and years to recover, not just 
our cattle herd but our trade.
    And as we look forward, I look forward to working with you 
on the new farm bill to make continued improvements in the 
cotton program, as was talked, but not at the expense of other 
crops, i.e., peanuts. I come from north central Florida, and 
the cottonseed program is something we talked about, to help 
give diversification to the cotton growers. And that is 
something that I hope you would consider looking at. But what 
we know is with these programs, you can't have one at the 
expense of the other one. And with peanuts, we certainly know 
within that one program you have discrepancy because you have 
the people that have generic and/or base acres, and then you 
have people that have neither, and they are growing peanuts 
right next to each other. One is at a disadvantage because they 
don't fall into a program. And we have seen people switch from 
cotton to grow peanuts because of the farm program. And there 
are some things that can be fixed in that, and I hope you will 
look at that. And not to penalize anybody, just to give that, I 
guess, parity on one peanut field to the next so that those 
farmers can stay in business, especially the young farmers that 
we see.
    We have several things that we have put together. What I 
would like to do is having a meeting with you and maybe your 
staff, and go over some of the things.
    And then coming from Florida, we have over 360 specialty 
crops in Florida. Florida is known for number one in the nation 
for melons, sweet corn, and citrus. Even with citrus greening, 
as Mr. Soto brought up, we went from 470 million boxes, we are 
down to under 70 million boxes. It is something that has to be 
dealt with, and we look forward to the robust funding that USDA 
has done.
    And I guess one of my asks for you is, the research and 
development that we are doing is so vitally important, and 
again, USDA has been great on this, that we take that research 
and development, because we know one of the cures is probably 
going to be a GMO tree, to have the USDA help in marketing 
those products. And that is something I would like to see USDA 
get involved now to move to where we can start marketing that 
stuff.
    Do you have any thoughts about that?
    Secretary Perdue. Well, you mentioned several things. Let 
me think of that and then I can address your final question. 
But certainly, from the vigilance over foot-and-mouth, as well 
as any other disease, Congressman, you know that we thought we 
were done with screwworms, and yet we have these things break 
out, and very quickly contained, but you have to be vigilant 
every day.
    Mr. Yoho. Yes.
    Secretary Perdue. With your professional training, even the 
zoonosis that are threatening us around the world, we have to 
be there. The USDA inspectors and the food safety are the 
frontline, the safety net that we have in doing that. I look 
forward to discussing that with you.
    Second, on the issue of peanuts and generic base, there 
probably needs to be looked at, some adjustments on generic 
base and the way they are used, going forward. That would 
probably be our recommendation, but that is a discussion for 
another time. The goal and the principle in the farm bill, 
whether it be crop insurance or the ARC or PLC, is let the 
market determine what our producers grow, not the programs. And 
that is my goal is to let them look at market signals and 
determine what they want to plant, not that I have to plant 
this because that is a better program crop than here.
    Mr. Yoho. Exactly. Right.
    Secretary Perdue. We don't want to change people's habit of 
what they do well and how they do it. And we have seen some of 
that change, obviously, from cotton to peanuts, through the 
2014 Farm Bill to do that as well.
    Now, you are going to have to repeat your last question for 
me because I am a----
    Mr. Yoho. I will send it to your office because I am out of 
time.
    Secretary Perdue. Okay.
    Mr. Yoho. And I appreciate it, and I look forward to 
talking to you, and thank you for being here.
    Secretary Perdue. Thank you. Thank you, Doc.
    The Chairman. The gentleman's time has expired.
    Ms. Blunt Rochester.
    Ms. Blunt Rochester. Thank you, Mr. Chairman. Secretary 
Perdue, on behalf of the State of Delaware, I would like to say 
congratulations on your confirmation, and also to welcome you. 
I have a good friend who is our Secretary of Agriculture in 
Delaware, Michael Scuse, and he said to say hello to you, and 
that it will be a great pleasure to work with you. I am looking 
forward to that.
    Secretary Perdue. Good.
    Ms. Blunt Rochester. I want to follow up on a question that 
Representative Bustos asked earlier. In my different roles in 
the State of Delaware, one of them was as state personnel 
director. When you talked about the reorganization and the 
realignment, I was interested specifically in the Under 
Secretary position for Rural Development. And I know that it is 
one that carries significant weight. You talked about it as 
well, the different responsibilities, and now pulling it closer 
to your office. And I just was hoping you could clarify, it is 
my understanding that there are many functions that the Under 
Secretary is legally able to perform, that a special assistant 
would not be able to perform. Is that correct?
    Secretary Perdue. I am not familiar with that. I don't know 
that that would have influenced my decision, had I thought 
that. With the Assistant Secretary reporting directly to me, I 
can't believe that that would be diminished. You are going to 
have directors in the three areas of Rural Development, with 
utilities service, water, and community facilities. You will 
still have directors in that, with the same subagency mission 
areas there. My expectation is that those people will continue 
to report to the Assistant Secretary. If their powers or 
influence or ability to operate are diminished, we will just 
have to figure out how we resolve that.
    Ms. Blunt Rochester. Great. Maybe we can follow up just to 
clarify that after the fact.
    Secretary Perdue. Sure.
    Ms. Blunt Rochester. And then the other question was, the 
Under Secretary was Senate-confirmed, and this would be 
appointed.
    Secretary Perdue. Our expectation is this Assistant 
Secretary will be confirmed as well.
    Ms. Blunt Rochester. Confirmed as well?
    Secretary Perdue. Yes.
    Ms. Blunt Rochester. Okay, great. And then the other 
question that I had was, I was really pleased to hear you say 
if they grow it, we want to sell it. And the whole focus on 
trade really sparked my interest, and given your high priority 
on enhancing trade opportunities in the U.S. agricultural 
products, can you share with the Committee your views on FAS 
programs like the Technical Assistance for Specialty Crops, and 
the MAP, Market Access Program? Do you support these programs 
remaining as critical tools in USDA's trade toolbox?
    Secretary Perdue. Absolutely. Your represented state, it is 
understood in your poultry industry how much export and how 
much trade affects that. The good news is we have a poultry 
ecosystem in this nation; Delaware, Georgia, Arkansas, and 
across the country, that is just unable to be replicated, from 
the feed grains and the processing and the growing, and it is a 
great blessing to do that.
    All these tools, we have to have those tools and more 
available because our producers are going to challenge us. They 
can grow it, they have demonstrated they can grow it, and the 
challenge would be to feed that hungry world with trade and 
export. We need all those tools available.
    Ms. Blunt Rochester. Great, thank you so much.
    Secretary Perdue. Yes.
    Ms. Blunt Rochester. And I yield back my time.
    Secretary Perdue. Thank you.
    The Chairman. The gentlelady yields back.
    Mr. Abraham, 5 minutes.
    Mr. Abraham. Thank you, Mr. Chairman. Mr. Perdue, 
certainly, as another fellow veterinarian, as Mr. Yoho said, we 
are glad to have you, as a fellow farmer we are glad to have 
you, and I am sure General Bacon, who is sitting right in front 
of me, as an Air Force veteran, is glad that he has a fellow 
Air Force veteran sitting in your chair. We are so happy.
    We certainly look for a close relationship. And for a man 
that, as Governor, stood on the Capitol steps during a severe 
drought and prayed for rain, and then shortly thereafter 
addressed record flooding, I definitely want to be closer to 
you if things go south.
    So you have answered certainly most of my questions. The 
Chairman had one on the cottonseed issue, and that is very near 
and dear to me in Louisiana. The Ranking Member brought up the 
State Director of Rural Development and FSA, when they would be 
filled. And then Mr. Crawford brought up the practical to 
replant issue, which hit us right between the eyes in Louisiana 
with the flooding last year. I appreciate you addressing all 
those issues.
    The quick question I do want to ask is that, with furrow 
irrigation rice, your agency has allowed that to become an 
insured crop, and in Louisiana we certainly appreciate that. As 
you know, with the furrow irrigated rice they tend to use the 
blast resistant seed. And for those here that don't know what 
that is, it is a fungus that affects rice and just devastates 
yields. And if they use that seed; that blast resistant seed, 
production goes up, yield per acre, and certainly water usage 
goes down, so it is a great thing. My question is when can we 
expect final approval of this process to take place?
    Secretary Perdue. Congressman, you have me under water on 
your rice production right now.
    Mr. Abraham. Okay. Well, I will submit it to you.
    Secretary Perdue. That is something we will have to check 
on and to understand that, because as a non-rice farmer, I am 
familiar generally with the----
    Mr. Abraham. Okay. That is no problem.
    Secretary Perdue.--protocols, but not specifically that, 
and I can't give you a specific answer, but I can assure you we 
will get you one.
    Mr. Abraham. Okay, fair enough. And just one other quick 
question then, on my sugar farmers, RMA has kicked their crop 
insurance premiums up about 45 percent. And I have talked to my 
Farm Bureau people and they don't have any actuarial numbers to 
explain that increase. Does your agency yet have a reason as to 
why the sugar farmers got that increase and their premiums went 
up?
    Secretary Perdue. Again, we can get you the answer. The RMA 
has a board, as you know, that is responsible for setting the 
actuarial risk tolerances in that, and that is part of USDA, 
and you and your farmers, your constituents have a right to 
that answer. I am hoping the answer would be that it is 
actuarially risk-based, and that is what has been demonstrated. 
If that is the case then it is hard to argue with that, but we 
will find an answer out for that as well.
    Mr. Abraham. Yes. If we have the objective data I would be 
good; but, talking to our Farm Bureau people, they say, ``Well, 
the data is not there.'' But anyway, we will have the 
discussion, and I appreciate the forthrightness, and look 
forward to working with you.
    I yield back, Mr. Chairman.
    The Chairman. The gentleman yields back.
    Mr. Lawson, 5 minutes.
    Mr. Lawson. Thank you very much, Mr. Chairman. And welcome 
to the Committee.
    Secretary Perdue. Thank you.
    Mr. Lawson. I represent northwest Florida, but one of the 
things that is interesting, within my district, one in every 
four Floridians have been on SNAP at some point over the last 
12 months; twice the national average. And so what level of 
commitment do you see that we can give to those of us in 
Congress that have this kind of food insecurity in our area to 
either enhance the SNAP program? And I was very interested in 
some of the information that you talked about earlier about 
education, when someone said about what do people have in their 
baskets in the grocery store, because growing up in a rural 
area in a community involved in a lot of farming, all of us as 
kids, wanted candy and different things in their basket, as a 
part of what kids actually do. How would you advise food banks 
to prepare for the added demand if SNAP gets cuts in the farm 
bill?
    Secretary Perdue. One of the ways, what you indicated in 
your district, what we need to educate people on is that SNAP 
usage is just not in urban areas, we have a huge rural 
utilization of SNAP as well in those areas, and the good thing 
about using those fresh fruits and vegetables you all grow down 
there is extremely helpful. Food banks, one of the things we 
can do in food banks is develop a wonderful, progressive food 
waste program where many of these foods we ought to be ashamed 
as a nation over our waste of some products, while some people 
go hungry. Developing programs where we can coordinate with our 
food banks in these under-served areas with safe food waste 
issues, policies that make sense, and maybe removing some of 
the things that don't make sense, maybe one of the areas we can 
work on together.
    Mr. Lawson. Right. And early on, Congressman Scott spoke 
about the 1890 institutions, and I happen to represent Florida 
A&M University that is one of them. And in the early years, 
there was quite a great deal of interest in agriculture and 
people returning. In fact, my father-in-law was the farm 
manager at the university. And it was a great deal of interest 
to students who were coming out. When I came up, as you say, I 
was in the FFA, 4-H club, and all of those areas that help you 
get very acquainted with farm products, growing cattle and 
poultry, and so forth. But they have been under-funded, and I 
really feel similar, and I know you have an institution in 
Georgia, which is right across the line, that we really can 
enhance that opportunity for students that are going in. You 
made a statement earlier about, if you don't have these right 
here, these cell phones and other activities, that is what the 
young people really need, and the technology that goes along 
with it.
    My question is what can we do when working on the farm bill 
to make sure that we engage those institutions more with the 
funding they need to develop more farmers? My father-in-law was 
at Tuskegee where they did a lot of research with the peanuts 
and all this other stuff. And so that sets the mould for the 
future of feeding everyone like you talked about, but those 
institutions need to get more engaged.
    Secretary Perdue. You represent the Rattlers?
    Mr. Lawson. Yes.
    Secretary Perdue. You mentioned FFA, and not only what 
Congressman Scott talked about with the HBCUs is that the 
opportunity to start earlier is helpful in these areas. And 
what I am really impressed about FFA and 4-H is, I had tele-
town hall with FFA across the country in about six or eight 
places when I was in the school in Virginia, and the minority 
participation was amazing, and it thrilled me to see young 
minority students there interested in FFA projects, and not 
only from a production standpoint, but from the leadership it 
provides. And so anything you all can do, anything we all can 
do to encourage these young people, that is how we are going to 
change that old question of the aging of American agriculture 
and what that means. But Congressman Lawson, connectivity, we 
have to make it where they want to come back. And we also 
talked about the science and the technology. We have to help 
them with the capital inputs there on the front-end to let them 
start and understand how they can grow bigger in that way. But 
education is a huge part of it. Our extension agent working 
with 4-H is also critical to inspire them. I mean I have known 
some young people who would have been on the streets had it not 
been for 4-H and FFA, because that gave them purpose. And 
anything we can do on those programs is money well repaid many 
times over.
    Mr. Lawson. Thank you, Mr. Chairman. I yield back.
    The Chairman. The gentleman's time has expired.
    Mr. Kelly, 5 minutes.
    Mr. Kelly. Thank you, Mr. Chairman. And welcome, Secretary.
    I am from Mississippi, and as you are aware, the conditions 
in cotton country just aren't good right now. And I know that 
the Chairman started out with that, but farmers in my state are 
telling me that they can't make it through another year without 
some relief from somewhere. I can't overemphasize how important 
this is because, as you know, Secretary, once we lose that 
cotton infrastructure, you just can't go back and re-get it 
there. And so I just want to make sure that you are going to 
explore all the options that you can to work with us, to take 
care of our cotton farmers so that we don't lose the ability to 
produce cotton in the future.
    Secretary Perdue. I will commit to you to do that. 
Certainly, the disappointment in the latest budget issues was 
kind of a tough slug for us because it limits my opportunities, 
limits my ability extremely there. But I have committed to the 
Chairman, you know that he is concerned about that, to do 
anything we can from the USDA to help relieve that.
    Mr. Kelly. And I would be remiss, when Secretary Vilsack 
was here, I brought up to him, he ruled that cottonseed oil was 
not included in the other oilseeds. I disagree from a legal 
standpoint, being a lawyer. I just hope that you will re-look 
and make that your assessment, not his assessment. The law is 
not always black and white; sometimes it is gray. But I can see 
where reasonable minds can differ on whether or not cottonseed 
oil should be included in the other oilseeds or not, and I 
actually think that it should. And so I ask that you re-look at 
that and at least come to your own assessment on that.
    Secretary Perdue. We will. Again, certainly, cotton 
producers believe that the Secretary has that authority. Again, 
as a non-lawyer, I have to rely upon my General Counsel in that 
area, and will do so.
    Mr. Kelly. Okay. And then the final thing is, several 
stakeholders are contacting me about your reorganization plans 
for replacing the USDA Under Secretary for Rural Development, 
and what can you do, and are you listening to their fears, are 
you listening to them, and what are you doing to alleviate some 
of those fears?
    Secretary Perdue. The fears are that the proof is in the 
pudding, and will it be held accountable. We have talked about 
it a good bit in here this morning about how I view it as an 
elevation with influence and access in Rural Development, 
rather than just a title. It is unfortunate that the media 
chose to portray it as a diminishment of the importance of 
Rural Development, and that is not the case. We are doing 
everything we can to persuade people and, again, we are willing 
to be shown, I am an output kind of guy, so wait and watch and 
see what I do. And that is what I would tell your producers is 
that I have brought this up, and I am convinced the fellow 
wants to do more, not less.
    Mr. Kelly. I am very proud that you are here, Secretary. We 
have high expectations from you, but most importantly, I am 
glad because you don't have an accent like most of these people 
up here.
    And with that, I yield back.
    The Chairman. The gentleman yields back.
    Mr. Panetta, 5 minutes.
    Mr. Panetta. Thank you, Mr. Chairman. Mr. Secretary, 
congratulations on your confirmation, and thank you very much 
not only for your past service to the State of Georgia, but for 
your future service to our nation as Secretary of Agriculture. 
It is an absolute pleasure to have you here. Thank you for 
taking the time to come here, and it is an honor to be in front 
of you to ask you these questions, to have this opportunity.
    Secretary Perdue. Thank you.
    Mr. Panetta. Once again, my name is Jimmy Panetta. I 
represent the Central Coast of California; what my colleagues 
know as, based on my advertising, and I will tell you, the 
salad bowl of the world. We have plenty of specialty crops in 
that area. And this point I will be so brash as to personally 
invite you out to the Central Coast of California so that you 
can reinforce your understanding of specialty crops, and also 
what it takes to harvest these specialty crops. And what I mean 
by that, and what you know and what you have heard, is labor, 
and that has been an issue. Obviously, California, like 
Georgia, experienced some droughts, especially one in the past 
few years, excluding this year, thankfully. But even during 
that drought, the number one issue for our people in 
agriculture, especially on the Central Coast, was immigration, 
was labor force. And now, based on the political atmosphere in 
this country, based on the changing socioeconomic atmosphere in 
Mexico and southern Central America, and based on Congress' 
failure to do anything on immigration since 1986, it is not 
just an issue, it is an emergency. And I tell you, every single 
person that I speak to in agriculture, farmer to farmworker, 
they will tell you that the lack of labor force is the number 
one most pressing issue that they are facing right now, and it 
is an emergency situation.
    I appreciate your statement during confirmation to Senator 
Gillibrand when she asked if you had a commitment to making 
sure that producers have access to farmworkers, and your 
response was, ``I will commit that to you, Senator.'' And then 
right away today, to Representative Costa, you said, ``I will 
help to provide a way forward when it comes to immigration and 
making sure that there is labor there to help us harvest our 
crops.''
    If I could, Mr. Secretary, could you please elaborate what 
your commitment is and how you will help provide a way forward?
    Secretary Perdue. Certainly. I smile because with your 
Western Growers the other day, we were talking about produce 
and melons and those kind of things, and we were talking about 
this very issue. And I said, well, when I grew up, we were a 
diversified row crop farm, but he loved truck farming, he loved 
melons, watermelons, cantaloupes, beans, and sweet corn, but I 
was his labor right there handling those watermelons, so I know 
what it takes to harvest them, and I know that it is very, very 
difficult to get domestic labor to do that any longer. And it 
is not really a matter of taking American jobs at any cost. We 
had a situation in Georgia where the legislature felt like they 
needed to have a tough immigration bill, and it really flushed 
out a lot of the harvest labor that we had there in Georgia. 
And there was an example where the Governor said we will let 
probationers do this, and so they did that for a day or so, but 
after about half a day the guys said can we go back to prison, 
because they just weren't willing to do that work. We 
understand it.
    The good news is the President understands as well. This 
roundtable that we had, I think he understands the contribution 
that immigrant labor has made to our fields and farms, in 
processing and other things. We know from poultry processing 
and other things, there is a lot of immigrant labor.
    When I said a way forward, I don't know that I can 
elaborate on the path today, but I have specifically hired a 
young woman who is a lawyer from Nebraska, who worked with Farm 
Bureau, whose expertise is in the farm labor. And what we want 
to do is to give to my boss in the Administration an 
opportunity and to thread the needle over this issue of how we 
utilize immigrant labor in this nation.
    I believe the heart is there, the how-to and the process 
right now is what we have to figure out, but I can tell you, 
trade, labor, regulations are job one, two, and three.
    Mr. Panetta. Great. Great. I appreciate that. Thank you.
    And briefly, in order to make up for the lack of labor, 
does the USDA plan on any sort of investment in agriculture 
technology and ways forward?
    Secretary Perdue. Yes. It is interesting, I gave those guys 
the same example of that. While we have the wonderful land-
grant institutions that Congressman Scott talked about, we have 
also got some technology schools that are using great 
processing technology, harvest technology, and preserving 
technology that make a lot of sense. We are going to look at 
where our research dollars go. If it makes sense to have a 
processing, harvesting part of the whole supply chain to 
benefit agriculture, we will do that. Our example in Georgia, 
as Congressman Scott knows, is that while our primary land-
grants; University of Georgia as well as Fort Valley State, 
Georgia Tech Engineering School does a lot of work with poultry 
processing, and how to make that more efficient and better.
    Those are the types of things we want to look at to make 
sure that we use those research dollars wisely, not just maybe 
in the basic production or applied production sides, but how we 
get that product in a safe, palatable way to the consumer.
    Mr. Panetta. Great, thank you.
    I yield back.
    The Chairman. The gentleman's time has expired.
    Mr. Comer, 5 minutes.
    Mr. Comer. Thank you, Mr. Chairman. And, Mr. Secretary, I 
am so glad to see that you are now the Agriculture Secretary. 
And everything I have read about you was excellent, and just 
hearing your testimony is really reassuring to me. I have 
always said it should be a prerequisite that the U.S. Secretary 
of Agriculture should have a farm background. I know you have 
an excellent track record in farming and agribusiness, and I am 
looking forward to working with you.
    I represent 35 counties in Kentucky, 35 rural counties, and 
there are six Congressional districts in Kentucky. And when you 
look at the total agriculture sales in Kentucky, the 
overwhelming majority of those sales come from the First 
Congressional District of Kentucky. We have poultry, we have 
beef cattle, corn, wheat, horses, and a lot of tobacco. Tobacco 
is still a very important crop in Kentucky.
    My question is, in many instances the previous 
Administration promulgated regs that were unachievable. For 
example, the FDA pushed forward a proposed rule at the very 
last minute that would limit NNN, I am going to say it, N-
Nitrosonornicotine, in smokeless tobacco to levels lower than 
growers could achieve. Will you commit to use sound, scientific 
data in rulemaking, and work with farmers and ranchers in 
drafting regulations to ensure that they are realistic and 
practical?
    Secretary Perdue. I will, Congressman. Again, my mantra has 
been sound science, fact-based, data-driven, customer-focused 
decisions. And that is what we hope to do. That is a balance, 
obviously. As you know, today, we have used science in a way 
that sometimes comes from an ideological perspective, and the 
sound science definition is in the eye of the beholder. We have 
to make sure at USDA we have an agenda-less investigation, and 
things that come out without a predetermined conclusion over 
our scientific discovery that help us lead. I am not smart 
enough to create, intuitively, programs and policies without 
data, without science, without facts to do that. I agree with 
you.
    The other part about that, when you talked about the agency 
that promulgated that, Secretary Price and I served in the 
state Senate. We have already talked about some interagency 
working between delineating FDA's role and USDA's role in some 
of these areas. The good news about the President's interagency 
task force over rural prosperity was, we get to talk about with 
different people how your rules affect my people, and how my 
rules may affect your people in that regard. We want to 
collaborate in a holistic approach to government, I think like 
I have not seen before; that is the Secretary of the Interior, 
FDA, HHS, Commerce and Energy, and those working together, the 
EPA Administrator. I told Scott Pruitt, I said my guys are much 
more excited about you than they are me, those folks are 
interagency.
    Mr. Comer. We like you both.
    Secretary Perdue. Well, that is very reassuring, and I 
appreciate that and, again, look forward to working with you on 
that.
    Mr. Comer. Back on that, the FDA's proposed rule on NNN 
invites the USDA, pursuant to the Tobacco Control Act, to 
submit an economic impact statement on growers for the record. 
Does the USDA intend to submit such a report?
    Secretary Perdue. If that is what the requirement is on 
this rule, again, I am not knowledgeable specifically about 
that. We will get you the specifics on it. But if that is what 
we are asked to do, our economists certainly will talk about 
the impact of that rule. And that is where we need to look at 
risk rewards on here, irrespective of how we feel about 
tobacco.
    Mr. Comer. Yes.
    Secretary Perdue. My father convinced me it was unhealthy 
when I was in the sixth grade, but nonetheless, we know it is 
an industry and it is important to your district.
    Mr. Comer. Well, and thank you. One quick question. When I 
am back in Kentucky, one question that always comes up in 
talking with the ag groups is when will we have a state FSA 
director. Do you have any idea of a timeline for the nomination 
of state FSA directors?
    Secretary Perdue. I would love to say as soon as possible. 
Obviously, we are collating and collecting all those names now.
    Mr. Comer. Right.
    Secretary Perdue. You all have an awesome role in helping 
to recommend who those people are, because you know your people 
in your state better than we do. And as we start to roll those 
out, as soon as possible, we understand those state offices and 
Rural Development, and the FSA, we need those as quickly as 
possible. And we will commit to doing it as expeditiously as we 
possibly can.
    Mr. Comer. Great. And I will close with this. You don't 
have to reply to this, my time is about out, but when I was the 
Kentucky Ag Commissioner, we had two new crops come online in 
Kentucky because we had processors. We had canola, which you 
are familiar with, and another one which you may not be as 
familiar with, industrial hemp. After the last farm bill, 
Kentucky implemented an industrial hemp program that has been a 
great success, and I am looking forward to working with the 
House to advance policies that continue to grow on that and 
bring industrial hemp forward as a legal, viable commodity. I 
am working with Senator McConnell on that. I look forward to 
working with you and the USDA to find a reasonable, responsible 
path forward for industrial hemp to give our farmers another 
tool in the toolbox. And I just wanted to----
    Secretary Perdue. Both of your Senators have made sure I 
knew about the industrial hemp, and we have just got to figure 
out the policies of how that is corralled in a way that it 
doesn't get abused.
    Mr. Comer. Exactly. Thank you, Mr. Secretary.
    The Chairman. The gentleman's time has expired.
    Mr. O'Halleran.
    Mr. O'Halleran. Thank you, Mr. Chairman. And thank you, 
Secretary, for being here today.
    First, a couple of comments. Mr. Kelly brought up the issue 
of cotton. You have heard that a number of times today. I would 
be incorrect by not making sure that I highlighted that Arizona 
grows a lot of cotton also, and some of the best in the world, 
and that my farmers are having the same problems as have been 
expressed here across this Committee today. And the other issue 
with a lot of them is they want to be able to pass their farms 
on to their children, and current conditions might not allow 
that to occur. And the immigration issue has been brought up in 
each and every one of the roundtables I have had with the 
agriculture community within the state.
    Getting to a couple of other issues though, broadband 
technology is so critical to rural Arizona. My district is 
about 1,000\2\ miles smaller than Georgia, so I have a lot of 
small towns in there. I have a lot of Native American Tribes, 
actually, 12 of them. The Navajo Nation is the largest in 
landmass in the country. We are not going to be able to 
compete, unless we have broadband, high-capacity broadband, we 
have to be able to compete with those sectors that are outside 
of rural Arizona to be able to create an opportunity for a 
knowledge-based economy.
    The other area that I have real concern in is rural 
economic development, and some of the programs that are going 
on there. The water and the infrastructure issue is critical. 
The skinny budget calls for elimination of water and waste 
water programs. I would like to hear from you how we are going 
to address these issues in a meaningful way, because they have 
been issues decade after decade, and we still aren't making 
sure that rural America and our Tribal Nations, just to give 
you an idea, the Navajo have 48 percent unemployment, the Hopi 
have 60 percent unemployment, and my White Mountain Apaches, 
where I can't get a cell signal in the middle of their town, 
has an unemployment rate of 80+ percent.
    And so, Mr. Secretary, I would just like to get a rounded 
opinion of how you are going to get there.
    Secretary Perdue. Well, again, I am a former Governor, and 
sometimes I didn't like what the revenue estimates were but we 
dealt with it. Now, the other thing I learned as Governor was, 
I proposed a budget but there was another group that had some 
input into what the budget was going to finally be. They were 
called the appropriators. I understand that very well. I think 
you all have a collective wisdom regarding from your 
constituents over where these things need to be placed. And my 
commitment to you is whatever comes out of that, I am going to 
make it work to the best of our ability. I hope you all have 
the wisdom to know where those needs are, and I trust that you 
will, but at this point, I am not a proposer, I am an 
administrator, and I am going to take what comes out, and we 
will see what the President's budget is next week. You all will 
have your shot at it, and whatever you determine, I am going to 
make sure we get as much value from that budget as we possibly 
can.
    Mr. O'Halleran. Thank you, Mr. Secretary.
    My constituents expect leadership out of me, in the 
Executive Branch of government it is necessary to find that 
leadership. I believe you have the capability to have that 
leadership, and have proven that in the past, so I will look 
forward to working with you on these issues.
    The last issue I have is forest fires and the type of 
funding that is coming out and being dealt with from forest 
fires. It takes a huge amount of money away from the ongoing 
maintenance of our forests, and the preventative issues that 
will help us out in not only maintaining a critical natural 
resource, but in clearly identifying the need, going forward, 
of lessening the impact of forest fires. If you can give me an 
idea of what direction you might be going in there.
    Secretary Perdue. We want to get the Federal fire budget 
corrected, and not from being upside down, as soon as possible. 
I know that its appropriators are in a different section than 
the ag appropriators, but we are working with them on the House 
and the Senate side to help get that corrected, because for 
renewable resources, we have a great asset out here in the U.S. 
Forest Service lands out there that ought to be productive, 
revenue-generating, jobs-creating, and that is my goal is to 
get the U.S. Forest Service right sized, where we are in the 
prevention business and not the suppression business. And the 
prevention part of that means economic activity, it means jobs. 
That means we have to have the money to restore roads and make 
sure that loggers can get in here and get that out. That means 
we have to do some regulatory work over getting the litigation 
issues out. And the ultimate goal is to be good neighbors. I 
would love for our U.S. Forest Service to manage our public 
forestlands just as well as our private landowners are across 
the land.
    So that is my goal. It is a big challenge. It requires your 
help in the fire budget, and maybe policy-wise in getting 
forest fires treated like natural disasters, like floods, 
hurricanes, tornadoes. That may be one part of the solution. It 
is a challenge I look forward to, and I hope that in 2 to 3 
years you will see we have a much more productive U.S. forests 
than we have now.
    Mr. O'Halleran. Thank you, Secretary.
    Thank you, Mr. Chairman.
    The Chairman. The gentleman's time has expired.
    Mr. Marshall.
    Mr. Marshall. Mr. Secretary, welcome.
    Secretary Perdue. Thank you.
    Mr. Marshall. And on behalf of all the hardworking farmers 
and ranchers that make the big First District of Kansas the 
largest agriculture-producing district in the country, welcome.
    As Congressman Lucas mentioned, Kansas has faced more than 
her fair share of natural disasters this year. Early in March 
we lost about 600,000 acres of grass, 10,000 head of cattle, 
and hundreds of miles of fence to the biggest wildfire on 
record. We thought we had enough, and then Mother Nature gave 
us 15" to 20" of snow on that laid headed wheat fields flat. 
Disasters like these are prime examples of the need for a 
strong farm safety net, and I greatly personally appreciate all 
your Department has done to help work with us in an efficient 
manner. They were gentlemen, professionals, every one of them, 
and we appreciate their help.
    One hole in the safety net that we have seen is the 
challenge though of current payment limits and their impact on 
average-size Kansas family farms. I understand that most of 
these payment limits are statute, and I am interested what 
authority the USDA might have to modify its limits on the 
Emergency Conservation Program. ECP is the primary program 
producers are used to, to replace fences and the watering 
facilities destroyed by the fire. Replacement of fence costs 
$10,000 a mile, making a $200,000 payment limit a major barrier 
to families trying to recover. Raising that to match the 
Emergency Forest Restoration program of $500,000 would go a 
long ways in helping our producers rebuild.
    Secretary Perdue. Thank you very much. And whenever you see 
these kind of tragedies it is heartbreaking to know these are 
people, they are families, their livelihoods, and that matters. 
The problem as you mentioned, most of it is statutory regarding 
those limits. I can assure you we will use the resources of 
USDA. I appreciate your kind comments about the indemnity 
program, how quickly that was done. Oftentimes in some of these 
programs we have said, the government is here to help you, and 
it is a year or 18 months later, and they are out of business 
by then. I appreciate the work of our FSA people there on the 
ground, and the indemnity providers, both from fencing and from 
livestock replacement and others.
    There are limits, and that is in your bailiwick to address. 
The ECP program, it is my understanding that we have exhausted 
the revenue in that as well, but I will commit to you any 
flexibility we have in helping restore these people and 
mitigate their loss, we will execute.
    Mr. Marshall. Thank you, Mr. Secretary.
    We are excited to hear your tone about trade, and making an 
Under Secretary dedicated to trade is a critical step. I want 
to echo that I feel like we have very successful Market Access 
Program and the Foreign Market Development program, that they 
are doing a great job, and we want to accentuate the positive 
that the government is doing. To that end, several of us have 
authored a program called the CREATE Act, which will also help 
fund that even further.
    In the meantime, we are hoping, and based on your words, 
you are going to be a champion for these programs as well. And 
I am sure you are familiar with them. What can we do in 
Congress to help you do your job better to help promote trade? 
What do you need from us to work with you side by side?
    Secretary Perdue. I have some ideas, but we are formulating 
that right now. Specifically, I don't know that I am prepared 
to go there this morning, but I can assure you by the time the 
budget comes around, the farm bill comes around, we will have 
specific requests over that, and looking at the barriers that 
we feel are to international trade. The ability to have this 
Under Secretary for Trade is one step that we can go, and 
travel and be on their doorstep, knocking on their door saying 
what can we sell you today. We will have a better, as I get 
into it, we will have a better idea of where the specific areas 
that we need help in, and we are not going to be very bashful 
about asking for it.
    Mr. Marshall. I am sure that all your jobs you have done 
before, you are pretty familiar with the Market Access Program 
and the Foreign Market Development Program, and I just want to 
know what your assessment of them is. I know you are very 
early, so I apologize for asking that so early in the process.
    Secretary Perdue. No, they are important, and that is one 
area where the Foreign Agricultural Service, our acting Deputy 
Secretary there now has been immensely helpful in the sugar 
negotiations, and our Secretary of Commerce would love to hire 
him away. He has been really helpful in the beef issue and 
other things, because he has just been like a right arm for 
them and helping them understand these markets on trade. I am 
really proud that we have people like that, career people there 
who understand that, know that, the Market Access Program and 
helping people otherwise in the AMS is really important as 
well.
    I will have more specific ideas about the needs and what we 
can ask for later on.
    Mr. Marshall. Thank you, Mr. Secretary.
    I yield back.
    The Chairman. The gentleman's time has expired.
    Ms. Plaskett, 5 minutes.
    Ms. Plaskett. Thank you, Mr. Chairman. And thank you, Mr. 
Secretary, for being here, and congratulations on your 
confirmation last month.
    Secretary Perdue. Thank you.
    Ms. Plaskett. We are very pleased to have you working with 
us on the issue of agriculture.
    First, of course, I have to touch on a local issue, since I 
only have 5 minutes, I want to make sure that I take care of my 
people first.
    Secretary Perdue. Thank you. That is what representative of 
the government is all about.
    Ms. Plaskett. Well, let me, of course, first let you know. 
Everyone has invited you to their districts, but I have the 
best district to invite you to; the Virgin Islands. And we have 
extended that invitation as well to the Chairman. Chairman 
Conaway, with your additional responsibilities, I am sure you 
need a field trip now to the Virgin Islands more than ever.
    Mr. Secretary, one of the things that our local farmers are 
concerned with, and I spoke with our Commissioner of 
Agriculture just recently about this, the USDA has many offices 
that service the Virgin Islands, but not in the Islands 
themselves. For example, the Farm Service Agency support is 
funded and administered through Florida, and our NRCS services 
depend on the USDA staff housed in Puerto Rico. That is of 
particular concern to us because we are having a growing and 
burgeoning agriculture sector, and we want our farmers to have 
the technical support and the assistance that are needed. We 
rely heavily on staff from Puerto Rico to travel to the Virgin 
Islands to provide that assistance. And we have had problems 
getting them to come to the Virgin Islands often enough, due to 
travel restrictions, budget shortages, and for other reasons. 
For example, one of the key irrigation engineers has not been 
in the Virgin Islands in over 2 years, and there are others who 
have not been to the Island of St. Thomas in over 3 years.
    If NRCS' Puerto Rico budget is further cut, the Virgin 
Islands stands to be set back even further from where we are in 
our rural economy and our rural growth. And I am asking for a 
commitment from you and your office to work with me and our 
local agriculture office on issues of deficiencies and where we 
can meet the needs of access to USDA services for our farmers, 
and also for our cooperative extension services at our 
university, which does an amazing job but also lacks that 
support.
    And so I would love to be able to call on you and those 
within your office to assist us in that.
    Secretary Perdue. I hope we can learn more about the 
specific issues and how we can maybe build a team to come and 
to assess that.
    Ms. Plaskett. Yes.
    Secretary Perdue. I can't commit right now to redeploying 
assets there, not knowing where they are currently, but I can 
assure you that the burgeoning agriculture in Virgin Islands is 
really just as important as it is Puerto Rico or other places, 
and the technical expertise that you know is needed there, 
whether it be irrigation technology or other things, we look 
forward to providing. I would love to get more specific 
information about those specific needs, and look at deploying a 
team there to maybe hear from your people about how we can do a 
better job that way.
    Ms. Plaskett. Great. I would appreciate that.
    I know that there has been much discussion about the 
position in terms of Rural Development and how it is going to 
be administered. When you say, this is probably the lawyer in 
me asking for specifics, if you say that the Assistant 
Secretary who is going to be dealing with Rural Development, 
that it will be a Senate-confirmed, will that be below the 
Under Secretary or is that reporting directly to you? How would 
that structurally be done?
    Secretary Perdue. Right. It is a good question. An 
Assistant Secretary will be a direct report to me. It will 
manage the three mission areas of Rural Development, both 
utilities and community facilities, water, and other areas 
there. They will report up to here. It will not be reporting to 
an Under Secretary. The reason I wanted to elevate that 
because, as I indicated earlier, I don't consider myself a 
micromanager, but I do consider myself a hands-on manager.
    Ms. Plaskett. Got you.
    Secretary Perdue. And this was an area of Rural Development 
with a lot of resources, the ability to leverage a lot of 
resources out to communities, with, frankly, a good deal for 
the American taxpayer. It is negative subsidies in most of 
these cases. I am very, very impressed with the banking 
experience of our Rural Development people in that regard.
    Ms. Plaskett. Excellent.
    Secretary Perdue. I am just curious enough and jealous 
enough I wanted to be involved in that, and that was the best 
way I knew how to do that.
    Ms. Plaskett. Excellent. And will that Assistant Secretary 
have other areas in their portfolio outside of Rural 
Development?
    Secretary Perdue. No, just that Rural Development piece.
    Ms. Plaskett. Okay.
    Secretary Perdue. That is a pretty big chunk and a big 
responsibility. I am just going to be their assistant.
    Ms. Plaskett. Thank you. And then the last thing was 
regarding rural broadband. When we talk about the Minority 
Leader in the Senate talking about an allotment for rural 
broadband deployment, and under the Senate proposal rural 
broadband funding is going to be available to projects 
currently eligible under existing programs in the Department of 
Agriculture. Is your office going to be advocating for 
inclusion of supplemental rural broadband in the infrastructure 
package, or do you see an area in which we can support that?
    Secretary Perdue. Well, as I indicated, in the 
infrastructure meeting we had yesterday rural broadband is at 
the top of the list, inland waterways, ports. They know that 
broadband enhances economic development. The connectivity out 
here in rural areas, and the Executive Order the President 
signed for rural prosperity. That is just as important as 
roads, water, sewer, and other things for economic development 
in today's society. Plus the sociological impact of just 
keeping kids there where they are connected.
    Ms. Plaskett. Yes. Thank you so much. And thank you for 
your indulgence, Mr. Chairman.
    The Chairman. The gentlelady's time has expired.
    Ms. Plaskett. I yield back.
    The Chairman. Mr. Bacon.
    Mr. Bacon. Thank you, Mr. Chairman. Mr. Secretary, thank 
you for being here. Congratulations on your confirmation, and 
we look forward to your leadership. And I am not only a fellow 
veteran with the Air Force, I am a fellow veteran picking 
watermelons, sweet corn, all that on the farm as a kid, too. It 
is a great upbringing. It was a good way to grow up.
    Secretary Perdue. It is a great way to grow up.
    Mr. Bacon. If I had to put the top issue in Nebraska for 
economic is trade. We are very dependent on our soybean trade, 
beef cattle, pork, and so forth. And with prices down 50 
percent, supply high, and demand being suppressed, the best 
thing we can do is open up those doors in China, Japan, perhaps 
Great Britain, after Brexit, getting a trade deal with them.
    I do hear a lot of concern talking to our agriculture 
community in Nebraska with some of the statements that have 
come out of the Administration, whether it be NAFTA, TPP, and 
so forth. And I know there is a commitment to bilateral trade, 
but can you just give some confidence to the Nebraskans that 
our Administration is boresighted on this, that they know the 
importance of agriculture and the trade of our agriculture 
products overseas. Thank you.
    Secretary Perdue. I really hope that has already been 
demonstrated with the President's decision on NAFTA, knowing 
that NAFTA is very important to Nebraska and that middle part 
of the country, and how agriculture has benefitted from that 
NAFTA agreement, as well as the agreement with China. You grow 
a few cows in Nebraska.
    Mr. Bacon. We have a lot.
    Secretary Perdue. They are going to benefit from opening 
that market as well. Hopefully, we are on the right end. And as 
Secretary Ross likes to say, we have just only just begun.
    Mr. Bacon. Yes.
    Secretary Perdue. I take him at his word on that. And we 
have a lot of things that we do very well, and I hope we can 
get those things done as well. I am an outcome kind of guy, 
again, show me rather than tell me kind of thing, so hopefully 
we are showing.
    Mr. Bacon. Well, thank you on that. And I do believe that 
is our number one economic issue for Nebraska.
    If I had to put a top three issue for like our cattlemen 
and our pork producers, it is foot-and-mouth disease. I want to 
thank you for your commitment here today already, saying that 
you want to make sure that we have the right safety plan in 
place, and a precaution that could prevent a catastrophe if 
that breaks out. That would put us back for years if that 
happened. And I hear a lot about it from our cattlemen and our 
pork producers.
    But the last thing I just want to ask you is concerning the 
SNAP program. I probably know about 100 different employers of 
different industries in the Omaha area, and their top concern 
is to be able to hire full-time employees. They get a lot of 
part-time requests, but they are having a hard time filling 
their employment rolls with full-time work. And they think, or 
many of them think it is the cliff effect with a lot of the 
programs that we have that, if you earn over a certain amount 
all of a sudden you lose all of your benefits. They would like 
to see a more tapered decline as you earn.
    Do you think our SNAP program has that built in, or do we 
need to do more work on that to ensure a more gradual decline 
as you earn more? Is there more work that we could do there, in 
your opinion?
    Secretary Perdue. I think that is a good point, and many 
people have talked about that. We know that the SNAP benefits 
are not that large anyway, but what we tried to do in Georgia 
was get people to step out with using some of our resources 
over training and transportation, childcare, in order for them 
to get a job. But, I would welcome the consideration of a 
tiered pathway down, rather than jumping off a cliff in that 
way. And that could have the effect of being more encouraging 
for people looking for work and doing that, knowing we have had 
some anecdotes about people not wanting to take a job because 
they would lose benefits, and if we had a tiered approach of 
doing that it would make more sense.
    Mr. Bacon. Well, thank you. As I mentioned, I have had 
three different roundtables with probably around 100 employers, 
and that was the consensus as being the number one issue that 
they are facing, at least in the urban area.
    Secretary Perdue. Right.
    Mr. Bacon. I appreciate your consideration on that.
    Secretary Perdue. Okay.
    Mr. Bacon. With that, I just want to commit to you that 
this Committee and I, we look forward to working with you.
    Secretary Perdue. Thank you.
    Mr. Bacon. Your position and what you do has a tremendous 
impact on our state, and we thank you for your leadership.
    Secretary Perdue. Thank you, sir.
    Mr. Bacon. Mr. Speaker, I yield back.
    The Chairman. The gentleman yields back. I appreciate the 
promotion, but I am the Chairman.
    Ms. Adams, 5 minutes.
    Ms. Adams. Thank you, Mr. Chairman. And congratulations, 
Mr. Secretary, and thank you for being here.
    Secretary Perdue. Thank you.
    Ms. Adams. I want to get back to HBCUs. I am a proud 
graduate twice of North Carolina A&T, and taught for 40 years 
on the campus of Bennett College in Greensboro, and so I know 
that we have a unique relationship with the Department of 
Agriculture with the 1890 land-grants. And in the next farm 
bill and through other legislation that comes through Congress, 
I want us to focus on the things that we can do to help prepare 
these universities, which in many of the places where they are 
located, they are the economic engines in their communities. 
And one issue I want to raise with you today is a level of 
state-matching funding that 1890s receive for grants from USDA. 
Currently, North Carolina A&T, which is an 1890 institution, 
receives less state-matching funding for grants from NIFA than 
their fellow 1862 institutions in the state, like North 
Carolina State University. And so while North Carolina State 
University receives well above a one to one match from the 
General Assembly, I served there for 20 years, A&T receives .8 
to 1 in funding that it needs to meet the Federal matching 
requirements. It is my understanding, Mr. Secretary, that the 
states have to submit a work plan to NIFA that outlines how 
1890s and 1862s will use the funding that they receive from 
USDA and from the state.
    My question is, would you support your Department publicly 
disclosing how much total funding by state that 1890s and 1862s 
receive, so that we can determine what state governments are 
doing to match the Federal commitment and hold them accountable 
for the level of funding that is provided to the land-grant 
schools?
    Secretary Perdue. I think that constituency has done a good 
job promoting their issue to the President, and I have heard 
his commitment as well, and obviously from USDA's perspective 
we believe in transparency if you are going to be facts-based 
data-driven, you need to share those information and let people 
know what facts and data you are making decisions on. 
Certainly, we would be happy to disclose that. That is within 
every person's right to know.
    Ms. Adams. Okay, thank you. Let me ask a question about 
SNAP. And so as we approach the next farm bill, we have had 
continuous discussion from key Congressional leaders that the 
SNAP program could be reauthorized separately from the farm 
bill. Do you support a 5 year farm bill that includes the SNAP 
program in its current form, and does not convert SNAP to a 
block grant program?
    Secretary Perdue. It would be very unwise for Congress to 
try to promote a separate farm bill without SNAP included. I 
just think that the coalition between advocates for food 
nutrition as well as agriculture is a strong coalition to do 
that, and it would be unwise to do otherwise.
    Ms. Adams. Thank you. I support that.
    Hurricane Matthew was devastating to cotton farmers in 
North Carolina last fall, who were already struggling from 
losses in 2015. What is the status of proposed changes by the 
Risk Management Agency for the quality loss adjustment standard 
for cotton?
    Secretary Perdue. In my opinion, that is one of the areas 
they missed the mark on. As I have told you, those 2017 
contracts are already issued and we can't change that because 
that is an insurance product, and you are dealing with other 
people's money, but I can assure you I will have my voice heard 
in the 2018 contracts regarding the quality loss on crops.
    Ms. Adams. Okay.
    Secretary Perdue. Cotton being treated like other crops are 
with degradation of quality.
    Ms. Adams. Great. And one last point. A strong rural 
economy is necessary for healthy economic growth in urban 
communities like Charlotte. I represent Charlotte. Should we be 
expecting additional cuts to rural programs, specifically those 
that promote food access?
    Secretary Perdue. I missed that. If that was a question, 
please restate.
    Ms. Adams. Well, in terms of should we be expecting 
additional cuts to rural programs, specifically those that 
promote food access.
    Secretary Perdue. I hope not.
    Ms. Adams. I hope not too. Thank you, sir. I appreciate it.
    And I yield back, Mr. Chairman.
    The Chairman. The gentlelady yields----
    Secretary Perdue. You and I have a bond, Congresswoman. My 
grandmother's name was Alma.
    Ms. Adams. All right. That means soul. Good woman. Thank 
you very much.
    Thank you, Mr. Chairman, I yield back.
    The Chairman. The gentlelady yields back.
    John Faso, 5 minutes.
    Mr. Faso. Thank you very much, Mr. Chairman. Governor, 
congratulations. I look forward to working with you.
    I represent a district in upstate New York in the mid-
Hudson Valley in the Catskills. Goes from Hyde Park to 
Cooperstown, from Vermont to Pennsylvania. It is a large rural 
area. And I very much appreciate your nomination and 
confirmation, and I hope that you won't forget places like 
upstate New York. Sometimes folks from other parts of the 
country think New York, and they think New York City and urban, 
well, we have a lot of rural areas in upstate New York.
    Secretary Perdue. It is beautiful upstate.
    Mr. Faso. And your agency has been helpful to us on certain 
flood mitigation projects and rehab projects with the Natural 
Resources Conservation Service, and also your recent issuance 
of a guideline on food nutrition allowing flavored milk in 
school lunch programs. Vitally important in a part of the 
country where our dairy farmers look perplexed at the fact that 
the USDA will restrict certain milk products in school lunch 
programs. And I have always thought it is unusual that the same 
USDA that says you can't sell whole milk or flavored milk, or 
have it in a lunch program, allows us to purchase $3 billion of 
soda in the SNAP program. I have yet to hear anyone say that 
soda has any nutritional benefit, and yet we do that.
    My farmers keep, and many of the apple growers and other 
farmers, keep raising with me is the difficulty in getting the 
seasonal agricultural workers into the country. And there are a 
lot of complaints about the time and the effort and the expense 
of dealing with the Labor Department, and I am wondering if you 
have an opinion on how we could expedite these H-2A visas and 
that process because my farmers trying to harvest apples in the 
fall this year are not going to be able to hire locals because 
locals, as you alluded to previously, will not do that work. 
And it is vital that we are able to bring seasonal agricultural 
workers who have experience and knowledge to work on these 
farms throughout our region. Could you respond to that?
    Secretary Perdue. I would be happy to. I am aware, 
obviously, personally and through my briefing here that the H-
2A program has been essentially unworkable with recent 
additions in that way. We are familiar. We have a lot of H-2A 
utilization in Georgia, and I know from growers that it has 
become much more burdensome, much more expensive to comply with 
that. This person I mentioned earlier that we had hired with 
farm labor experience has been directed by me to look at the H-
2A program, see if that is the vehicle we need to go through 
currently before we can get maybe a broader farm labor 
resolution. We are going to be working on that, presenting the 
Administration and you all some ideas on, from a regulatory 
perspective, how we can streamline H-2A to be a more dependable 
source, a more reliable source, of immigrant labor to harvest 
those crops.
    Mr. Faso. Thank you, Mr. Secretary, because this is truly 
vital. I talked to an apple grower in my area in Columbia 
County, in Kinderhook, my hometown, just yesterday, who told me 
that the prospects of a great harvest this year are looking 
well and they are very encouraged, but if they can't get the 
workers to help harvest this crop, it is going to be for 
naught. And so I hope you will take this back to the 
Administration and to the President and tell them it is vitally 
important that we have a stream of workers who can come into 
the country and perform these seasonal tasks. It is critical to 
our economy in my district, and I know in districts all across 
the country.
    Secretary Perdue. I agree wholeheartedly. And the good news 
is I do think that is the President's heart, and we will 
continue to be very strong, voracious advocates in that regard.
    Mr. Faso. Right. Thank you so much. And if we can just 
remind folks here in Washington, D.C., that September and 
October are just around the corner. We need these workers here 
in this country. We can't wait until the last minute. We have 
to give certainty to our farmers.
    I very much appreciate your service as Governor of Georgia, 
and your service now to our country as Secretary of 
Agriculture, and I look forward to working with you and your 
Department. Thank you so much.
    Secretary Perdue. Thank you.
    Mr. Faso. I yield back, Mr. Chairman.
    The Chairman. The gentleman's time has expired.
    Ms. Kuster.
    Ms. Kuster. Thank you very much, Mr. Chairman. And I want 
to echo the words of my colleague, welcome. Thank you very much 
for your service to our country. I hope you will find this to 
be one of the bipartisan committees on Capitol Hill, and in 
particular, so many of the things that both of my colleagues 
have mentioned on both sides of the aisle, I echo in my 
district in New Hampshire.
    I want to focus in, I see that in this skinny budget a 21 
percent funding reduction to USDA, so I imagine a lot of the 
discussion today has been taken up by that. In particular, one 
program was eliminated that has been very, very effective in 
northern New England, and the name of that is the Northern 
Border Regional Commission. Are you familiar with that, Mr. 
Secretary?
    Secretary Perdue. Does that have to do with the restoration 
projects or northern, I am not sure that I am.
    Ms. Kuster. It is, frequently we use it in my district, 
communities do in conjunction with Rural Development funding, 
and it has the same kind of leveraging impact. It is a grant 
program for primarily economic development. I represent in the 
northern part of my district a region that was heavily 
dependent on paper mills, furniture, that kind of thing, 
manufacturing, that has left the area. And just to give you a 
sense of this, the former Groveton Mill in a very small town 
called Northumberland, received funding from the Northern 
Border Commission to repurpose the mill into an industrial park 
that is now attracting new manufacturing jobs; many of them 
companies from Canada moving to the United States to make 
products in America, and help the middle-class make it in 
America.
    I would just ask you if you would go back and talk to your 
team about the Northern Border Regional Commission, and urge 
you to support funding. The leveraging impact alone is really 
extraordinary. I am just looking at the awards in 2016, $1.8 
million awarded, $19.5 million in matching funds. A small 
amount of money goes a long way, and I know you are frugal with 
our tax dollars, as I am.
    Secretary Perdue. I do understand more now. I didn't 
recognize the name, but it is very similar to what we have done 
in the South with the Appalachian Regional Commission.
    Ms. Kuster. Yes. Yes.
    Secretary Perdue. I have been very involved, and I chaired 
that Governor part of that issue and I can tell you the good it 
has done through that area. I am not familiar with the 
northern, but it sounds like a very similar commission.
    Ms. Kuster. Very similar.
    Secretary Perdue. I am very familiar with the impact and 
effect of it.
    Ms. Kuster. It is modeled after the Appalachian----
    Secretary Perdue. What states are impacted by the northern 
border?
    Ms. Kuster. Maine, New Hampshire, Vermont, and New York 
State.
    Secretary Perdue. Well, I am very familiar with the good 
that can be done through those commissions.
    Ms. Kuster. It has really been an incredible program, so I 
urge your support.
    I also wanted to focus and continuing that line on the USDA 
Rural Development program, and I note in my briefing that this 
is being moved around somewhat in your organization, and I 
won't spend a lot of time on it because I need to get to two 
other questions, but I would urge you that the Rural 
Development program is critical. And right now, I am the 
bipartisan co-chair of what we call the Heroin Task Force. We 
have 85 Members of Congress working in a bipartisan way. Rural 
America is just being slammed by loss of manufacturing jobs, by 
this influx of heroin and opioids, and we cannot do without the 
economic development, the health care, all of the different 
types of development from Rural Development, including an 
amendment that I was able to get on the farm bill that those 
funds can be used for community colleges. I can get back to you 
offline with that because my time is very limited.
    I am going to submit a letter to the record in support of 
the Organic Livestock and Poultry Practices rule, signed by 334 
certified organic beef, pork, dairy, and poultry producers, 
representing $2 billion in sales. We made great progress in the 
last farm bill for organics in a bipartisan way, and I hope we 
can work with you.
    [The letter referred to is located on p. 72.]
    Secretary Perdue. Certainly. The question?
    Ms. Kuster. Just I hope we will be able to work with you, 
going forward, in the farm bill in support of organic trade.
    Secretary Perdue. No question. It has been a great consumer 
win for a lot of people, and the smaller organic farmers have 
given them an opportunity to get in the marketplace. And 
sometimes now we may see, and that is the issue over making 
sure they are certified, we see some of them maybe crowded out 
with larger operations as well.
    Ms. Kuster. Well, I look forward to working with you.
    I will yield back, but I do want to submit that letter for 
the record. Thank you very much.
    The Chairman. The gentlelady's time has expired.
    Mr. Arrington.
    Mr. Arrington. Thank you, Mr. Chairman. Congrats, Mr. 
Secretary----
    Secretary Perdue. Thank you.
    Mr. Arrington.--on a distinguished career in public 
service, and thank you for your willingness to serve our 
country and make the sacrifices. I noticed you have 14 
grandchildren, so you do have other things you could do.
    Secretary Perdue. That is right.
    Mr. Arrington. Thanks for choosing to continue to serve and 
being the chief advocate for the ag industry in the United 
States. And I am proud of our President who has put the 
overarching philosophy on his decision-making of America first. 
American manufacturers, American producers.
    And I was giving my colleague a hard time in the hallway, I 
said if he enjoys the Virgin Islands, he is going to love west 
Texas. There is just an ocean of cotton out there, as you know. 
And thank you for being so gracious about taking my call the 
other day.
    Secretary Perdue. Yes.
    Mr. Arrington. I am just going to repeat some things, 
because it is too important. It is life and death for my 
region, and that is our cotton producers. West Texas and 
agriculture is life, it is our identity, but cotton is king. 
And all ag producers are struggling, you know that, for all the 
reasons that you already know, but cotton is the only commodity 
out of title I, just completely exposed to the market risks and 
volatility, and market manipulation that we have seen from 
China and others. And it is a crisis, and I am just asking you 
and pleading with you, Mr. Secretary, move with the speed of 
the crisis and the sense of urgency that our producers, our 
economy, cotton ginners, farm implement dealers, ag lenders. It 
is devastating. Devastating.
    One of the most sobering and enlightening experiences I 
have had is when we had a panel here of experts, ag policy, ag 
economists, and I asked the question, could you use the same 
rationale that the World Trade Organization, with the Brazil 
case, could you use the same rationale, or could someone make 
the case for other commodities using the same rationale, that 
would ultimately lead to pulling corn or sorghum or wheat, and 
the answer was unequivocally yes. Someone could make the same 
case on how we support other commodities in this country, and 
could cause us to pull them from title I. If we are not willing 
to do that to all commodities, we shouldn't be willing to do it 
to one.
    And I apologize because I had another hearing, I would like 
to hear your thoughts about cotton and the devastation and the 
crisis, and what you can do, and I know that there are 
different avenues, and I implore you to look at all strategies 
to save cotton production as we know it in America.
    Secretary Perdue. Thank you very much. As I told you on the 
phone the other day, we are well aware of that. Certainly, the 
best thing is that cotton prices continue upward. That is the 
ultimate solution. The good news is supply and demand is 
improving, with more consumption and production recently. All 
those are good news, but that doesn't necessarily negate the 
fact that producers are already hurting.
    I know that as I understand it there was a decision among 
the integrated cotton industry based on the WTO adjudication 
earlier that they would prefer not to poke that in the eye 
regarding being in title I. Unfortunately, the STAX program was 
not as successful as Congress had hoped it would be, and that 
brought some issues.
    The disappointing part is the final deliberations of the 
budget reconciliation bill limited my options severely. But I 
will commit to you that within the statutory authority, within 
the budgetary authority of the USDA Secretary, I am going to do 
everything I can. The problem is I don't want to give false 
hopes because those options are really limited, and we talked 
about those.
    Mr. Arrington. Yes. Yes. Thank you for that response. And 
if I achieve anything as the representative from west Texas, 
District 19, I hope it is working with you to find relief for 
our cotton farmers, and equity in the treatment of cotton as a 
commodity relative to the others.
    I was at a Texas and Southwest Cattle Raisers event the 
other day when China announced they were opening up their 
markets to our U.S. beef. Could you comment on that and kind of 
the next steps please?
    And I yield back, Mr. Chairman.
    Secretary Perdue. Yes, sir.
    The Chairman. Go ahead.
    Secretary Perdue. We are obviously optimistic and excited 
about the potential of getting our beef back into China. That 
is important to Texas as well and much of the Southwest. We 
don't want to exalt too much just yet, exalt in that we have 
still some work to do from a protocol perspective, we have some 
work to do from technical, but I believe that we and they are 
very serious about this, and we will do the victory dance 
hopefully pretty soon.
    Mr. Arrington. Thank you.
    The Chairman. The gentleman's time has expired.
    Mr. Davis, 5 minutes.
    Mr. Davis. Thank you, Mr. Chairman. And welcome, Mr. 
Secretary.
    Secretary Perdue. Yes.
    Mr. Davis. As we know, there is never any geographical turf 
battle when it comes to agriculture, but as somebody who comes 
from the Midwest, I have heard nothing but compliments about 
your appointment as Secretary of Agriculture. There is a lot of 
optimism, a lot of hope out there that your experience and what 
you can bring to the position is going to be very beneficial 
for our farmers in the Midwest, and also agriculture as a 
whole.
    I want to say thanks again. And as the Subcommittee 
Chairman of the Biotechnology, Horticulture, and Research 
Subcommittee, I am especially interested in the research title 
among the other issues that we deal with on that Subcommittee, 
because I represent the land-grant university, I call it the 
best land-grant university ever, the University of Illinois, 
but also non-land-grant universities like the Illinois State 
University that rely upon a very robustly funded ag research 
program.
    It is my belief too that investing in research today will 
save us cost tomorrow, especially when it comes to agriculture. 
And I saw that the President's 2018 budget blueprint indicates 
that it supports farmer-focused research and extension 
partnerships at land-grant universities, and requests $350 
million for AFRI. And furthermore, it indicates that the 
Agricultural Research Service's funding should be focused on 
high priority agriculture and food issues.
    Mr. Secretary, I know that my colleague, Austin Scott, and 
my other colleague, Jimmy Panetta, mentioned ag research 
earlier in the hearing. Can you expand on your responses there 
and give us even more perspective of how you feel research 
should be funded when it comes to agriculture?
    Secretary Perdue. Well, as an advocate for agriculture 
generally, and I am also aware that research, extension, the 
transfer of applied and basic research to the field has been 
the reason for the wonderful productivity in Illinois and other 
parts of the nation regarding that. We have produced our way 
into a surplus that we are suppressing prices, now we have to 
sell it. But the fact is we can't stop research because the 
challenge of feeding nine billion people by 2050 will be 
insurmountable if we don't have the new technology, the 
genetics, and other things it will take to feed a hungry world.
    We are going to be an advocate for research, basic 
research, applied research, the applied extension of those best 
practices out in the field to help preserve the environment and 
help to produce more.
    I don't know how else to expand on it to let you know that 
as a product of public education, from the high school to the 
public land-grant university, I am a big believer.
    Mr. Davis. Well, thank you. And I know that you have been 
here a long time. I have shuttled back and forth between two 
different hearings today, and you have sat there answering 
every question, and I know how difficult that is and I 
appreciate that and I appreciate your candor.
    I am glad you mentioned biotech. It is another one of the 
areas that my Subcommittee has jurisdiction over. Technology is 
approved in the United States but not approved internationally. 
As we know, they face serious risk and uncertainty when we try 
and operate in agriculture in the global marketplace, and that 
sometimes prevents some of my farmer in Illinois from gaining 
access to that global marketplace.
    Last week, the Administration released a statement 
detailing the priorities of the 100 day action plan with China, 
and it contained a commitment to review pending agriculture 
biotechnologies. And many of these pending applications have 
been waiting for more than 5 years for Chinese approval. Is 
there anything you can do or anything you are planning to do to 
ensure that China is held accountable when they review these 
products in this 100 day plan?
    Secretary Perdue. Well, the biotech issue is right up there 
with beef, and working out these issues that we are looking for 
clearance into that. We have demonstrated on our part the 
science that confirms these are safe products, and beef and 
biotech go hand in hand. For the assurance our U.S. producers 
can have that these are exportable, they won't be embargoed, 
they won't be denied, as we are having right now, into some 
markets. When we get that done with China we can persuade other 
markets over the safety and the efficacy of these products into 
their food chain supply.
    Mr. Davis. Well, I look forward to working with you to 
address these very important issues in the next farm bill. And 
obviously, the Midwest is very concerned about who is going to 
be the administrator at the RMA, so I look forward to working 
with you there too.
    I yield back.
    Secretary Perdue. Thank you.
    The Chairman. The gentleman yields back.
    Mr. Allen, 5 minutes.
    Mr. Allen. Thank you, Mr. Chairman. And first, Secretary, 
congratulations. It is great to have a fellow Georgian sitting 
here at this table. And, of course, we go way back. I was with 
you in Georgia, I was working in a small business environment, 
under your leadership as Governor. And, boy, all I can say is 
you like a challenge, because from my colleagues' benefit, 
Georgia lost, in 2008, something like 360,000 jobs, because we 
were very dependent on the homebuilding industry, we lost over 
41 banks. It was a critical, critical economic time in Georgia, 
much like we have in this country today, and we have in 
agriculture today.
    Now, Georgia has been named as the best state to locate 
your business for 4 years in a row, and we have had a growth of 
about 500,000 jobs. Because of your leadership, that is why 
Georgia is where we are today. We do have a number of 
challenges, I mean we have all talked about that, but you are 
certainly up to the challenge.
    You and I had a good time at the airport while we were 
waiting for a flight, to talk a little bit about why we were 
doing this. I have 12 grandchildren, so I know what you are 
missing. And I may get to 14, I don't know, but I hope so. I 
know the great sacrifice that you are making. And also, you, 
like me, we are still in the business. You have to have good 
folks back home taking care of that. But thank you for what you 
are doing for this country.
    Agriculture, and to talk about the 12th District, the 12th 
District we can't have peanuts without cotton. I mean one is 
totally dependent on the other. We have a great program in 
peanuts, PLC program. Everybody likes that program. We have 
nothing in cotton. And we have some real challenges that you 
know well, I don't need to, and we have talked about that at 
length here today. Obviously, thank you for your help as far as 
the freeze with our blueberry crop, and also with some of the 
storm damage we have had down there and the USDA. And, of 
course, we have talked about the importance of rural broadband, 
and those are probably similar in every district.
    But the one thing I thought I might share with you is a 
couple of things that our office has been working on here is 
the BARN Act, which would move the H-2A program from the 
Department of Labor to the Department of Agriculture. And you 
might comment on that as far as what your thoughts are. We have 
also introduced legislation on the WOTUS rule, although the 
President has rescinded that and it has been tied up in the 
courts. We want to codify that in a law so that that law is 
understood exactly what a navigable waterway is. And the other 
thing I have observed, and, frankly, I didn't realize, I mean 
when you walk in a grocery store, it is just like turning on 
the light switch, you just expect the food to be there. And we 
have this tremendous tension in the country between our metro, 
urban, and really our rural areas, particularly among 
taxpayers, particularly when it comes to helping sustain our 
farmers.
    And so we have the farm bill coming up. It is always 
contentious. It divides a lot of the country. And somehow from 
an education standpoint, people need to understand that that 
food just doesn't appear, and that quality of food doesn't 
appear. I mean the strides that this country has made in what 
we have done in agriculture is enormous, and, frankly, the 
farmers have very little influence because they are such a 
small part of the population now. One hundred years ago we were 
97 percent of the population, today we are two percent.
    So your thoughts on that. And, again, thank you for taking 
on this challenge.
    Secretary Perdue. Well, thank you, Congressman. I 
appreciate your patience, and sitting here and listening to the 
conversations. But all these things are important certainly, 
and trade is important. You mentioned the difference between 
the different programs. We will have to address that in the 
next farm bill. But food safety, all those things are 
important. This is an awesome opportunity that we are looking 
forward to, and how we do, you represent a lot of educational 
opportunities in your district as well, and we want to make 
sure that research continues. But these are all challenging 
things, but the education part that you talked about between 
urban and rural, we are really all in this together, and the 
more we can help people understand that food literally is a 
national security issue, the insurance program helps it to be 
more palatable to the public out there as an insurance rather 
than a direct payment, the mantra of, ``Being paid not to 
farm,'' that does away with that. I think we have made progress 
in the 2014 Farm Bill. Can we do better? Yes. Will we do 
better? Yes.
    Mr. Allen. Great.
    Secretary Perdue. Thank you.
    Mr. Allen. Thank you, and please know that you have my full 
support. Any way that I can help you, I would be glad to do it.
    And I yield back.
    The Chairman. The gentleman's time has expired.
    Ms. Lujan Grisham, 5 minutes.
    Ms. Lujan Grisham. Thank you, Mr. Chairman. And, Secretary, 
it is an honor to have you here, and I am lucky to have a 
gracious Chairman who makes sure that I always have an 
opportunity to weigh-in, and I am grateful for that. Thank you.
    Secretary Perdue. Thank you.
    Ms. Lujan Grisham. I want to talk about a bill and an 
issue. The issue is lunch shaming. It has gotten lots of 
national attention, Mr. Secretary, and it may be something that 
you are already aware of. And last week, I introduced a bill in 
Congress with my colleague and good friend, the Chairman of the 
Biotech Subcommittee, Rodney Davis. And I am the Ranking 
Member, and so we have great opportunities to work together. 
And in a nutshell, basically, it is getting at schools who are 
having trouble, clearly, with the number of students whose 
families can't afford the lunch, and instead of figuring that 
out and working with the parents, or looking at programs, or 
making sure that it is a SNAP benefit, or whatever else it is, 
many districts around the country engage in lunch shaming, 
which means they throw away those lunches for those kids, and I 
will just do it, actually, right now. I have an article, Mr. 
Chairman, in The New York Times, and a photo of a stamp placed 
on one such student's arm that says I need lunch money, and the 
school was stamping all of these kids. I would move that we put 
this into the record, Mr. Chairman.
    The Chairman. Without objection.
    [The article referred to is located on p. 74.]
    Ms. Lujan Grisham. Thank you. And there are other and very 
similar, very draconian practices around the country. New 
Mexico is the first state in the country to now ban lunch 
shaming at a state level. I certainly want to ban lunch shaming 
at a Federal level. And given that I know that your desire, 
based on your earlier testimony, even though I wasn't in the 
hearing, paying attention to the hearing, so thank you, that 
you are concerned about poor Americans and making sure that the 
SNAP program is available, and really looking at strategies 
that shore those up, and others. I am interested in what your 
personal opinion is and/or knowledge about lunch shaming in 
this country.
    Secretary Perdue. I would be very interested, 
Congresswoman, to work with you over maybe some technology that 
we can help with our lunch programs around the country to 
figure out how the reasonable expectation of payment versus the 
inability to pay could be dealt with, rather than confronting 
kids in a line or else humiliating them in some way. Middle 
school is tough enough as it is that we want to make sure our 
adults, or those in authority in particular, are not 
contributing to those issues in that way.
    I don't know if there is a technological answer or what the 
ultimate answer is to balance the, again, the expectation of 
whatever contribution is, rather than being confronted in a 
public way, in a shaming or humiliating way to do that.
    Ms. Lujan Grisham. And I don't know----
    Secretary Perdue. I look forward to----
    Ms. Lujan Grisham.--whether there is direct authority at 
USDA. I would encourage you to look at it. I would love to have 
the Department's support on the Lunch Shaming bill, and I don't 
disagree that making sure that schools are better equipped to 
look at what their lunch program costs, and to look at what is 
occurring with families who aren't paying or can't afford, 
which is a combination. But to make it the students' problem, 
and to do two things, I mean two things occur in this 
environment that are very troubling to me. One, that you would 
force these kids to work in the cafeteria, that you would throw 
away their food, that you would stamp them, that you would 
highlight that they are kids who aren't paying for their lunch, 
who are poor, and then you don't give them a lunch. Both things 
happened to these kids in school. There is no reason, it seems 
to me, that we should allow any school to make this the problem 
of the child. We are just creating more problems in our school 
system. I understand that we have to deal with the money 
aspects, but I agree with you, that seems to me to be 
completely and entirely separate. And what is really shocking 
for me is that it is such a prevalent problem. I am embarrassed 
to admit to my colleagues on this Committee that in addition to 
my own state that was engaged in lunch shaming, I had no idea 
that it was a national phenomenon. And part of it is we are so 
strict, I guess, in terms of making sure that schools account 
for the lunch program in a way that, instead of dealing with 
parents and finding creative solutions, that they feel 
perfectly justified in treating their students in this way. 
And, in fact, it has led to the loss of jobs where food workers 
have refused to come to work and have quit because they are 
told they have to lunch shame.
    I would love a partnership to say we are not going to stand 
for that as a country.
    Secretary Perdue. Well, again, as no respect to persons 
with our motto of do good and feed everyone, I think that also 
means you treat everyone with respect, irrespective of their 
economic ability. How we figure out direction to our lunchroom 
professionals over technology of things that work, I would 
welcome the opportunity to work with you on solutions about 
that.
    Ms. Lujan Grisham. Thank you, Mr. Secretary.
    I yield back, Mr. Chairman.
    The Chairman. The gentlelady's time has expired.
    Well, Governor, you survived your first one. I don't 
remember a full Committee hearing in which every single Member 
showed up for some period of time, and almost everybody used up 
their 5 minutes. Thank you. Your stamina is well admired.
    We are going to have, hopefully, a long time together 
working on a variety of issues that we have all talked about 
this morning, ad infinitum.
    G.T. Thompson was here. He has a couple of questions 
submitted for the record. I will submit those.
    Secretary Perdue. Sure.
    The Chairman. If you could get back to G.T. on those.
    I am also looking forward to the 180 day window on your 
rural task force. All of us are anxious to see that report as 
you begin to draw all those other agencies together to take a 
look at things that can be done to affect positively, or things 
we can do to address the negative effects that are out there. 
Clearly, Jodey, Rick, and I have an issue with cotton. Thank 
you very much. I would like to take one last shot across the 
bow at our Senate colleagues. We had an elegant solution for 
cotton. It should have been in the omnibus bill. And just 
because you don't represent cotton farmers in Michigan and 
Vermont, there is no reason for you to have taken them hostage 
to get something that you knew would never work, and that was a 
dairy solution that was unpaid for to the tune of $800 million. 
I don't know what it is in the Senate, but in the House 
Agriculture Committee you are required to represent all of 
agriculture, not just the folks who directly vote for you. And 
while that is happening right now with Jodey and I, that did 
not happen when the Senate stabbed our cotton farmers in the 
back, because they couldn't come up with their own solution for 
dairy. And pitting one segment of our industry against the 
other has never worked, except when you want to use it as a 
tool to get your own way, which is what happened in the Senate 
with Senators Stabenow and Leahy. Shame on them. But other than 
that, I don't have any real strong feelings about that issue.
    But, Governor, thank you so very much.
    Secretary Perdue. Well, Mr. Chairman, from my perspective, 
our first date went very well, splendidly, as a matter of fact. 
And you have my number, I hope you will call again.
    The Chairman. Well, I do have one thing. You sent me an 
emoji message, and I don't savvy emoji, so I am going to have 
to get with you and ask you so I can figure out what you were 
sending me.
    Under the Rules of the Committee, today's hearing will 
remain open for 10 calendar days to receive additional 
materials and supplementary written responses from the witness 
to any questions posed by a Member.
    This hearing is adjourned. Thank you.
    [Whereupon, at 1:18 p.m., the Committee was adjourned.]
    [Material submitted for inclusion in the record follows:]
  Submitted Report by Hon. Cheri Bustos, a Representative in Congress 
                             from Illinois
Understanding Economic Challenges in Rural America
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

U.S. Congress Joint Economic Committee
Ranking Member Martin Heinrich
Minority Staff Report, May 2017
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The 2016 presidential election brought renewed and welcome interest 
in the social and economic challenges facing rural 
communities.<SUP>i</SUP> Additional awareness of the unique challenges 
facing communities in rural and remote locations can help support 
policies that promote economic growth and generate new opportunities in 
these communities.
---------------------------------------------------------------------------
    \i\ See, for example, Sorgel, Andrew, ``In America's Rural-Urban 
Divide, Age, Earnings and Education are Prominent.'' U.S. News and 
World Report, December 8, 2016.
---------------------------------------------------------------------------
    In recent years, rural and urban communities experienced 
developments in the U.S. economy in vastly different ways.<SUP>ii</SUP> 
For example, the Great Recession hit harder and lasted longer in rural 
communities, and many predominately rural states still have yet to 
recover from the depths of the recession nearly 8 years after the 
country entered into recovery. Since the 2007-2009 Great Recession, 
economic recovery in rural communities has not matched that in urban 
areas.<SUP>iii</SUP> Employment in rural communities still has not 
returned to its pre-recession levels while metro area employment 
surpassed its pre-recession peak in 2013.<SUP>iv</SUP> As rural job 
growth lagged behind urban areas, rural residents looked increasingly 
outside their communities to find new work and 
opportunities.<SUP>v</SUP> Moreover, the education gap between urban 
and rural America widened substantially over the past fifteen 
years.<SUP>vi</SUP>
---------------------------------------------------------------------------
    \ii\ For the purposes of this report, we use metropolitan and non-
metropolitan breakdowns in the data to refer to rural and urban trends. 
Metropolitan counties are defined by the U.S. Department of Agriculture 
as counties with one or more urbanized areas (densely settled areas 
with 50,000 or more people) and outlying counties that are economically 
tied to counties with urbanized areas. Non-metropolitan areas are 
defined as all other counties. For more information, see https://
www.ers.usda.gov/topics/rural-economy-population/rural-classifications/
what-is-rural/.
    \iii\ U.S. Department of Agriculture, ``Rural America at a Glance 
(file:////JECD/Share/Reports/Rural%20Economy/,%20),'' 2016 Edition.
    \iv\ U.S. Department of Agriculture, ``Rural Employment and 
Unemployment (https://www.ers.usda.gov/topics/rural-economy-population/
employment-education/rural-employment-and-unemployment/),'' accessed 
May 2, 2017.
    \v\ U.S. Department of Agriculture, ``Rural America at a Glance 
(https://www.ers.usda.gov/webdocs/publications/eib162/eib-162.pdf),'' 
2016 Edition.
    \vi\ JEC Democratic staff calculations based on data from the 
Current Population Survey, Annual Social and Economic Supplement, 2000-
2016.
---------------------------------------------------------------------------
    Declining population, limited employment opportunities, and lack of 
public investment pose significant challenges to the economic vitality 
of rural communities. Rural communities face a variety of structural 
challenges constraining growth. The geographic remoteness of rural 
areas makes routine economic interactions more difficult and costly. 
Rural economies are more likely than urban ones to heavily rely on a 
single industry or employer, which leaves them vulnerable should the 
employer leave town. Insufficient rural infrastructure--roads, water 
systems, and access to broadband--limits growth in countless ways. Even 
opportunities to access Federal funds can be more difficult for rural 
communities since often they do not have professional staff to prepare 
and submit competitive grant applications.

          Addressing the economic challenges facing rural communities 
        requires a comprehensive strategy that takes stock of the 
        existing assets and needs in rural America.

    Addressing the challenges facing rural communities requires a 
comprehensive strategy that takes stock of the existing assets and 
needs in rural America. Congress's work on economic development, 
infrastructure, and education must tailor approaches to meet the unique 
challenges facing rural communities.
Economic Obstacles for Growth in Rural America
    On their own, any one of the factors described below would present 
a major problem for economic recovery in rural America. Taken together, 
they present serious constraints on economic growth in rural America.
Little To No Population Growth
    Rural America's population has been declining since 2011 (Figure 
1), both an effect and cause of the lack of employment opportunities in 
rural communities. America's population in rural counties stood at 46.1 
million in 2016, a reduction of 0.4 percent since 2010. In contrast, 
metropolitan counties experienced a five percent population increase 
over the same period.<SUP>vii</SUP>
---------------------------------------------------------------------------
    \vii\ JEC Democratic staff calculations based on data from USDA on 
populations of metro and non-metropolitan communities.
---------------------------------------------------------------------------
Figure 1: Annual Population Growth, by Metro and Non-Metro Residence
Percent
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

          Source: USDA ERS calculations based on data from Census 
        Bureau.
          Note: Metro and Non-metro designations are based on the 1974 
        USDA designations.
Catastrophic Job Losses for Those At the Lower End of the Pay Scale
    The recession hit rural workers particularly hard. Not only did the 
recession hit non-metro counties harder than their metropolitan 
counterparts, with rural employment falling a whole percentage point 
more than urban employment, but employment growth since 2010 has also 
remained weak (Figure 2). Moreover, nominal weekly wage growth in rural 
communities has been sluggish, at only 3.8 percent over the past year, 
compared to growth of up to 5.5 percent in metropolitan communities 
(Figure 3). Seven years out from the Great Recession, rural areas still 
have not benefitted from the recovery in the same way as their urban 
counterparts.
Figure 2: United States Employment, Metro and non-metro Areas
100=2008 Q1
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

          Source: USDA ERS Calculations based on data from the Bureau 
        of Labor Statistics Local Area Unemployment Statistics.
          Note: Gray shading denotes recession. Data are indexed to the 
        first quarter of 2008. Data is measured quarterly.
Figure 3: Weekly Wage Growth by Residence, 2015
Q3-2016 Q3
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

          Source: Quarterly Census of Employment and Wages, Bureau of 
        Labor Statistics.
          Note: Metro and non-metro delineations based on the USDA 2013 
        Urban-Rural Continuum Code.
A Growing Education Gap
    In the 21st Century economy, a college education is increasingly 
necessary for achieving economic prosperity. Rural America consistently 
lags behind urban communities in educational attainment, and this gap 
has increased in the new century. Even while the share of individuals 
with a bachelor's degree or higher has increased in both rural and 
urban communities, the gap between the two has increased by 25 percent 
from 2000 to 2016 (Figure 4).
    In an environment where there exists a growing higher education gap 
between rural and urban populations, Congress should support policies 
that ensure rural populations receive preparation and have equal access 
to opportunities for post-secondary education.
Figure 4: Percent with Bachelor's Degrees or Higher, by Metro and non-
        metro Residence
        [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
        
          Source: JEC Democratic Staff calculations based on CPS ASEC, 
        2000-2016.
          Note: Data are for individuals 25 years or older.
Structural Challenges to Long-Term Prosperity
    Rural America's economic difficulties in the new century are rooted 
in the role that rural communities have traditionally played in the 
broader economy.<SUP>viii</SUP> In order for Congress to adequately 
address the issues that rural America faces, it must understand how 
many of rural America's problems differ from those of urban America.
---------------------------------------------------------------------------
    \viii\ John M. Quigley, Rural Policy and the New Regional 
Economics: Implications for Rural America.
---------------------------------------------------------------------------
Geographic Remoteness
    By definition, rural communities are located far from, and are not 
closely connected with, dense population centers.<SUP>ix</SUP> Routine 
economic interactions are more frequent, carry lower costs, and leads 
to more economic activity when individuals live closer 
together.<SUP>x</SUP> Rural communities are disadvantaged in this 
regard. Currently 39 percent of Americans in rural areas lack access to 
broadband, compared to just four percent of urban 
Americans.<SUP>xi</SUP>
---------------------------------------------------------------------------
    \ix\ Michael Ratcliffe, Charlynn Burd, Kelly Holder, and Alison 
Fields; Defining Rural at the U.S. Census Bureau.
    \x\ Joseph Cortright, Making Sense of Clusters: Regional 
Competitiveness and Economic Development.
    \xi\  Federal Communications Commission, ``2016 Broadband Report 
(https://www.fcc.gov/reports-research/reports/broadband-progress-
reports/2016-broadband-progress-report),'' January 29, 2016.
---------------------------------------------------------------------------
    Technological innovations that promise increased information and 
communications have the potential to bridge this divide. Efforts are 
underway to help rural communities take advantage of the instant 
communications facilitated by the Internet, including through the use 
of telehealth programs, which bring patients and doctors together 
through smart phones and computers to provide immediate access to 
medical advice and care.<SUP>xii</SUP>
---------------------------------------------------------------------------
    \xii\ Madore A., Rosenberg J., Weintraub R. Project ECHO: Expanding 
the Capacity of Primary Care Providers to Address Complex Conditions 
(http://www.globalhealthdelivery.org/case-studies/north-america/
project-echo-expanding-capacity-of-primary-care-providers). Harvard 
Business Publishing. 2017.
---------------------------------------------------------------------------
Limited Economic Diversification
    Some rural economies were built around one or a few industries, 
often reflecting the wealth of natural resources or agricultural 
potential in a given area.<SUP>xiii</SUP> This limited economic 
diversification makes these communities especially vulnerable when 
economic shocks adversely affect specific industries.<SUP>xiv</SUP> 
Across the United States, once vibrant rural communities are now 
struggling to survive because an anchor employer left town or are 
facing structural change in the industry forcing a dramatic 
reorganization of business practices.<SUP>xv</SUP>
---------------------------------------------------------------------------
    \xiii\ Michael Porter, Competitiveness in Rural U.S. Regions: 
Learning and Research Agenda.
    \xiv\ Office of Sustainable Communities, Smart Growth Program, U.S. 
Environmental Protection Agency, ``Framework for Creating a Smart 
Growth Economic Development Strategy: A Tool for Small Cities and 
Towns.''
    \xv\ J.R. Logan and Elizabeth Cleary, Shutdown of molybdenum mine 
hits Questa hard (http://www.santafenewmexican.com/news/business/
shutdown-of-molybdenum-mine-hits-questa-hard/article_1bc7fca2-178b-
5222-bee6-30c8a219ce53.html), Santa Fe New Mexican; compare Office of 
Sustainable Communities, U.S. Environmental Protection Agency, ``How 
Small Towns and Cities Can Use Local Assets to Rebuild Their Economies: 
Lessons from Successful Places (https://www.epa.gov/sites/production/
files/2015-05/documents/competitive_advantage_051215_508_
final.pdf),'' May 2015, (demonstrating that communities must use 
innovative strategies in overcoming the loss of a central employer).
---------------------------------------------------------------------------
    While additional entrepreneurship can help bring economic diversity 
to rural communities, in many of these places entrepreneurship alone 
can't solve the problem. Rather, limited opportunity brought on by a 
lack of competitive or financially viable economic options present a 
larger hurdle for economic development in rural communities. Congress 
has the ability to utilize direct investment to match private industry 
with specific communities through the use of tax credits, training 
programs, and grant funding designed for rural economic development.
Underinvestment in Rural Infrastructure
    Rural America is in need of infrastructure investment and 
development in other critical areas. Small rural communities 
desperately need money to fund wastewater projects, new roads, and 
other infrastructure needs. Specifically, rural leaders, in testimony 
before Congress, identified the following areas as their areas of 
greatest need for infrastructure investment:

  <bullet> Lane widening and repairs for the highways that connect 
        distant towns and makes cross country trucking shipping safer 
        and more efficient.

  <bullet> Repairs for bridges that have begun to show the signs of age 
        and wear.

  <bullet> Water infrastructure necessary to meet rural community needs 
        while maintaining requirements under clean water laws.

  <bullet> Conservation funding to preserve natural habitats for 
        hunters and fishers.

  <bullet> Public transportation that helps the elderly and disabled in 
        rural communities.<SUP>xvi</SUP>
---------------------------------------------------------------------------
    \xvi\ Witness written testimony, ``Oversight: Modernizing our 
Nation's Infrastructure (https://www.epw.senate.gov/public/index.cfm/
hearings?ID=82518667-E24B-4CB5-BAFC-35B3FAE0D372),'' Committee Hearing, 
U.S. Senate Committee on Environment and Public Works, February 8, 
2017.
---------------------------------------------------------------------------
Rural Barriers To Accessing Federal Funding Opportunities
    While there are often numerous Federal grant opportunities aimed at 
spurring rural economic development, many small rural communities do 
not have staff on hand that can draft and submit competitive 
applications. As a result, leadership in small rural communities may 
find difficulty meeting the requirements for proposals due to a lack of 
time, resources, and expertise.

          In order to help rural communities become stronger players in 
        the economy, Congress must continue to support efforts to 
        ensure that every rural community has the ability to access the 
        Internet and the opportunities interconnectivity creates.
Call for Congressional Action
    Many complicated forces are weighing down on the economy in rural 
America. Congress has the opportunity to play the defining role in how 
rural communities develop and thrive.
    In order to help rural communities become stronger players in the 
economy, Congress must continue to support efforts to ensure that every 
rural community has the ability to access the Internet and the 
opportunities interconnectivity creates. Likewise, Congress should 
support programs that direct workforce development to rural communities 
that are still struggling to recover from the Great Recession.
    Infrastructure renewal in small rural communities is must be a top 
priority for Congress. Public-private partnerships--focused on 
generating a significant profit for their private investors--will not 
deliver the infrastructure so urgently needed by sparsely populated 
rural areas.<SUP>xvii</SUP> *
---------------------------------------------------------------------------
    * Editor's note: there was no corresponding endnote numbered xvii 
in the submitted report. The report has been reproduced as submitted.
---------------------------------------------------------------------------
    Small rural communities must be able to compete on a level playing 
field for Federal grant opportunities, particularly for programs 
specifically designed to generate economic activity in rural America. 
To do that, Congress must promote measures to allow the smallest rural 
communities to compete for competitive grants. Further, Congress must 
invest in developing the next generation of grant writers and civil 
servants to serve in small rural communities.
                                 ______
                                 
 Submitted Letter by Hon. Ann M. Kuster, a Representative in Congress 
                           from New Hampshire
April 28, 2017

  Hon. Sonny Perdue,
  Secretary,
  U.S. Department of Agriculture,
  Washington D.C.

    Dear Secretary Perdue,

    We the undersigned, 334 certified organic beef, pork, dairy, and 
poultry producers representing approximately $1.95 billion in annual 
organic sales, express strong support for the recently published 
Organic Livestock and Poultry Practices rule and urge you to let it 
become effective, in its entirety, on May 19, 2017 without further 
delay. The industry-developed standard enshrined in the rule represents 
over a decade of discussion, feedback and support from our industry and 
ensures that we operate on a level playing field and meet a consistent 
standard, regardless of our operation size.
    The organic industry overall has experienced double-digit growth 
annually over the last 5 years, achieving over $43 billion in sales in 
2015. The organic livestock and dairy sector represents over 17% of 
total organic sales and the organic dairy sector alone represents the 
second-largest and fastest-growing food segment in the industry. 
Consumer demand for our products still outpaces domestic production, 
creating opportunities for continued expansion of our farms.
    As organic farmers, our very survival is dependent upon the trust 
that we have built with the American consumer. We are proud to be 
delivering a product that meets the highest standards possible and is 
in line with consumer expectations of what the USDA organic label 
means. A recent Consumer Reports survey found that 83% of consumers who 
frequently purchase organic products believe that organic eggs should 
come from hens that have access to the outdoors.
    The decision to become certified organic is voluntary, if consumers 
lose confidence in the organic seal it will have catastrophic impacts 
throughout the industry. We believe that the rule strikes the right 
balance between meeting consumer expectations and the reality of 
commercial scale food production. We look forward to working with you 
on implementation of the rule and are available to answer any questions 
you or your staff may have.
            Sincerely,

 
 
 
Holcroft Farm, Summers,  Matthew Hostetler,       Elam Horning, Leola,
 AR                       Buffalo, MO              PA
Roy Hostetler,           Marion Hostetler,        Wilmer Horst, Mt.
 Clarksville, AR          Buffalo, MO              Pleasant Mills, PA
Vernon Hostetler,        Ernest                   Doug Hottenstein,
 Clarksville, AR          Schwartzentruber,        Elizabethtown, PA
                          Buffalo, MO
Pleasant Pastures        Brian Blosser, Buffalo,  Carl Hurst, Robesonia,
 Poultry, Pocahontas,     MO                       PA
 AR
Alexandre EcoDairy       Jeff Blosser, Buffalo,   Lavern Kauffman,
 Farms, Crescent City,    MO                       Millerstown, PA
 CA
Chino Valley Ranchers,   Shane Blosser, Buffalo,  Mike Kurtz, McClure,
 Colton, CA               MO                       PA
Doodlebug Ranches,       Pete Blosser, Buffalo,   Terry Lehman,
 Paicines, CA             MO                       Myerstown, PA
Harvest Fields Organic   Chad Headings, Buffalo,  Wanda Lehman, Willow
 Farm, Fresno, CA         MO                       Hill, PA
Leavitt Lake Ranches,    Maynard Eigsti,          Wayne Martin,
 Vina, CA                 Buffalo, MO              Bernville, PA
Sol Seeker Farm,         Frank Blosser, Buffalo,  John Martin,
 Salinas, CA              MO                       Elizabethtown, PA
Aurora Organic Dairy,    Gaylord Hostetler,       Lamar Martin,
 Boulder, CO              Buffalo, MO              Elizabethtown, PA
Henry Miller, Cisne, IL  Lester Hostetler,        Gary Musser, Bethel,
                          Buffalo, MO              PA
Jeff Wuebbels,           Clark Hostetler,         Mike Musser, Bethel,
 Germantown, IL           Buffalo, MO              PA
Sam Zook, Geff, IL       Matt Rogers, Mtn.        Harold Nolt,
                          Grove, MO                Mifflinburg, PA
Ulrich, Harmon, IL       Dwayne Schartzentruber,  Dennis Nolt,
                          Buffalo, MO              Millerstown, PA
Blosser, Tampico, IL     Jesse Hostetler,         Justin Oberholtzer,
                          Buffalo, MO              Lititz, PA
Hostletler, Tampico, IL  Dave Blosser, Buffalo,   Darrell Ranck,
                          MO                       Strasburg, PA
Nelson Blosser,          Andrew Hoover, Downing,  Landis Reiff,
 Tampico, IL              MO                       Mifflinburg, PA
Baker Brothers,          Hillcrest, El Dorado     Daryl Sensenig,
 Tampico, IL              Springs, MO              Newmanstown, PA
John Hostetler,          Hominy Creek, Halfway,   Nelson Sensenig,
 Tampico, IL              MO                       Newmanstown, PA
Ernest Blosser,          Hoover Farm, El Dorado   Neal Sensenig,
 Tampico, IL              Springs, MO              Newmanstown, PA
Dennis Kropf, Tampico,   Lost Valley Farms, El    Bill Shepperson,
 IL                       Dorado Springs, MO       Sunbury, PA
Doug Baker, Tampico, IL  M&S Farm, Seymour, MO    Mark Siegrist,
                                                   Fredericksburg, PA
Edwin Blosser, Tampico,  Mockingbird Hill, El     Dale Slaymaker,
 IL                       Dorado Springs, MO       Washington Borough,
                                                   PA
Elmer Ulrich, Harmon,    Riverside, El Dorado     Mervin Stauffer,
 IL                       Springs, MO              Mifflinburg, PA
Eric Hostetler, Avoca,   Sandy Top Farm, El       Jonathan Stauffer,
 IL                       Dorado Springs, MO       Elizabethtown, PA
Darwin Hostetler,        Scenic View, El Dorado   Duane Swanger,
 Harmon, IL               Springs, MO              Bainbridge, PA
Lynn Kropf, Tampico, IL  Schneider Farms,         Alvin Weaver,
                          Walker, MO               Myerstown, PA
Virgil Garretson,        Scrambled Acres LLC,     Clyde Wenger, Manheim,
 Sheffield, IL            Versailles, MO           PA
Theresa Westaby, CR      Darin Hostetler,         Chris Willhide,
 View Organic Dairy,      Buffalo, MO              Dincannon, PA
 Delmar, IL
Marlin Kauffman,         Kevin Blosser, Buffalo,  Maynard Zimmerman,
 Creston, IA              MO                       Milmont, PA
Maynard Hostetler,       Shady Lane, El Dorado    Lee Zook, Middleburg,
 Creston, IA              Springs, MO              PA
Tim Maibach,             Sunnyside Up, Seymour,   Chris Pierce, Heritage
 Bloomfield, IA           MO                       Poultry Management
John Brunquell, Egg      Sunset Acres, El Dorado   Services, Annville,
 Innovations, Warsaw,     Springs, MO              PA
 IN
Chris Beechy,            Triple Z Farm, Tunas,    John G. Stoltzfus,
 Dillsboro, IN            MO                       Willowstreet, PA
Dan Bontrager,           John Weaver, Knox City,  Ephraim Beiler, Bird
 Shipshewana, IN          MO                       in Hand, PA
Lavern Eash,             Jonathan Diller,         Ron Bennick, Sunbury,
 Middlebury, IN           Rutledge, MO             PA
DeWayne Eash, New        Kenneth Hoover, Gorin,   Jay Bomgardner,
 Paris, IN                MO                       Ephrata, PA
Joe Gingerich,           Valley View, Collins,    Benjamin E. Kauffman,
 Shipshewana, IN          MO                       Gratz, PA
Mahlon Graber,           Wild Rose Hills,         Daniel Kauffman,
 Woodburn, IN             Buffalo, MO              Spring Glen, PA
Matthew Graber,          Windmill Acres, El       Jerry L. Lay II, Muddy
 Grabill, IN              Dorado Springs, MO       Water Farm
Alvin Graber, Macy, IN   Rocking M Ranch, El      Madisonville, TN, Matt
                          Dorado Springs, MO       O'Hayer
Amos Hochstetler,        Clayton Garretson,       Vital Farms, Austin,
 Topeka, IN               Shelbina, MO             TX
Jay Dee Lehman,          Curvin Nolt, Hurdland,   Miller, Lyndonville,
 Shipshewana, IN          MO                       VT
Mike Lehman,             David Hostetler,         Leon L. Corse, The
 Middlebury, IN           Shelbina, MO             Corse Farm Dairy LLC,
Tod Lemier, Bourbon, IN  Nevin Horning, Arbela,    Whitingham, VT
                          MO
David Lengacher,         Seth Garretson,          Henry and Allison
 Harlan, IN               Hunnewell, MO            Pearl, Hill View
Earl Lengacher,          Leonard Burkholder,       Farm, Danville, VT
 Woodburn, IN             Edina, MO
Jonas Lengacher,         Vernon Brubaker,         Tyler and Melanie
 Grabill, IN              Arbela, MO               Webb, Stony Pond
Paul Lengacher, Harlan,  Hickory Creek Poultry,    Farm, Fairfield, VT
 IN                       LLC, Jamesport, MO
Amos Lengacher,          Floyd Hostetler,         Ayrshire Farm,
 Spencerville, IN         Jamesport, MO            Upperville, VA
Amzie Martin,            Jonas Hostetler,         Jubilation Farm,
 Rochester, IN            Jamesport, MO            Purcellville, VA
Everett Martin, Goshen,  Joseph Hostetler,        Mt. Gap Farm,
 IN                       Jamesport, MO            Leesburg, VA
Marlin Miller,           Nate Powell-Palm,        Andy Wilcox, Wilcox
 Dillsboro, IN            Bozeman, MT              Farms, Roy, WA
John Miller,             Casey Bailey, Fort       Maynard Mallonee,
 Middlebury, IN           Benton, MT               Mallonee family farm
Rufus Ramer, Rochester,  Mark Smith, Lavina, MT    LLC, Curtis WA
 IN
Chad Ramseyer, Poneto,   Bob Herdegen, Chinook,   Andrew Dykstra,
 IN                       MT                       Dykstra Farms
Kevin Ramseyer, Poneto,  Clay McAlpine, Valier,   Burlington, WA, Dean
 IN                       MT                       Wesen
Albert Schrock,          Jody Manuel, Havre, MT   Wesen Organic Dairy,
 Pennville, IN                                     Bow, WA
Stephen Stalter,         Rob Knotts, Lambert, MT  Organic Valley/CROPP
 Wakarusa, IN                                      Cooperative,* La
                                                   Farge, WI
Sam Stalter, Wakarusa,   Jess Alger, Stanford,    Gary Achenbach,
 IN                       MT                       Eastman, WI
Laverne Stutzman, Etna   Dave Anderson, Belt, MT  Tony Bomkamp, Muscoda,
 Green, IN                                         WI
John Wengerd, Geneva,    Wes Henthorne, Big       Kevin Hall,
 IN                       Timber, MT               Livingston, WI
Daniel Yoder, Topeka,    Audra Parker, Ogalala,   Loras Kilburg, Cuba
 IN                       NE                       City, WI
Lonnie Yoder, LaGrange,  Jesse Laflamme, Pete &   David Martin,
 IN                       Gerry's Organics, LLC,   Bloomington, WI
Miller, Goshen, IN        Monroe, NH              Jerry Nolt, Boscobel,
                                                   WI
Schlabach, Goshen, IN    Giavagnoli, Boscowen,    Randy Nolt, Boscobel,
                          NH                       WI
Beechy, Topeka, IN       Ward, Monroe, NH         Michael Shirk, Thorp,
                                                   WI
Freeman Fry, Topeka, IN  Applegate Natural and    Matt Teunissen, Cedar
Kevin Packnett, Afton,    Organic Meats,           Grove, WI
 IA                       Bridgewater, NJ         Edwin Weaver, Loyal,
                                                   WI
Larry Nightingale,       Art Schaap, Native       Nelson Weaver,
 Pulaski, IA              Pastures Dairy,          Curtiss, WI
                          Clovis, NM
Arlyn Kauffman, Weldon,  Latremore, Chazy, NY     Dan White, Mt. Hope,
 IA                                                WI
Gary Kauffman, Lorimor,  Burkholder, Fort         Ammon Zimmerman,
 IA                       Covington, NY            Stitzer, WI
Jacob Klassen, Stanton,  Sensening, North         Miller, Blue River, WI
 IA                       Bangor, NY
Jake Kropf,              Reiff, North Bangor, NY  Betsy Babcock,
 Spragueville, IA        Paul & Maureen Knapp,     Handsome Brook Farm,
Dennis Headings,          Cobblestone Valley       Franklin, NY
 Lorimor, IA              Farm, Preble, NY        David Bontrager,
Duane Headings,                                    Sparta, WI
 Bellevue, IA                                     Ervin Miller,
                                                   Hillsboro, WI
Ronnie Kauffman,         David Hardy, Hardy       William Yoder, La
 Creston, IA              Family Farm, LLC,        Farge, WI
                          Mohawk, NY
Stacy Bushman, Fort      Doug Burbaugh,           Melvin Yoder, Ontario,
 Atkinson, IA             Harpster, OH             WI
Royal Hostetler,         Perry Clutts,            Dennis Bontrager,
 Spragueville, IA         Circleville, OH          Cambria, WI
Blake Family Farm,       C.W. Harting, Convoy,    Allan Miller, Cashton,
 Waukon, IA               OH                       WI
James Frantzen, Elma,    Doug Poling, Convoy, OH  Andy Kauffman,
 IA                                                Cashton, WI
Tom Frantzen, New        Raber, Baltic, OH        Andrew Schwartz,
 Hampton, IA                                       Ontario, WI
Ron Rosmann, Harlan, IA  Piskac, Medina, OH       Chester Kauffman,
                                                   Cashton, WI
Ryan Wangsness,          Petersheim, Mt. Vernon,  Daniel Yoder, Ontario,
 Decorah, IA              OH                       WI
Rick Hellman, Burt, IA   Troyer, NW Sugarcreek,   Henry Hochstetler,
                          OH                       Hillsboro, WI
Mark Kruse,Lansing, IA   King, Rushsylvania, OH   Joe Kauffman, La
                                                   Farge, WI
Andy Bishop,             Raber, Sugarcreek, OH    John Troyer, Cashton,
 Willisburg, KY                                    WI
Justin Dorris,           Mast, Walhonding, OH     Joseph Schwartz,
 Morgantown, KY                                    Pardeeville, WI
Darren Gordon,           David R. Ring, Shiloh    Levi Miller, La Farge,
 Clarkson, KY             Acres Dairy, Conneaut,   WI
                          OH
Austin Hostetler,        Alvin Bowman,            Michael Miller,
 Auburn, KY               Fredricksburg, OH        Wonewoc, WI
Colten Hostetler,        Scott Stoller,           Ben Miller, South
 Auburn, KY               Stollers' Organic        Wayne, WI
Rich Pemberton, Beaver    Dairy, Ltd., Sterling,  Norman Miller,
 Dam, KY                  OH                       Pardeeville, WI
Larry Ryker,             David Osterloh, Iv-Ann   Bryan Kauffman, Blue
 Bonneville, KY           Farms, Maria Stein, OH   River, WI
Marvin Sauder, Owenton,  Menno Farm, Welch, OK    David Packnett,
 KY                                                Boscobel, WI
Leon Sauder, Liberty,    Suzanne Willow and       Jeff Eigsti, Blue
 KY                       Lanita Witt, Willow-     River, WI
Roy Sauder, Liberty, KY   Witt Ranch, Ashland,    Eric Miller, Blue
                          OR                       River, WI
Norman Schlabach,        Common Treasury Farm,    Morris Zimmerman,
 Auburn, KY               Alsea, OR                Muscoda, WI
Keith Taul, Cecilia, KY  David Breckbill, Willow  Randy Kauffman,
                          Street, PA               Monroe, WI
Kenny Thomas,            Dick Burchfield, Port    Trent Hostetler,
 Morgantown, KY           Royal, PA                Avoca, WI
Elmwood Stock Farm,      Jay Burkholder, Peach    Marissa Taylor,
 Georgetown, KY           Bottom, PA               Lonetree, WY
Martin, Brownfield, ME   Jeff Cook, Selinsgrove,  Kevin Mahalko, Mahalko
                          PA                       Dairy, Gliman, WI
Douglas Hartkopf, Hart   Tim & Joel Crouse,       Douglas Delling,
 to Hart Farm, Albion,    Myerstown, PA            Ontario, WI
 ME
Joe Bontreger, Holten,   Jeff Daniels, Halifax,   Jeff Galstad, Coon
 MI                       PA                       Valley, WI
Aaron Keilen, Portland,  Matt Dersham, Milmont,   Lucky H Acres, Coon
 MI                       PA                       Valley, WI
Fred Callens and         Randy Dunkelberger,      Michael G. McCarty,
 Family, Minneota, MN     Middleburg, PA           Stoddard, WI
Loretta and Martin       James Eby, Gap, PA       Paul & Judy Olson,
 Jaus, Jaus Farms Inc.,  Nevin Ehst, Bernville,    Taylor, WI
 Gibbon, MN               PA                      Donna & Larry
                                                   Mikshowsky, Bangor,
                                                   WI
Montana Organic          John Fisher, Loganton,   Bear Creek Organics,
 Producers Cooperative,   PA                       La Farge, WI
 Bozeman, MT             Allen Glick,             Alan Seelow,
                          Elizabethville, PA       Chaseburg, WI
Willie Shrock, Buffalo,  Darren Good, Lititz, PA  Jane Siemon, Viroqua,
 MO                                                WI
Kent Hostetler,          Dale Greiner, Maheim,    Joel Goede, Genoa, WI
 Buffalo, MO              PA
Jeremy Bosser, Buffalo,  Gerald High, Richfield,  Roger Peters, Peters
 MO                       PA                       Farm, Chaseburg, WI
Jake Hostetler,          Lester Hoover,           Arne Trussoni, Genoa,
 Buffalo, MO              Millersburg, PA          WI
Ervin Hoover,            Keith Wilson, Wilson     Dan Pearson, River
 Miffinburg, PA           Organic Farm, Cuba       Falls, WI
                          City, WI
Carl Hoover, Myerstown,  Max Flaig, Flaig Farms
 PA                       LL, Sparta, WI
 
* An 1,800 member organic farmer owned cooperative.

                                 ______
                                 
     Submitted Photo and Article by Hon. Michelle Lujan Grisham, a 
               Representative in Congress from New Mexico
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

          Jon Bivens' son after being stamped (Photo courtesy of Jon 
        Bivens) (Ivana Hrynkiw D <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7d14150f041316140a3d1c11531e1210">[email&#160;protected]</a>).*
---------------------------------------------------------------------------
    * Editor's note: the article, `I need lunch money,' Alabama school 
stamps on child's arm, is retained in its entirety in Committee file; 
it is also available at: http://www.al.com/news/birmingham/index.ssf/
2016/06/gardendale_elementary_student.html.
---------------------------------------------------------------------------
The New York Times
Shaming Children Over School Lunch Bills
The Opinion Pages D Editorial
By The Editorial Board.
May 5, 2017 
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

          Students filling their trays at an elementary school in 
        Kingston, N.Y., where all meals are now free under the Federal 
        Community Eligibility Provision. Credit Mary Esch/Associated 
        Press.

    The humiliation inflicted on children whose parents are late paying 
school lunch bills--or are too poor to pay them at all--is a national 
disgrace. Cafeteria workers berate the children for being unable to 
pay, rather than allowing them to eat, or stigmatize them by stamping 
their arms with messages like ``I need lunch money.'' An article in The 
Times (https://www.nytimes.com/2017/04/30/well/family/lunch-shaming-
children-parents-school-bills.html) on Monday recounted the painful 
experience of one student whose meal was dumped in the garbage.
    The Department of Agriculture, which oversees the school lunch 
program, drew attention to this last year (https://www.fns.usda.gov/
sites/default/files/cn/SP46-2016os.pdf) when it required school 
districts to establish a written policy for dealing with children who 
are unable to pay for food. It encouraged districts to work out payment 
plans with families and to find ways to continue providing meals, but 
did not explicitly bar them from humiliating children over outstanding 
bills. Three-quarters of school districts ended the 2015-16 school year 
with outstanding meal bills, some totaling millions of dollars. The 
districts argue that shaming is necessary to force families who can 
afford to pay to do so.
    Federal data shows that nearly \1/2\ of school districts employ 
shaming policies--from substituting a cold sandwich for a hot meal to 
even worse forms of humiliation. The problem is that many families 
struggling with outstanding bills are in fact eligible for free or 
reduced-price meals but either don't know it, because of language 
barriers, or have fallen through the cracks of the registration process 
for some other reason.
    The Food Research and Action Center, a national nonprofit group 
that works on policies to combat hunger, has proposed stronger 
recommendations (http://www.frac.org/research/resource-library/
establishing-unpaid-meal-fee-policies-best-practices-ensure-access-
prevent-stigma). It calls on schools to reach out to families who 
qualify for free or reduced-price meals to make sure they get certified 
to receive them.
    It rightly urges schools that serve poor students to register for 
the Federal Community Eligibility Provision program, under which 
schools serve free breakfast and lunch to all children and are 
reimbursed by the government based on the poverty level of its 
students. Beyond that, districts need to make payment arrangements with 
struggling families directly, instead of turning to collection agencies 
that push them toward financial collapse with onerous fees.
    States across the country are finally taking steps to end the 
stigmatization of hungry children. New Mexico, for one, outlawed 
(https://www.nytimes.com/2017/04/07/well/family/new-mexico-outlaws-
school-lunch-shaming.html) the use of shaming and directed schools to 
sign up for Federal meal assistance and work with families to pay 
debts.
    Schools have to find ways to collect meal debts without 
stigmatizing vulnerable children who have nothing to do with the debt 
and no means of paying it off.
                                 ______
                                 
                          Submitted Questions
Response from Hon. Sonny Perdue, Secretary, U.S. Department of 
        Agriculture
Questions Submitted by Hon. Glenn Thompson, a Representative in 
        Congress from Pennsylvania
    Question 1. Mr. Secretary, congratulations on your recent 
confirmation. Thank you for your early action to help get flavored milk 
back into schools that has long been a priority of mine as a senior 
Member of the Education and the Workforce Committee. Here on this 
Committee, we're very eager to get to work on the next farm bill for 
the benefit of all of agriculture. As you mentioned in your testimony 
dairy farmers have been struggling and we need to make some 
improvements to the Margin Protection Program.
    In the near-term, I'm interested in an idea that some in the dairy 
industry have floated to see if we can develop some additional risk 
management products that would recognize milk as an agricultural 
commodity that is separate and distinct from coverage developed for 
livestock. Current law does not indicate that Congress intended for 
livestock products like milk to fall under the same category as 
livestock, so we're hopeful that USDA can look closely at this and see 
if this may be a way to provide some interim options for dairy farmers. 
I'm interested in any comments you have and I'd be grateful if you can 
commit to working with us to get this problem solved for our dairy 
producers
    Answer. We are exploring all options to provide relief to America's 
dairy farmers and I am committed to working with the Committee and 
stakeholders in finding solutions. We are fully engaged on the issue of 
whether milk should fall outside of the livestock cap on crop 
insurance, and I hope to have an answer in the near future.

    Question 2. America's family woodland owners--tree farmers--supply 
over \1/2\ of the timber used to make forest products here in the U.S. 
These landowners put in their own hard work-sharing in the stewardship 
of our nation's great forest resources. Just like we help farmers with 
technical assistance to supply us with food, USDA has tools to help 
forest owners supply us with fiber that fuels a significant domestic 
industry. These tools, found in both the U.S. Forest Service and NRCS 
and often implemented in partnership with state agencies like the 
Pennsylvania DNR, help landowners learn how to produce timber while 
also managing water and wildlife habitat. Will you work with me and 
other Members of the Committee to ensure that both NRCS and USFS State 
and Private Forestry programs work better for these Tree Farmers--
providing them with technical assistance and financial help where 
necessary to keep our nation in timber while conserving other important 
natural resources?
    Answer. Yes, I will commit to working with you to provide 
assistance to our private tree farmers, in order to ensure that we are 
being good stewards of our forests while providing the timber used to 
make forest products here in the U.S.

    Question 3. Even while the nation's agriculture markets are 
struggling, we see opportunities in the forest industry, as home starts 
on the rise, and other market indicators show improvement. I 
introduced, along with several of my colleagues, the Timber Innovation 
Act, to ensure that we have the research and technical support to drive 
innovation in the forest sector--just like we help our farmers and 
ranchers with innovation. The Forest Products Laboratory--within the 
U.S. Forest Service--is a huge asset when it comes to this research and 
is also working very closely with the industry to leverage their 
investments in research--a true public-private partnership. Will you 
support the Timber Innovation Act and work with me to ensure the Forest 
Service focuses on such research?
    Answer. I agree that the Forest Products Lab conducts important 
research that helps promote new uses and markets for wood. In addition, 
the Forest Service currently manages a Wood Innovation Grant program 
that supports wood products and wood energy markets throughout the 
United States to fund forest management needs on National Forest System 
and other forestlands. USDA is still in the process of reviewing the 
mentioned legislation.

    Question 4. Mr. Secretary, this Administration through several 
Executive Orders, has made the responsible use of our domestic energy 
resources and the development of energy infrastructure a major 
priority. Untying the bureaucratic knots that have stalled energy 
projects while complying with permitting rules and regulations will 
provide consumers with lower cost, cleaner energy and will create 
thousands of jobs.
    One such project that holds great potential for our economy is the 
Atlantic Coast Pipeline which will bring needed natural gas from the 
Marcellus shale region to states in the Southeast. Because this project 
must cross two National Forests, there has been active engagement with 
the Forest Service for over 2 years in an effort to secure the 
necessary permits to move forward. I am concerned about reports of the 
Forest Service local and regional offices continually changing 
requirements and conflicting requests for information.
    I would ask respectfully that you look into this matter and have 
your staff provide the Committee with a response and prompt update on 
this important project.
    Answer. I share your concern with meeting our domestic energy goals 
and ensuring the environmental review process moves efficiently. At 
this time, the Forest Service is meeting the Federal Energy Regulatory 
Commission timeline for all project submissions and environmental 
review. The Forest Service issued a draft record of decision on July 
21, 2017 to authorize the use and occupancy of National Forest Systems 
lands for the Atlantic Coast Pipeline, and approve project-specific 
amendments for the Monongahela National Forest and George Washington 
National Forest Plans. The draft decision, jointly issued by the Forest 
Service's Eastern and Southern Regional Foresters, would allow Atlantic 
Coast Pipeline LLC (Atlantic) to construct and operate 21 miles of the 
pipeline route that would cross National Forest System lands. Keeping 
this project moving forward efficiently is a top priority for the 
Department, and the Forest Service continues to hold regular meetings 
with Dominion Resources and the Federal Energy Regulatory Commission to 
discuss and understand information requests, document review and 
timelines. The work should be completed according to the published 
timeline.
Questions Submitted by Hon. Vicky Hartzler, a Representative in 
        Congress from Missouri
    Question 1. School Lunch--I appreciate the recent steps USDA has 
taken to provide flexibility in the school lunch program, and I believe 
this is a good step in the right direction but more needs to be done. 
Maintaining the Washington-based sodium and whole grain, and caloric 
requirements continues to be a problem for my local schools. I support 
their desire to regain control over decisions on what food is served in 
their schools. Can you tell me the steps USDA is taking to return 
decision making control to local schools and your willingness to 
support full control to local school officials?
    Answer. For the upcoming school year (SY) 2017-2018, based on 
appropriations actions and consistent with my proclamation signed on 
May 1, 2017, USDA offered flexibility for sodium, whole grains and 
flavored 1% milk. To affirm Congress' ongoing direction, USDA is also 
in the process of issuing a rule to provide flexibilities consistent 
with those currently available to Program operators participating in 
the Child Nutrition Programs beginning in School Year 2018-2019. These 
flexibilities include: (1) providing operators the option to offer 
flavored, low-fat (one percent fat) milk in the Child Nutrition 
Programs; (2) extending the state agencies' option to allow individual 
school food authorities to include grains that are not whole grain-rich 
in the weekly menu offered under the National School Lunch Program 
(NSLP) and School Breakfast Program (SBP); and (3) revising the sodium 
reduction timeline for the NSLP and SBP.
    USDA will be accepting public comments on these actions. After 
taking those comments into account, we will move to provide clarity for 
future school years. Further, I am reaffirming my commitment to work 
with school districts, school leadership, and school food service 
professionals to ensure the program meets its central goal of offering 
nutritious meals that students want to, and actually will, consume.
    USDA will also continue to offer a number of other opportunities 
for local schools and districts to operate a school meal program that 
works best in their communities. For instance, schools and districts 
continue to have full discretion over their menu planning decisions, 
food product purchasing, and recipes. USDA will continue to develop and 
provide numerous technical assistance resources to support menu 
planning, including the Food Buying Guide, standardized recipes, and 
sample menus that help schools meet the broad general requirements of 
the meal components while allowing for flexibility in offering items 
tailored to local or cultural preferences, seasonal considerations, and 
student input.

    Question 2. SNAP Tax--Recent state and local moves to levy various 
food and beverage taxes at the wholesale level could lead to Federal 
nutrition funding through the SNAP program being diverted from feeding 
hungry people to funding local communities through various tax schemes. 
I know SNAP law prohibits the collection of any sales tax on SNAP 
program benefits. Is the USDA currently working with municipalities or 
state governments to address these concerns? Is there any additional 
statutory authority the department needs to ensure all Federal funding 
through the SNAP program goes to its intended purpose of feeding hungry 
people?
    Answer. USDA works with state and local governments to address 
concerns as these tax issues arise. If a store is required to charge 
sales or a distributor's tax on SNAP-eligible food items, and that tax 
is normally charged at the point-of-sale or it appears separately on 
the receipt, then stores cannot include the charge in sales to SNAP 
clients. If stores are instead required to pay a distributor's tax for 
beverages or other SNAP-eligible food items, and that tax is included 
in the shelf price of the beverage or food item, then stores can charge 
the full shelf price (including the distributor's tax) to SNAP clients 
at the point-of-sale. Currently, USDA is not seeking additional 
legislation on this issue.

    Question 3. Meat Processing--In recent conversations with meat 
processing businesses in my district, I have heard of a variety of 
concerns ranging from conflicts in USDA-FDA labeling requirements to 
confusing humane handling standards to business limiting overtime 
regulations. These onerous regulations and unclear guidance is stifling 
their ability to grow their business and create jobs in rural America. 
What is the USDA doing to streamline FSIS regulations to ensure high 
standards of food safety that U.S. consumer demand in a way that still 
provides the flexibility processors need to thrive in a competitive 
global market?
    Answer. As directed by the President under Executive Order 13777--
Enforcing the Regulatory Reform Agenda--we are examining regulations 
across USDA to identify rules that, among other things, inhibit job 
creation, are ineffective, impose costs that exceed benefits, or create 
a serious inconsistency or otherwise interfere with regulatory reform 
initiatives and policies. As part of this effort, I am committed to 
modernizing our FSIS inspection system to streamline regulations, while 
continuing to ensure the safety and wholesomeness of meat, poultry and 
egg products.

    Question 4. ECP Funding & Waiver--Recent flooding in Missouri has 
caused much devastation to agriculture lands and personal property in 
my district. I want to ensure that all Federal resources are available 
to those in need following major severe weather events. The Emergency 
Conservation Program (ECP) is a very useful tool for returning ag lands 
back to productive use following major disasters. I understand there is 
an ECP backlog even after the most recent appropriation bill passed 
last month included an additional $28 million in funding. Can you 
provide to me the current level of funding necessary to address the 
backlog and what it would take to provide certainty to any Missouri 
farmers who may qualify and need this type of assistance? In addition, 
a few regions in the state have received multiple major flood events in 
the past 5 years. I understand ECP rules may prevent farmers in these 
areas devastated areas from participating in the program. Can I get a 
commitment from you to look at the data and determine if additional 
flexibility is warranted in these circumstances?
    Answer. The request for ECP implementation by Missouri was made and 
approved in May 2017 with an estimated need of $8 million. The start of 
signup was delayed to May 30th because of the need for water to recede 
before producers could assess the extent of damage. Because of the 
number of producers impacted, signup does not end until July 30th. At 
that time, we will have a clearer view of how much funding is needed 
and work to provide available funds quickly. We believe that the 
available funds will be sufficient funds to cover Missouri farmer needs 
related to this event unless signup results are much higher than 
anticipated, but we do still have a growing backlog, which currently 
totals $42 million nationally as of July 21st and changes daily due to 
unforeseen natural disasters. FSA Headquarters Office is working with 
the Missouri State office and has encouraged the state to submit any 
applications that need to be reviewed due to frequent damage 
provisions.
    Additionally, the provision associated with frequently damaged 
areas being eligible for ECP funds is specific to the actual area, or 
land unit damaged and not applied generally to a county or community. 
Therefore, even if a particular Missouri county has been impacted by 
recurring damaging floods, specific areas within that county may still 
qualify for ECP funding, as the rule is applied to site-specific land. 
FSA is currently evaluating waiver options to the frequent damage 
policy in response to the request from the Missouri State FSA Office.

    Question 5. USDA Policy Statement on Free Speech and Right to Free 
Religious Exercise--In 2015, the U.S. Department of Agriculture (USDA) 
threatened to shut down the family-owned West Michigan Beef Company for 
religious materials on marriage found in the company's breakroom. The 
owner, Donald Vander Boon, had included an article supporting marriage 
between a man and a woman amongst other materials available to 
employees. USDA inspectors immediately alerted Mr. Vander Boon of 
USDA's anti-harassment policy that prohibits communications USDA 
considers disrespectful or insulting based on sexual orientation. The 
owner was forced to remove the materials or close his doors. USDA's 
actions were an affront to free speech and the ability of individuals 
to exercise their faith unhindered.
    I appreciate your timely May 8, 2017 policy statement upholding 
First Amendment protections for all Americans and ensuring ``the right 
to free speech and the right to free religious exercise.'' I am 
particularly encouraged by USDA's commitment to ``continue to uproot 
and eliminate discrimination, harassment, and retaliation and ensure 
our employees and customers work in an atmosphere of dignity and 
equality--a place where the rules are known, respected, and fair to 
all.''
    The meat inspectors treatment of the West Michigan Beef Company was 
intolerant and counterproductive to First Amendment protections. Is 
USDA preparing agency guidance to implement the May 8, 2017 statement? 
Will this guidance protect all companies from future harassment and 
retaliation based on marriage or religious beliefs?
    Answer. The Food Safety and Inspection Service issued guidance to 
its District Managers on June 16, 2017, providing further guidance to 
implement my Policy Statement on the First Amendment. We will also 
follow any future guidance provided by the Department of Justice on the 
President's Executive Order promoting free speech and religious liberty 
and how those rights are implemented along with existing anti-
discrimination laws.
Question Submitted by Hon. Doug LaMalfa, a Representative in Congress 
        from California
    Question. Mr. Secretary, we have in the past year heard of several 
instances in which school food authorities purchased foreign peaches 
and other foreign products rather than domestic products, as is 
required by current Buy American requirements. Would you agree that 
USDA could do more to ensure that the Buy American requirements are 
strengthened?
    Answer. Yes, USDA should do more to ensure that we Buy American 
first. We are currently reviewing the options to reinforce the Buy 
American provisions. We also will continue to work with states to 
ensure school compliance with these requirements.
Questions Submitted by Hon. Mike Bost, a Representative in Congress 
        from Illinois
    Question 1. Mr. Secretary, in your written testimony, you mentioned 
natural challenges producers are facing such as damaging floods. My 
district is along the Mississippi River and we are still waiting for 
the waters to recede so producers assess the damage and replant. I 
would like to invite you to my district to tour the flood damaged areas 
and see how vitally important USDA services and Crop Insurance is to 
Southern Illinois producers.
    I have heard from my producers, especially younger ones, about 
Guaranteed and Direct Loan limits not being in line with the current 
cost of production. Previous witnesses in front of this Committee have 
echoed the same.
    Do you believe there is sufficient funding in the FSA loan programs 
in order to modernize the program and do you believe that there is 
adequate staff and technology at FSA to administer the loan programs?
    Answer. FSA has completed analyses showing that increasing the 
limits to the extent that many have proposed would increase the demand 
for funding. Increasing the loan limits without a commensurate increase 
in funding would reduce the number of producers that may be assisted 
through FSA's farm loan programs. Although FSA's loan portfolios have 
increased by over 40 percent since 2012, loans continue to be processed 
within established guidelines. I will prioritize customer service every 
day.

    Question 2. Do you feel that it is necessary for prime and 
productive farm ground to be enrolled in CRP as compared to more 
environmentally sensitive areas along waterways that need continuous 
dredging? Also, do you see CRP payment rates competing with the next 
generation of producers who are looking for quality ground to rent?
    Answer. CRP has unarguably provided agricultural landowners an 
incredible opportunity to voluntarily protect vital natural resources 
with various enrollment options suitable to their farming operation. 
All land enrolled in CRP is environmentally sensitive and must meet the 
statutory eligibility criteria. USDA announces general sign-up 
periods--typically no more frequently than once a year--where 
landowners submit bids and compete for entry. In contrast, continuous 
sign-up, which was initiated in 1996, is not based on competitive entry 
(if a landowner and the land offered for enrollment qualifies, the land 
is enrolled) and focuses on high priority conservation practices like 
filter strips, riparian buffers, and wetland restoration.
    Lands enrolled under the general signup (currently 16.1 million 
acres) must be: highly erodible (HEL), located in a conservation 
priority area, or be under an expiring CRP contract. A limited 
enrollment period is typically announced every year or 2; bids are 
competitively selected based on an environmental benefit index (EBI). 
The EBI captures the wildlife value of covers selected; water, air, and 
soil quality; and cost in determining the score and consequent ranking 
for enrollment. Even though many offered lands may meet the eligibility 
criteria, they may not be accepted if the EBI score is too low.
    Lands enrolled under continuous signup (currently 6.2 million 
acres) targets the most environmentally sensitive lands and includes 
the Conservation Reserve Enhancement Program (CREP), wetland, 
conservation buffer, and wildlife initiatives. If land meets 
eligibility requirements, landowners can enroll at any time of the year 
without competition.
    Annual rental rates vary by county based on dryland soil rental 
rates and are typically updated every other year using NASS survey 
data. They are set to reflect what a producer would pay in cash rent 
for non-irrigated cropland. Contract-specific rates are further 
adjusted by the relative productivity of the soils offered; thus, 
marginal lands--such as those targeted by CRP--receive a lower payment 
compared to more productive lands. There is an inherent lag in these 
rates. As land prices go down over time, rates may be temporarily 
higher than the market, and conversely, as land prices go up, rates may 
be temporarily lower than the market. We try to minimize this lag by 
updating rates as soon as better data is available.
    We have an opportunity in the next farm bill to re-examine the CRP 
program. At that time, we will offer our thoughts to Congress on the 
best way ahead for CRP and other conservation programs. That analysis 
will be based on the best science and data available.

    Question 3. Secretary Perdue, sustainability, the need for American 
farmers to compete on a world export stage, and the task of feeding 
nine billion people are all critically important problems this 
Committee can help address. In your view, how important are working 
lands conservation programs to achieving each of these goals?
    Answer. Working lands conservation programs are critical to 
achieving both important environmental benefits and producing food for 
our growing population. NRCS' suite of working lands conservation 
programs help our producers remain the most productive and competitive 
in the world without sacrificing the land and water resources we all 
depend on. Working lands programs put conservation practices on the 
ground by providing planning, technical solutions, cost-sharing 
assistance and agricultural use retention. While the practices 
available within our programs may require some initial investment, they 
tend to increase long-term productivity and contribute to profitability 
down the road.
    By ensuring that our nations' producers are not forced to choose 
between sustainable agriculture and profitable, productive agriculture, 
working lands programs are uniquely designed to address the twin goals 
of sustainability and productivity at the same time. NRCS's working 
lands programs ensure farmers and ranchers can do right and feed 
everyone.

    Question 4. Mr. Secretary, Foot-and-Mouth Disease is one of the 
most devastating diseases of livestock. A FMD outbreak in the U.S. 
would be disastrous to our livestock industry with serious implications 
to our whole agriculture economy. I continually hear from our producers 
that the Animal and Plant Health Inspection Service is not prepared to 
effectively deal with a FMD outbreak due to shortage of vaccines and 
other resources. Will you commit to working with Congress to improve 
the Department's preparedness to handle an FMD outbreak?
    Answer. I can assure you that USDA takes the threat of FMD very 
seriously, and we will work with Congress, states and industry to 
ensure that we are all prepared for this disease or any other foreign 
animal disease.
Questions Submitted by Hon. David Rouzer, a Representative in Congress 
        from North Carolina
    Question 1. Mr. Secretary, this Administration through several 
Executive Orders, has made the responsible use of our domestic energy 
resources and the development of energy infrastructure a major 
priority. Untying the bureaucratic knots that have stalled energy 
projects while complying with permitting rules and regulations will 
provide consumers with lower cost, cleaner energy and will create 
thousands of jobs. One such project that holds great potential for our 
economy is the Atlantic Coast Pipeline which will bring needed natural 
gas from the Marcellus shale region to states in the Southeast. To do 
so, this project must cross two National Forests and has been actively 
engaged with the Forest Service for over 2 years in an effort to secure 
the necessary permits. I am concerned about reports of the Forest 
Service local and regional offices continually changing requirements 
and conflicting requests for information. I would ask respectfully that 
you look into this matter and have your staff provide the Committee 
with a response and prompt update on this important project.
    Answer. I share your concern with meeting our domestic energy goals 
and ensuring the environmental review process moves efficiently. At 
this time, the Forest Service is meeting the Federal Energy Regulatory 
Commission timeline for all project submissions and environmental 
reviews. The Forest Service issued a draft record of decision on July 
21, 2017, to authorize the use and occupancy of National Forest Systems 
lands for the Atlantic Coast Pipeline, and approve project-specific 
amendments for the Monongahela National Forest and George Washington 
National Forest Plans. The draft decision, jointly issued by the Forest 
Service's Eastern and Southern Regional Foresters, would allow Atlantic 
Coast Pipeline LLC (Atlantic) to construct and operate 21 miles of the 
pipeline route that would cross National Forest System lands. Keeping 
this project moving forward efficiently is a top priority for the 
Department, and the Forest Service continues to hold regular meetings 
with Dominion Resources and the Federal Energy Regulatory Commission to 
discuss and understand information requests, document review and 
timelines. The work should be completed according to the published 
timeline.

    Question 2. Would a companion program for animal health mirroring 
the Plant Pest and Disease Program administered by APHIS be helpful in 
managing disease threats?
    Answer. I will direct APHIS to undertake a study of this proposal 
and will report back on the findings.

    Question 3. Mr. Secretary, there is a regulation that dates back to 
1982, and it is the source of great concern among many who care about 
charter schools. At that time the Department of Agriculture adopted the 
Title IX ``Common Rule'', as did most agencies, except that USDA added 
an additional provision to the rule that prevents discrimination based 
on appearance. This specific provision has been used as the hook for 
the ACLU to sue charter schools due to their dress code requirement of 
students. Specifically, the ACLU has brought lawsuits against charter 
schools that participate in the free and reduced price lunch program 
because they require students to wear uniforms. These lawsuits have 
cost charter schools in my district more than $315,000 in legal fees 
over the course of the last 3 years. Would you be willing to take at 
look at this particular provision and let me know if the Administration 
would be willing to repeal it, or at least modify it to clarify that 
this particular provision does not apply to charter schools?
    Answer. The USDA Office of the Assistant Secretary for Civil Rights 
is in the process of updating our regulations to harmonize its 
provisions with the Title IX common rule issued by the Department of 
Justice in 2000. Thus, USDA will bring its regulations in line with 
other Federal department regulations.
Questions Submitted by Hon. Ralph Lee Abraham, a Representative in 
        Congress from Louisiana
    Question 1. I have been hearing reports from my Sugar farmers that 
RMA is imposing a 45% premium rate increase over 3 years on Sugar. This 
massive increase is costly to our growers, and will suppress 
participation in the crop insurance program. Our Farm Bureau can find 
no actuarial reason for such a large increase and I was wondering if 
you help me understand what has happened here and why such a large jump 
is warranted?
    Answer. Although the average premium per acre has decreased since 
2014, premiums are expected to increase for 2017 due to several 
factors. For 2017, new coverage has been added to the sugarcane policy 
that addresses overwinter damage. Also, the method used to measure 
production for loss adjustment purposes has been revised in a manner 
that is likely to increase insurance payments. These changes were 
privately developed and proposed by the sugarcane industry, and then 
approved by the Federal Crop Insurance Corporation Board of Directors. 
To maintain actuarial soundness, an increase in premium rates was 
recommended to account for the added coverage. Other factors that 
affected premium rates for 2017 were regular updates of the premium 
rates to reflect recent loss history and an increase in the insured 
price of sugarcane.

    Question 2. I wanted to thank you for your Agency's work towards 
permitting Louisiana's rice farmers to take advantage of planting 
furrow irrigated rice as an insured crop. Furrow irrigation using blast 
resistant seed produces competitive yields while saving water and 
drastically reducing harvest costs. Approval of this practice will 
provide Louisiana's farmers and producers yet another tool to provide 
strong and reliable harvests. Can you give me an idea of how long this 
approval process will take?
    Answer. RMA has engaged in numerous discussions regarding the 
furrow irrigated rice growing practice that Louisiana and other rice 
growing areas are beginning to utilize and looks forward to working 
with Louisiana's rice producers in providing insurance coverage for 
these rice growing practices. RMA is aware that some groups may be 
interested in developing furrow irrigation practice coverage under the 
authority provided by Section 508(h) of the Federal Crop Insurance Act. 
Once a complete submission is received, the Federal Crop Insurance 
Corporation (FCIC) Board of Directors (Board) and the RMA will work 
expeditiously through the FCIC Board approval process. Once the private 
entity completes its developmental work and submits the private 
submission under Section 508(h) to the FCIC Board, the approval process 
can vary depending on the complexity and issues that may arise during 
the FCIC Board's statutorily required review process.
Questions Submitted by Hon. Collin C. Peterson, a Representative in 
        Congress from Minnesota
Biotech
    Question 1. The Administration's announcement of the 100 Day Action 
Plan of the U.S.-China Comprehensive Economic Dialogue and the 
inclusion of their commitment to address the current backlog of new 
biotechnology traits for import into China is welcomed news. However, 
there's concern that China's National Biosafety Committee may be 
looking to use EU approval of varieties as a factor in determining 
approval. This is troubling news. What assurance can you provide that 
the Administration will find ways to hold China accountable to the 
agreement they made to use only safety-based criteria in determining 
the approvals?
    Answer. Your question underscores the importance and value of the 
new Under Secretary for Trade and Foreign Agricultural Affairs that I 
announced last month. As directed by Congress under the 2014 Farm Bill, 
this newly created position will bring unified high level 
representation for agriculture to key trade negotiations with senior, 
foreign officials and within the Executive Branch. It will also allow 
the Administration to recruit an Under Secretary who has extensive 
experience in international trade negotiation and policy issues. USDA's 
Under Secretary for Trade and Foreign Agricultural Affairs will work 
tirelessly to hold other countries to their trade commitments, 
including those addressed with China in the 100 Day Action Plan.
Conservation
    Question 2. Under the President's budget outline, encouraging 
private-sector conservation planning is recommended. What does private-
sector conservation planning look like to you? Do you think this can be 
accomplished without conflicts of interest and adequate oversight?
    Answer. I do believe that private-sector conservation planning can 
be successful. The Technical Service Provider (TSP) program, authorized 
by the 2002 Farm Bill, and the authority to fund the Conservation 
Activities Plan (CAP), established by the 2008 Farm Bill, have already 
provided many opportunities for the private-sector to assist in 
conservation planning activities through NRCS conservation programs, 
especially the Environmental Quality Incentives Program (EQIP). NRCS 
has also utilized TSPs through agreements to accomplish specific 
conservation planning projects.
    We encourage the expanded engagement from the private-sector in 
conservation planning, enabling the Agency to provide increased 
leadership to ensure NRCS and partner staff technical efforts are 
concentrated where they are most needed by our customers. With the 
proper resources, standards, guidance, and oversight in place, NRCS can 
enhance plan quality, increase the number of conservation plans being 
developed, and boost the acres covered by conservation plans.

    Question 3. There is concern that Members' priorities for 
conservation will be put on the backburner given the new restructuring 
of USDA and with NRCS moving under the Under Secretary for Farm 
Production and Conservation. How will you ensure that Conservation and 
NRCS remain a priority? Will you have a Deputy Under Secretary for 
Conservation?
    Answer. At this time, we do not have plans for a Deputy Under 
Secretary for Conservation. I am still in the process of evaluating 
USDA's reorganization but fully intend to notify Congress if we decide 
to take such a step. I feel as though conservation and NRCS will 
actually be elevated in the reorganization as it becomes housed within 
the Farm Production and Conservation mission area with FSA and RMA, 
which are farmer-focused agencies that provide critical customer 
service in the field. In addition to my personal assurances, this is 
the first time one of our mission areas has included ``conservation'' 
in the title, and nobody should be able to forget where NRCS is now 
housed.

    Question 4. Have you already been briefed on the requirement for 
conservation program participants to sign up for DUNS nos. and get SAM 
registrations? Hopefully you will do what you can administratively to 
eliminate this requirement that is frustrating program participants 
through requirements that were never meant for conservation title 
payments.
    Answer. The requirements you identify are pursuant to the Federal 
Funding Accountability and Transparency Act (the Transparency Act) 
implementing regulations at 2 CFR part 25, which includes the 
government-wide requirement that entities meet two basic conditions in 
order to receive any award of Federal financial assistance, including 
NRCS conservation program assistance. First, the entity must have a Dun 
and Bradstreet Data Universal Numbering System (DUNS) number and have a 
current registration with the System for Award Management (SAM) at the 
time of fund obligation in order for there to be a valid conservation 
program agreement. Second, the entity must maintain an active 
registration in SAM for the duration of the conservation program 
agreement.
    NRCS does not have authority to waive these government-wide 
requirements under the Transparency Act, and thus NRCS cannot eliminate 
the requirements administratively. However, NRCS continuously works 
with affected program participants to explain the mandates and, if 
issues arise at the time of payment, assist participants to resolve 
their compliance issues.

    Question 5. The Department recently shut down the enrollment of 
acres into the Conservation Reserve Program. Given that there are 2.5 
million acres coming out of the CRP at the end of September, is there a 
reason why you aren't allowing landowners to continue to sign up for 
contracts that would be enrolled after October 1st of this year?
    Answer. We temporarily paused FY 2018 contract approvals in order 
to evaluate what types of offers--continuous, general, or grasslands--
should be prioritized and accepted to best utilize the limited number 
of available acres. Enrollment in CRP is currently at 23.5 million 
acres, just below the 24 million acre enrollment cap established in the 
2014 Farm Bill. Decisions on how to manage the strong demand for CRP 
acres given the limited acreage availability under the cap must be 
made. On September 30, 2017, 2.5 million acres of CRP will expire. 
Counting against the 2.5 million acres that will expire at the end of 
FY 2017 are CRP-Grasslands and continuous signup offers that have an 
October 1, 2017 (FY 2018) start date. Currently, we anticipate only 
about \1/2\ million acres will be available for CRP enrollment in FY 
2018, depending on final CRP-Grasslands and continuous signup 
enrollment numbers in FY 2017. I am considering options regarding the 
distribution of future CRP acreage enrollment, and look forward to 
working with Congress in developing a path forward.
Crop Insurance
    Question 6. We know the positive impacts provided by cover crops. 
There is an important opportunity to streamline and improve NRCS and 
RMA rules. The last Administration left office before solving the 
problems around RMA's overly burdensome guidelines on cover crops or 
making changes to the Good Farming Practices list. How do you plan on 
addressing this issue?
    Answer. I am committed to ensuring that rules make sense for both 
America's farmers and taxpayers. We will look at this issue as part of 
our larger effort to streamline and create more efficiencies throughout 
the Department.
Dairy
    Question 7. During your confirmation process, you spoke with 
interest, about a proposal by industry, on the need to develop crop 
insurance options for dairy producers, both through changes to the LGM 
program and through the normal insurance submission process. What are 
your thoughts today and what actions has USDA taken to this end?
    Answer. We are actively exploring all avenues available to provide 
more crop insurance options for dairy farmers. We are committed to 
working with any submitter to expand risk management options to dairy 
farmers and will work to make sure the review process moves as 
expeditiously as possible. In addition, we will work with private 
submitters to improve already existing products and will explore 
internal development of polices as well.
Department Administration
    Question 8. Have you been briefed on the status of claims in the 
Office of Civil Rights, including those under the Equal Credit 
Opportunity Act? Hopefully you will avoid what has taken place during 
other changes in Administrations, which is a walking away from the 
processes in place to ensure that farmers and employees are treated 
fairly and have a system in place if they feel they have not been.
    Answer. With regard to Civil Rights at USDA, my goal is that all 
customers will receive fair treatment and high quality service, no 
matter their gender, race, religion, or other personal characteristics. 
In saying that the Department should ``Do Right and Feed Everyone,'' I 
expect that the Department and its employees will do right by everyone. 
The Office of the Assistant Secretary for Civil Rights issued a 
memorandum on June 23, 2017, to the Acting Deputy Under Secretary for 
Rural Development and the Acting Administrator for the Farm Service 
Agency providing data and explanations for complaints and ``non-
complaints'' filed under the Equal Credit Opportunity Act. The 
memorandum details the status and disposition for 1,101 program 
discrimination complaints filed with the Department between 1998 and 
2009 which comprised the Statute of Limitations list for administrative 
closure.

    Question 9. The Office of Advocacy and Outreach was created to 
serve a varied, but growing--and increasingly important--sector of 
agriculture. Do you believe that there is a need for an effort to 
coordinate and ensure that the needs of small, beginning, veteran, and 
minority producers are being addressed, especially given the increasing 
budget pressure on USDA?
    Answer. Improving customer service, whether those customers are 
small, beginning, veteran, minority, or another category, is a primary 
focus for me. We are reviewing the effectiveness of service delivery 
and the role that the Office of Advocacy and Outreach plays in ensuring 
that USDA customers receive the information and support they need. USDA 
will continue to develop tools that help small, beginning, veteran, and 
minority producers access our services and programs.

    Question 10. The President has made it a priority to limit Federal 
hiring. Could you provide a general outlook on the state of USDA's 
workforce? What is the percentage breakdown between age divisions, how 
many employees are approaching retirement age, and what steps are being 
taken to educate new hires and prepare for retirements in order to 
ensure a high level of customer service for farmers and 
ranchers?Regulatory Reform
    Answer. In USDA's current permanent workforce, our highest 
concentration of employees is in the age group 51-60 years of age 
(32%). This is followed by employees in the age group 41-50 (25%), 31-
40 (22%), 61-70 (12%), 21-30 (9%), 71 and older (1%) and 20 and under 
(less than 1%). Of these employees, 21% are eligible to retire in 2018, 
25% in 2019, and 29% in 2020. However, our overall attrition 
representing people who are leaving USDA, including those who are 
retirement eligible, is 7%. USDA has a very robust training and 
development program to ensure that employees recognize that the Agency 
is committed to their growth and development at all stages of the 
career life cycle. USDA has a policy, resources, and tools that help 
every employee and their supervisor annually develop an individual 
development plan to ensure employees are continually learning and 
growing in their careers. Additionally, USDA has development programs 
that are open to all employees designed to build the pipeline of 
leadership at every level, including the Team Leader Program, the 
Aspiring Leader Program, and the Leadership Essentials Certificate 
Program. In December 2016, USDA was ranked 5th out of 19 large agencies 
in the category of training and development, demonstrating that 
employees are highly satisfied with the training they receive at USDA.
Regulatory Reform
    Question 11. You recently named a ``Regulatory Reform Officer'' on 
your staff. What's on your list of regulations that you believe are 
impacting agriculture and rural America in a negative way?
    Answer. I wanted to make removal of barriers and unworkable 
regulations a top priority for the Department as it was named a top 
priority for President Trump's Administration. USDA is committed to 
operating efficiently, effectively, and with integrity, while 
minimizing the burdens on individual businesses and communities who 
participate in and comply with USDA programs. Shortly after my 
confirmation, and at the direction of Executive Order 13777--Enforcing 
the Regulatory Reform Agenda, I appointed a Regulatory Reform Officer 
(RRO) to lead the planning, coordination and ultimate implementation of 
the regulatory reforms and operational improvements at USDA. The RRO 
has already brought together leaders from the mission areas and staff 
offices inside USDA to form the Regulatory Reform Task Force required 
by EO 13777. This internal group is well into identifying reforms and 
opportunities for the department--regulatory, policy-based and 
operational--for the dual purpose of easing the regulatory burden on 
the American people and improving service delivery to USDA customers. 
USDA also just announced the request for public input into this reform 
effort and will review those submissions and take action where 
appropriate.
Reorganization USDA
    Question 12. If the Rural Development agencies will now report 
directly to the Secretary, who within the Secretary's office will be 
the main point of contact/advocate for Rural Development?
    Answer. The Assistant to the Secretary for Rural Development will 
be the primary point of contact within the Secretary's office.

    Question 12a. Will this individual have the same influence as an 
Under Secretary when it comes to making key decisions within the 
Department? For example, who will represent the RD programs when the 
budget is formulated? Doesn't this have implications for the RD program 
budgets--and if not, why not?
    Answer. The Assistant to the Secretary for Rural Development has 
the same influence, if not more, than the previous Under Secretary for 
Rural Development position in making Departmental decisions. There are 
no budget implications associated with the creation of the new 
position.

    Question 12b. Who will testify for the RD programs at budget 
hearings?
    Answer. The Assistant to the Secretary for Rural Development will 
be the senior policy official to testify on behalf of Rural 
Development.

    Question 12c. To whom will the State Directors of the RD programs 
report?
    Answer. The State Directors will report to the Assistant to the 
Secretary for Rural Development.

    Question 12d. Will the RD programs continue to have the same kind 
of staffing needed to carry them out effectively?
    Answer. USDA's reorganization plan does not call for changes in the 
staffing levels for Rural Development.

    Question 13. The new USDA organization chart showing Rural 
Development reporting directly to the Secretary leaves off listing 
Rural Utilities Service, Rural Housing Service and Rural Business--
Cooperative Service compared to the old organization chart. Are RUS, 
RHS and RBS being eliminated, consolidated or is this an oversight?
    Answer. The organizational chart previously provided to the 
Committee did not appropriately portray the alignment of the RD 
agencies to the Assistant to the Secretary. As a result, the chart has 
been updated to accurately reflect the three agencies within Rural 
Development reporting the Assistant to the Secretary for Rural 
Development. A corrected version of the report was distributed to the 
House Agriculture Committee and posted online on June 16, 2017.

    Question 14. State RD directors currently report to the Under 
Secretary for RD. Access to the Under Secretary can be important for 
them in helping break into the USDA bureaucracy. Who will the state 
directors report to, going forward?
    Answer. The State Directors will report to the Assistant to the 
Secretary for Rural Development.
Research
    Question 15. During a hearing earlier this year, the Subcommittee 
on Biotechnology, Horticulture, and Research learned that the United 
States is being outpaced with regards to investment in agricultural 
research. China has increased its research investments exponentially 
while India and Brazil are making significant investments as well. This 
in turn has potential implications on the U.S. food supply and 
availability of qualified agricultural scientists and researchers. How 
is USDA responding to this trend given the current fiscal forecast and 
what is this Administration doing to close this investment in the 
research delta?
    Answer. New discoveries, new technologies, and new skill sets 
(e.g., precision agriculture, artificial intelligence, machine 
learning, robotics, photonics, remote sensing, computational biology, 
etc.) applied to agriculture and forestry, are needed to greatly 
increase agricultural productivity and profitability sustainably in 
order to provide for a population expected to expand to 9.7 billion 
people worldwide by 2050. Further, another challenge is attracting the 
brightest minds to sustainably increase food and fiber production and 
to solve tough problems. Despite these challenges, USDA is looking 
towards the future to meet the demands of providing food, fiber, and 
fuel to a growing population. This will require focus on the growth and 
development of the physical infrastructure, human capital, and big 
science capabilities within USDA and the agricultural research 
enterprise.
    Through NIFA, we are focusing on a comprehensive Education and 
Literacy initiative to address the shortfall between professions with 
food and agriculture degrees and the available jobs in the United 
States. This approach will enhance agricultural literacy by supporting 
secondary schools through institutional grants for in-service training 
to develop and improve curricula that will enhance agricultural 
literacy; and to community colleges to retrain rural workers needed to 
enhance value-added enterprises in the agricultural sector. In 
addition, NIFA will support efforts in workforce development by 
offering institutional grants that will enable development of technical 
knowledge in the agricultural disciplines along with critical thinking 
skills, problem solving, digital competency, international experience, 
agricultural technology and communication skills via domestic and 
global internships, externships, and practicums in research and 
extension.
    Outcomes from this program will eventually bridge the current 40 
percent annual gap in available workforce with more graduates 
possessing the exceptional skills and expertise in agriculture or 
allied disciplines needed for entering employment and/or higher 
education. NIFA also supports graduate and post-graduate education in 
agriculture and related disciplines. The NIFA Graduate and Post 
Graduate Fellowships programs will continue to train pre- and post-
doctoral scholars, and offer opportunities to interested trainees to 
obtain international experiences on issues relevant to U.S. 
agriculture. A new training grant program will offer disciplinary or 
theme-based training priorities to recruit and retain cohorts of 
talented new graduate students in disciplines where acute shortages of 
expertise exist. These well thought out education and training 
programs, which span across K through 20 educational pipeline, will 
provide a talented workforce and visionary leadership that will be 
crucial in maintaining agricultural preeminence of America in food, 
agriculture, natural resources, and human science dimensions.
    In addition, USDA's Science Council facilitates cross-Department 
coordination and collaboration among all USDA agencies to ensure that 
science informs policy and program decisions as well as to advance the 
scientific discovery, technological breakthroughs and innovation 
required to achieve the Secretary's science and technology priorities. 
The Council's Education Coordinating Committee cultivates the robust 
partnerships across the Department needed foster the next generation of 
workers in university teaching and research; meeting the needs of the 
private-sector; addressing societal and scientific challenges through 
citizen science and crowdsourcing; and improving public awareness of 
the important role that the food, agricultural, and natural resource 
sectors play in promoting our country's physical and economic health 
and security.
Rural Development
    Question 16. One way it's clear you and the President intend to 
reduce the rural development workload is by flat out cutting rural 
development programs. The President's budget recommends eliminating the 
Rural Business--Cooperative Service because this program is, 
``duplicative and under-performing.'' However, these programs are 
important in many rural areas. Can you explain the duplicative and 
under-performing reasoning for eliminating these programs? Or is this 
Administration against business development and job training for our 
rural communities?
    Answer. Rural Development is an exceedingly important mission area 
at USDA, which is why I have elevated the agency to report directly to 
me, through an Assistant to the Secretary for Rural Development. I look 
forward to working with you to identify innovative, more effective 
policies that ensure the unique needs of rural communities are met.

    Question 17. In the President's budget proposal, the Water and 
Wastewater Loan and Grant program is eliminated. Do you support this 
proposal?
    There is currently around a $2 billion backlog for this program for 
projects that rural communities need so people can have clean and safe 
drinking water. How is eliminating this program in the benefit of any 
of these communities? Do you have another plan for them, some that may 
even be facing regulatory action if they can't get new systems?
    Answer. Thank you for your interest in this issue. The 
Administration is in the process of taking a closer look at the proper 
role and size of Federal Government. As Secretary of Agriculture, it is 
important to me that rural communities have clean and safe drinking 
water, and I will continue to work with Congress and others in the 
Administration to identify how best to serve our rural communities.

    Question 17a. The skinny budget proposal from the President says 
that these communities can be served by the private-sector or by other 
programs like the EPA's State Revolving Funds. Do you think if these 
were reasonable alternatives they already would have been used by these 
communities? How do you suggest these communities move forward with 
these projects with this program being eliminated?
    Answer. As I previously noted, it is important to me that rural 
communities have clean and safe drinking water, and I will continue to 
work with Congress and others in the Administration to identify how 
best to serve our rural communities.
Question Submitted by Hon. David Scott, a Representative in Congress 
        from Georgia
    Question. It is important to me and many of my colleagues on this 
Committee that the office of the Assistant Secretary for Civil Rights 
has all the resources it needs to be effective, as not to repeat the 
errors of the past that resulted in unequal access to staff and 
programs by minority groups and minority farmers. What are your goals 
for the office of the Assistant Secretary for Civil Rights under your 
leadership?
    Answer. With regard to Civil Rights at USDA, my goal is that all 
customers will receive fair treatment and high quality service, no 
matter their gender, race, religion, or other personal characteristics. 
In saying that the Department should ``Do Right and Feed Everyone,'' I 
expect that the Department and its employees will do right by everyone.
Question Submitted by Hon. Ann M. Kuster, a Representative in Congress 
        from New Hampshire
    Question. Mr. Secretary, I wanted to ask you about trade relations 
and the impact on our farmers. From past experiences, is it fair to say 
that any time there are disputes at the WTO and the United States 
loses, that our farmers are the first ones to face retaliation? If the 
proposed Border Adjustment Tax goes through and is found to be non-
compliant with the WTO, which of our ag groups would be hardest hit?
    Answer. I am confident that as Congress moves forward on tax 
reform, that Congress, and in particular the leadership of the House 
Committee on Ways and Means and the Senate Committee on Finance, will 
carefully develop tax legislation with consideration for WTO 
obligations. If legislation were advanced that were non-WTO compliant, 
it would likely be harmful to a number of agricultural commodities and 
producers, not any one in particular. Exports are important across the 
board for U.S. commodities so I encourage policies that will increase 
our sales and not those that may put our markets in jeopardy.
Question Submitted by Hon. James P. McGovern, a Representative in 
        Congress from Massachusetts
    Question. As you may know, Cranberries are Massachusetts' number 
one agricultural food product, and the cranberry industry is a vital 
part of the environment and economy of southeastern Massachusetts 
comprising over 13,000 acres. However, over the past 5 years, the U.S. 
cranberry industry has struggled with an oversupply of cranberries and 
low prices resulting from consistently high yields across major 
production areas and the expansion of the cranberry industry in Quebec, 
Canada. Consequently, following the record 2016 harvest, cranberry 
inventories are at an all-time high and farm prices are very depressed. 
Significant new plantings in the U.S. and particularly eastern Canada 
have now come into full production and the 2016 crop exceeded any 
previous harvest by 10%.
    It is my understanding that the Cranberry Marketing Committee has 
requested that USDA consider a USDA Section 32 purchase to allow 
ongoing marketing and health promotion efforts to create additional 
demand. With the large number of cranberry producers in Massachusetts 
struggling to sustain their farms at the current pricing, I am hopeful 
that you will expeditiously and carefully review the industry's request 
and continue to work with me as well as bipartisan Members of the 
Congressional Cranberry Caucus to address the oversupply. I along with 
other Members of the Congressional Cranberry Caucus support appropriate 
actions to fully utilize Section 32 purchase to reduce the current 
cranberry over supply in cranberry concentrate. Can you provide the 
Committee with a status of USDA's review of this request as well as any 
other actions being considered to address the oversupply?
    Answer. USDA is currently conducting an economic assessment to 
determine whether additional support is warranted. In addition, USDA 
has also been actively assisting the cranberry industry as it seeks to 
develop new markets in the school lunch program and expand the product 
forms and packaging available to schools, food banks and other markets. 
The introduction of dried cranberries to the school lunch program is 
one example of these efforts.
Questions Submitted Hon. Cheri Bustos, a Representative in Congress 
        from Illinois
Department Reorganization
    Question 1. In the hearing, you indicated that Rural Development 
programs would be headed by a Senate Confirmed Assistant Secretary. 
Later, you clarified that the position in fact would be led by an 
Assistant to the Secretary who would not require Senate Confirmation. 
Can you explain how eliminating a position that requires Congressional 
input to fill with an unconfirmed appointee will improve Congressional 
oversight of the programs or improve program delivery?
    Answer. By eliminating the Under Secretary for Rural Development 
and creating an Assistant to the Secretary for Rural Development I have 
not only reduced an additional layer of government bureaucracy but I 
have provided a direct link to my office. The Assistant to the 
Secretary has walk-in privileges to my office with my direct oversight 
over all of the Rural Development programs. As this individual will 
represent Rural Development as the senior policy official during 
interactions with Congress, I fully believe that the oversight process 
will be enhanced due to their direct interactions with me.

    Question 2. Understanding that reorganizations are designed to 
better deliver programs and services, what type of analysis or metrics 
were used in evaluating options for reorganization?
    Answer. The National Academy of Public Administration (NAPA) 
produced a report in 2015 outlining potential options for a 
reorganization that would result in the creation of an Under Secretary 
for Trade for USDA. Based upon that report and other internal analyses, 
several reorganization options were considered based on their potential 
costs and benefits and were thoroughly vetted by me and my team. At the 
conclusion of this process, it was determined that the proposed 
reorganization would better align USDA program activities while 
limiting the disruption that could result for broader organizational 
changes. As a result, the reorganization that we announced on May 11th 
will improve service to USDA customers and agricultural stakeholders 
throughout the nation.

    Question 3. Specifically, how will Rural Development program 
delivery be improved under the new structure?
    Answer. The Assistant to the Secretary for Rural Development is 
already on board and has already begun to work directly with the 
Secretary on issues affecting rural America. This includes working with 
the Secretary to host the inaugural meeting of the Interagency Task 
Force on Agriculture and Rural Prosperity on June 15, 2017. The Task 
Force is working to improve the quality of life for people living in 
rural areas, develop a reliable workforce, spur innovation and 
technology development, and roll back regulations to allow communities 
to grow and thrive.

    Question 4. The Department only sought comments on the proposal 
after the proposal had been formally submitted to Congress. For what 
purpose did you seek comment on a proposal that was already submitted 
to Congress? Will you consider changes to the proposal based on 
comments received from stakeholders?
    Answer. The Department met its statutory requirement contained in 
our annual appropriations Act to notify Congress of our intent to 
reorganize the Department. We have received comments from the public as 
a result of the notice published in the Federal Register and from the 
public comment opportunity provided by the White House on its website. 
The Department will consider those comments as we continue to implement 
the reorganization announced on May 11, 2017, and with the development 
of the USDA Reform Plan that will be released with the Fiscal Year 2019 
Budget next year.

    Question 5. Are there current responsibilities or activities 
currently undertaken by the Under Secretary for Rural Development that 
the new ``Assistant to the Secretary'' will not have the authority to 
assume?
    Answer. Generally, authorities provided to the Secretary by 
Congress are all provided to the Secretary and almost all are re-
delegated through the Under or Assistant Secretaries down to the agency 
or staff office heads. Accordingly, the Secretary will exercise all the 
authorities of the Under Secretary for Rural Development. The few 
exclusive authorities of the Secretary that have not been previously 
delegated to the Under Secretary for Rural Development or that have not 
been previously re-delegated by the Under Secretary for Rural 
Development to the Rural Development agency administrators (see 7 CFR 
2.17(b), 2.47(b), 2.48(b), and 2.49(b)) will be exercised by the 
Secretary. The 31 authorities that have been re-delegated can be found 
in the statute, here: https://www.gpo.gov/fdsys/pkg/CFR-2017-title7-
vol1/pdf/CFR-2017-title7-vol1-sec2-17.pdf. [See Attachment.]

    Question 6. Can you confirm there is not a statutory requirement 
that limits you to seven Under Secretaries?
    Answer. There is not a statutory requirement limiting the number of 
Under Secretaries.
Rural Infrastructure Fund
    Question 7. The FY18 President's budget included the creation of a 
new Rural Infrastructure Fund that is, as I understand it, designed to 
add additional flexibility to program funds to target projects that 
will have the most impact on the communities. What particular 
flexibilities are needed to fund these types of projects and can you 
provide examples of projects that could receive funding under the new 
program that cannot already receive funds from any of the programs 
eliminated to support the new Rural Infrastructure Fund?
    Answer. The Budget proposes $162 million for this new program to 
support initiatives under the following program authorities: Distance 
Learning and Telemedicine, Broadband, Community Facilities, and housing 
repair for very-low-income residents. The combined account provides the 
flexibility to place resources where significant impact can be made for 
economic infrastructure development. Priority for funding projects will 
be based on what will provide the best return on investment.
FY18 Budget
    Question 8. During the hearing you repeatedly assured the Committee 
of your personal support for Rural Development programs. In fact this 
was cited as part of the basis for eliminating the Under Secretary for 
Rural Development. However, the FY18 budget included significant cuts 
to the existing programs, including the near complete elimination of 
RBCS, and an elimination of nearly 1,000 staff years. How do you 
envision the Department increasing or maintaining the same level of 
service to Rural America with these proposed cuts and reductions?
    Answer. President Trump promised he would realign government 
spending, attempt to eliminate duplication or redundancy, and see that 
all government agencies are efficiently delivering services to the 
taxpayers of America. To ensure that all of the Federal Government's 
resources are achieving the high results, the President established the 
Agriculture and Rural Prosperity Task Force. The Task Force will 
strengthen interagency cooperation to achieve a broad range of goals 
aimed at improving the quality of life for people living in rural 
areas, develop a reliable workforce, spur innovation and technology 
development, and roll back regulations to allow communities to grow and 
thrive. I am confident in the future of rural America and see 
opportunities for us to continue to strengthen this outlook and create 
opportunities for rural America.

    Question 9. The FY18 budget included a proposal to close 17 
Agricultural Research Service locations, including the National Center 
for Agricultural Utilization Research in Peoria, Illinois. Innovation 
has been a key driver of the rural economy; do you believe the research 
undertaken by these facilities is no longer necessary or useful? And 
how do you think this lost capacity at Federal labs will be made up 
elsewhere within the research community?
    Answer. I recognize that agricultural research is the basis of our 
agricultural productivity today. I look forward to working with 
Congress to ensure that we have a research program that is focused on 
developing solutions and providing state-of-the-art technologies to 
improve management decisions on farm and on forest lands. In reality, 
priorities must be established when resources are tight. Tough 
decisions have to be made about facilities and staffing.
Questions Submitted Hon. Dwight Evans, a Representative in Congress 
        from Pennsylvania
    Question 1. HFFI was a public-private partnership that worked to 
address food deserts. How do you seek to address food insecurity and 
food deserts?
    Answer. Adequate access to food, especially healthy food, is a 
national problem. Working together with Federal, state, local and 
private partners, USDA is committed to addressing the issue of food 
deserts. Our programs support the development of not only physical 
grocery and other food delivery stores, but the entire food chain.
    The Department will utilize the funds allocated directly to HFFI 
through its agreement with our National Fund Manager, the Reinvestment 
Fund, for HFFI, and will continue to utilize our other grant and loan 
programs to support HFFI objectives.

    Question 2. Research has shown that you are what you eat, and that 
the neighborhood you live in has a profound impact on the food choices 
you make. In partnership with PolicyLink, The Food Trust published a 
report that provides an up-to-date review of the research, a report 
that illustrated the lack of access to healthy food and the grocery 
gap. Can you share how you intend to improve healthy food access in 
low-income communities and communities of color?
    Answer. USDA, through the Food Insecurity Nutrition Incentive 
(FINI) Grant Program, funds and evaluates projects intended to 
``increase the purchase of fruits and vegetables by low-income 
consumers participating in SNAP by providing incentives at the point of 
purchase.'' FINI projects focus on low-income communities, with many of 
the applications from nonprofits that ensure FINI reaches low access 
areas. These projects bring together stakeholders from the distinct 
parts of the food system to foster understanding of how they might 
improve the nutrition and health status of participating households 
receiving incentives to purchase fruits and vegetables.
    With regard to food access, the Section 6015 of the 2008 Farm Bill 
created a set-aside in Rural Development's (RD) Business and Industry 
Loan Guarantee program of at least five percent of budget authority for 
local and regional food systems, with priority for projects benefiting 
under-served areas.
    The USDA Healthy Food Financing Initiative (HFFI) provides funding 
for multi-year healthy foods, healthy neighbors initiative that will 
increase the availability of affordable, healthy foods in under-served 
rural communities to create and preserve quality jobs and revitalize 
low-income communities, particularly through the development or 
equipping of grocery stores and other healthy food retailers. Through 
loans, grants and technical assistance, RD can provide assistance to 
low- and moderate-income communities to support market planning and 
promotion as well as infrastructure and operational improvements 
designed to stimulate consumer demand, enhance marketing, expand demand 
and retail outlets for farm products, and increase availability of 
locally and regionally produced foods.

    Question 3. In your testimony, you mention the 50 million Americans 
that the USDA interfaces with every year in food and nutrition services 
alone, stating that it is not even counting the children who benefit 
from school, summer and child care nutrition programs. What are you 
plans to strengthen and continue school, summer and child care 
nutrition programs?
    Answer. The central goal of the Child Nutrition Programs is to 
provide healthy food to children through the National School Lunch 
Program, School Breakfast Program, Child and Adult Care Food Program, 
Summer Food Service Program, Fresh Fruit and Vegetable Program, and 
Special Milk Program. These programs help fight hunger and obesity by 
funding healthy meals for kids in the places where they spend ``away-
from-home time''--including schools, child care centers and homes, 
after-school programs, and summer recreation or enrichment programs. 
Going forward, USDA will continue to work with our state and local 
partners to provide strong oversight and program integrity, technical 
assistance and up-to-date resources, and, where possible, identify 
program efficiencies and opportunities for streamlining program 
requirements, and provide the flexibilities needed for food service 
operators to provide meals that are both nourishing and appealing to 
children.

    Question 4. I always say that Food Policy is Foreign Policy. We 
know that food is a bipartisan issue because we all have to eat. What 
will you do to ensure that everyone on the spectrum--from neighborhoods 
to the global food economy--prioritize the importance of food policy?
    Answer. As Secretary, I will maximize the ability of the men and 
women of America's agriculture and agribusiness sector to create jobs, 
to produce and sell the foods and fiber that feed and clothe the world, 
and to reap the earned reward of their labor. We want to remove 
obstacles and give them every opportunity to prosper. The United States 
is blessed to be able to produce more than its citizens can consume, 
which implies that we should sell the bounty around the world. The work 
of promoting American agricultural products to other countries will 
begin with those relationships and will benefit us domestically, just 
as it will fulfill the moral imperative of helping to feed the world. 
As Secretary, I commit that USDA will be guided by our new motto ``Do 
Right and Feed Everyone.''

    Question 5. I know that you are a veterinarian by trade and 
Pennsylvania is home to great rural agriculture and farmers across the 
state. We also have one of the leading veterinary schools in the nation 
in the University of Pennsylvania Veterinary School. Can you share the 
importance of veterinarians and programs that you look to strengthen as 
it relates to our nation's veterinarians?
    Answer. Having an adequate number of veterinarians in rural America 
is vital to safeguard the health of agricultural animals and in 
directly supporting the viability of our rural communities (including 
jobs), as well as our nation's food security, food safety, public 
health, and emergency preparedness against foreign animal diseases. I 
will work to support and strengthen USDA programs that aim to help 
educate veterinarians and improve veterinary services, especially in 
those areas where there is currently a veterinary shortage.

    Question 6. How do you plan to strengthen our land-grant colleges?
    Answer. I believe partnerships are integral to USDA's mission. 
Within USDA, the National Institute of Food and Agriculture (NIFA) is 
the Federal partner in a vast network of scientists, educators, and 
extension staff that address critical issues about agriculture, food, 
the environment, and communities. NIFA's key partner is the nation's 
Land-Grant University (LGU) System, which includes the 1862 
universities; the 1890 historically black land-grant institutions; and 
the 1994 tribal land-grant colleges and universities. I will ensure 
that NIFA will look for innovative new ways to partner and continually 
strengthen collaboration with land-grant universities and other 
institutions across the nation to ensure that USDA's resources extend 
to all Americans.

    Question 7. What is your plan for diversity in agriculture?
    Answer. Throughout my career in the public and private-sectors, I 
have learned the importance of getting different opinions and 
perspectives when making decisions that affect the lives of customers 
and constituents. As Secretary, I will continue to value those 
differences and intend for the Department to benefit from the diversity 
of a workforce that represents the people and places that we serve 
every day in USDA.
Questions Submitted by Hon. Al Lawson, Jr., a Representative in 
        Congress from Florida
SNAP Benefits
    Question 1. In my District, one in every four Floridians has been 
on SNAP at some point over the last 12 months. That is twice the 
national average. Almost 70 percent of SNAP participants are in 
families with children; more than \1/4\ are in households with seniors 
or people with disabilities; and many of these individuals work in low 
wage jobs, or turn to SNAP during spells of unemployment or fluctuating 
pay. Given these facts, could you describe the impact that cuts to SNAP 
in the farm bill would have on beneficiaries? Also, please elaborate on 
how you plan to respond to food banks such as the Second Harvest of the 
Big Bend and Feeding Northeast Florida, which rely on the Emergency 
Food Assistance Program, when they have an increased demand if SNAP 
benefits are cut?
    Answer. Both the House and Senate Agriculture appropriations bills 
under consideration fully fund SNAP for Fiscal Year 2018 based on 
current law and anticipated needs for all eligible people who wish to 
participate. Participation is expected to continue to decrease due to 
economic factors. The 2018 Budget makes legislative proposals aimed at 
targeting SNAP benefits to the neediest households, and encouraging 
work among able-bodied adults without dependents. More specifically, 
these proposals will target benefits to households most in need. I look 
forward to working with Congress as you consider these and other 
proposals to strengthen SNAP during the reauthorization of the farm 
bill.
    USDA's food assistance programs are intended to provide nutritious 
foods to supplement the diets of eligible participants. They are not 
designed to provide for total dietary needs. Some individuals and 
families experiencing food hardship are referred to various nutrition 
assistance programs to ensure they are receiving adequate benefits to 
help them reduce hunger and have access to a well-balanced diet.
    USDA is committed to continuing support for food banks, food 
pantries, and other charitable organizations through The Emergency Food 
Assistance Program, or TEFAP, and other USDA food assistance programs. 
TEFAP is designed to serve low-income people in need of short-term 
hunger relief through food providers like food pantries, food banks, 
soup kitchens, and shelters across the country. The President has 
requested $288.75 million for FY 2018 budget for the purchase of TEFAP 
food alone. TEFAP has also historically received bonus foods through 
USDA's agricultural marketing programs. USDA purchased $306 million in 
bonus foods for distribution through TEFAP in FY 2016. To the extent 
practicable by law and as needed, USDA will continue to make bonus 
purchases through our marketing programs. As much as possible, USDA 
will direct these foods to TEFAP.

    Question 2. The fifth District has benefitted a great deal from the 
Food Insecurity Nutrition Incentive (FINI) grants. We are encouraged by 
your comments at the hearing indicating support for incentive programs 
like FINI. We have four Fresh Access Bucks markets: Frenchtown Heritage 
Market (2014) in Tallahassee, and Berry Good Farms On the Go (2015), 
White Harvest Farm & Market (2016), and Riverside Arts Market (2016) in 
Jacksonville. Since these markets' involvement, SNAP recipients have 
been incentivized to purchase healthy and local produce to the tune of 
$20,462. Statewide, the program is responsible for over 24,000 SNAP 
transactions and it increased the income of more than 440 farmers. Will 
you continue to support the use of SNAP and SNAP incentives at farmers' 
markets and other farm-direct healthy food retailers?
    Answer. Yes, I will continue to support SNAP and SNAP incentives, 
such as the Food Insecurity Nutrition Incentive (FINI) Grant Program, 
which provides locally or regionally produced and culturally 
appropriate fruits and vegetables.
Food Access and the Healthy Food Financing Initiative
    Question 3. In north Florida, access to food is a real concern. 
Food deserts often leave vulnerable families shopping in convenience 
stores or resorting to fast food options. For instance, Winn Dixie is 
set to close stores in Jacksonville and Tallahassee, in neighborhoods 
that already struggle with easily accessing healthy foods. The Healthy 
Food Financing Initiative (HFFI) is a program critical in food insecure 
areas. In FY 2016, HFFI provided the Northwest Jacksonville Community 
Development Corporation with an $800,000 grant to invest in the 
development of the North Point Two Grocery store in Jacksonville, 
Florida. In the hearing, you mentioned that USDA has very little money 
to operate the HFFI program. What is your plan to eradicate food 
deserts and what is your level of commitment to programs like the HFFI?
    Answer. Adequate access to food, especially healthy food, is a 
national problem. As I have said, the Department should do right and 
feed everybody. USDA is committed to being a part of that solution.

    Question 4. We are excited to see that USDA has finally designated 
a National Fund Manager to manage the HFFI at Rural Development. How 
does your agency plan to support this new program and integrate its 
efforts into the suite of important rural financing programs such as 
the Rural Business--Cooperative Service, which will go a long way in 
serving the rural stretches in my district?
    Answer.*
---------------------------------------------------------------------------
    * There was no response from the witness to Question 4 by the time 
this hearing was published.
---------------------------------------------------------------------------
Trade and Dumping by Mexico
    Question 5. In my district and much of Florida we have a serious 
issue with Mexico's dumping into our country's agriculture market. This 
problem of dumping is with both specialty crops and sugar, causing some 
Florida farmers to go out of business. With the newly created Under 
Secretary of Trade, how will you work to help solve this problem?
    Answer.*
---------------------------------------------------------------------------
    * There was no response from the witness to Questions 5 and 6 by 
the time this hearing was published.
---------------------------------------------------------------------------
Florida Peanut Farmers and Inclusion in USDA Programs
    Question 6. In north Florida, there is a serious concern among some 
peanut farmers who would like to have base acres in order to be more 
competitive in the peanut market. What are your plans to address this 
issue in the broader peanut policy?
    Answer.*
Able-Bodied Adults Without Dependents (ABAWDs) and Florida's Commitment 
        to Uphold Work Requirements
    Question 7. ABAWDs are individuals between the ages of 18 and 49 
without dependents, who are not disabled. ABAWDs are only eligible for 
SNAP for 3 months out of 3 years, if they are not working or in a 
training program for at least 20 hours a week. The challenge in Florida 
is that in the state's FY 2016 and FY 2017 Employment and Training 
Plans, state have not pledged to guarantee that all ABAWDs are offered 
placement in qualified training. In the latest data that is available 
from the USDA, as of 2015, the State of Florida had 521,000 individuals 
who fall under the ABAWD designation; that is over \1/2\ million 
Floridians who either are not receiving the training they need, or are 
not aware that they need to take it. In the hearing, referencing SNAP, 
you noted that there are some disparities in how states are 
implementing and executing the program, going as far to say that there 
is some room for unanimity in various aspects of the program. Can you 
promise my constituents that you will work with each state, 
particularly Florida, to make sure that states are holding up their end 
of the bargain when enforcing this requirement by making every effort 
to properly notify individuals that it exists, and that states will 
have the support and resources from your agency to offer sufficient 
employment training?
    Answer. Yes, USDA will work with states to ensure they make efforts 
to connect SNAP recipients with meaningful work; including ABAWDS 
facing time limits. SNAP provides important benefits to help families 
get through tough times. SNAP enrollment grew to historic levels during 
the recession, but despite the improvements in the economy, 
participation is declining slowly. I look forward to working with 
Congress in the coming months as you consider ways to strengthen the 
program to target benefits to those in need, support work by SNAP 
recipients, and improve SNAP through reauthorization of the farm bill.
Questions Submitted by Hon. Tom O'Halleran, a Representative in 
        Congress from Arizona
    Question 1. Many rural, Native American Reservations are behind the 
curve on the deployment of broadband Internet. In fact, on Tribal lands 
in the lower 48 states 72% of people lack access to broadband, 
sometimes even lacking access to Internet, phone and electricity all 
together. How do you plan to use USDA's rural utility experience to 
address this disparity?
    Answer. As part of the efforts of the Agriculture & Rural 
Prosperity Task Force (ARPTF), for which I am the chair, the 
Department, along with partners from across the Federal Government will 
be identifying opportunities for improving the quality of life in rural 
America. One such opportunity that is receiving significant attention 
at this time is the development of and investment in robust, modern 
infrastructure. Through the ARPTF and the President's call for an 
infrastructure plan, the Department will utilize all of its existing 
authorities to make investments that create reliable and available 
broadband networks for the benefit of rural areas, especially those in 
Tribal areas that are under-served.

    Question 2. The skinny budget calls to eliminate the water and 
wastewater loan and grant program. This program is designed to help 
rural Tribes and towns build the critical infrastructure necessary for 
clean water, the most basic need. On the Navajo Nation, the water and 
wastewater funds have helped the communities of Ganado, Dilkon and 
Lower Greasewood drill new wells and run new pipelines, so the 
residents of these communities have access to safe water: 43% of 
Navajos live below the poverty line and $8 of the $14 million invested 
were USDA grants. If the USDA does away with the water and wastewater 
loan and grant program, where in USDA should small, rural communities 
turn to find funding for systems for safe drinking water?
    Answer. The Administration is in the process of taking a closer 
look at the proper role and size of Federal Government. As Secretary of 
Agriculture, it is important to me that rural communities have clean 
and safe drinking water, and I will continue to work with Congress and 
others in the Administration to identify how best to serve our rural 
communities.

    Question 3. Arizona's First Congressional District includes four 
National Forests. The skinny budget calls for funding of forest fire 
operations based on an average of the past 10 years. What do you intend 
to do if this fire season is worse than the past 10 years and more fire 
expenditures are needed? How will this impact the Forest Service's 
other mission areas?
    Answer. The Forest Service has total budget authority for wildfire 
suppression in this fire season of over $1.8 billion. This resource 
level is well above the 10 year average and is projected to be 
sufficient. This budget authority includes resources appropriated to 
the Wildland Fire Management account and to the FLAME Act account. If 
conditions warrant additional resources, the Forest Service will 
transfer funds from non-fire programs to support wildland fire 
suppression operations. Although these transfers do not occur every 
year, both expected and actual transfers cause uncertainty in planning 
and implementing projects. Notably, the type of work delayed by the 
rising cost of suppression can include the restoration work needed to 
reduce the risk of wildland fire on National Forest System lands.

    Question 4. The run-away 10 year average wildfire costs are 
draining the budget year after year for all other Forest Service 
programs. You and I both know that what needs to happen is Congress 
needs to pass a comprehensive budget fix to address the run-away costs 
and uncertainty for the agency year after year. Do I have your support 
and commitment in working to help a comprehensive wildfire funding fix 
get passed through Congress? If so, does the Administration have a 
preferred wildfire funding fix?
    Answer. I share your concerns regarding the impacts the rising cost 
of fire suppression places on the Forest Service to carry out the 
breadth of its mission.
    The ongoing erosion of the agency's non-fire budgets due to the 
increasing 10 year average cost of fire suppression, causes an ongoing 
shift in resources from land management to fire management. We are 
committed to working with Congress to develop a solution that addresses 
the growth of fire programs as a percent of the agency's budget, and 
also ends the practice of transferring funds from non-fire programs 
when suppression funds fall short before the end of the fiscal year.

    Question 5. The 2014 Farm Bill includes the Extra-Long Staple (ELS) 
Competitiveness Program and gives the Secretary of Agriculture the 
authority to determine which foreign growths of ELS cotton are used to 
determine competitiveness. Currently, the largest producer of ELS 
cotton in the world is China, and it has not yet been included in the 
USDA price calculation. To date, USDA has indicated that they believe 
they lack the authority to use the Chinese quote. Would you commit to 
working with the industry and those of us who represent ELS producers 
to ensure that the program is working as intended by Congress?
    Answer. Although China is a large producer of ELS cotton, 
specifically the Chinese Variety 137, it is not traded internationally 
according to Chinese government trade statistics, there is no export 
price quote, and the cotton does not ``compete'' in the international 
market. Currently, Israeli Pima is the only competing quote used in 
calculations for the ELS Competitiveness Program. These prices are 
quoted daily by the publication Cotton Outlook--the only widely-
accepted source for the prices at which ELS cotton is traded globally. 
Additionally, in contrast to the Egyptian long staple cotton that was 
dropped from the Competitiveness program calculations due to quality 
concerns, the quality of Israeli ELS cotton is not in question. If 
accurate and consistent trades and prices for Chinese ELS cotton, or 
ELS from other origins, become available, USDA will be in a better 
position to consider additional competing quotes.
Questions Submitted by Hon. Jimmy Panetta, a Representative in Congress 
        from California
    Question 1. Mr. Secretary, the organic agriculture industry has 
grown from a niche program to a $47 billion industry where demand often 
outpaces supply. In 1990, the National Organics Standards Board (NOSB) 
was given the responsibility to advise the Department on issues 
important to the industry and to propose recommendations to the 
National Organic Program (NOP), potentially leading to Federal 
regulations. I am concerned that, over time, the growth of the organic 
sector has left the NOSB unable to adequately provide views of a mature 
industry and is often not geographically representative of the 
industry. For example, while California is home to 40 percent of 
organic production, only three of the members are from California and 
none are actual growers. Will you commit to examining best practices 
for utilizing the NOSB moving forward? Please share with the Committee 
your goals for strengthening the NOSB to fully reflect the growth of 
organic production and the challenges organic farmers face.
    Answer. Appointing people to the National Organic Standards Board 
(NOSB) with diverse perspectives that represent the growing organic 
industry is important to me. NOSB diversity comes in many forms, 
including a diversity of experience in organic production and handling, 
a diversity in geographic representation, and diversity in the sizes 
and types of farms and businesses represented. We are currently 
inviting applications for the seat designated for someone with 
expertise in the areas of environmental protection and resource 
conservation. Applications are due to USDA on August 7, 2017, we hope 
for a strong set of applicants for consideration.

    Question 2. Mr. Secretary, the recently announced Interagency Task 
Force on Agriculture and Rural Prosperity is charged with ensuring that 
``regulatory burdens do not unnecessarily encumber agricultural 
production, constrain economic growth, hamper job creation, or increase 
the cost of food for Americans and our customers around the world.'' I 
am concerned that a proposal from the National Organics Standards Board 
(NOSB) could be working counter to those goals. The proposal would seek 
to exclude currently approved hydroponic, aquaponic, and other 
innovative growing techniques from organic certification. This could 
hurt farmers and producers around the country who are currently 
certified organic producers while also driving up prices for consumers 
whose demand is rapidly growing for this produce. Please examine this 
NOSB proposal to ensure that it does not hurt farmers, producers, and 
consumers around the country, and report back to the Committee on how 
the Department will address these concerns.
    Answer. The National Organic Standards Board (NOSB) Crops 
Subcommittee is currently studying the issue of hydroponics, 
aeroponics, and aquaponics. The NOSB has explored this topic for the 
last few meetings, and it may again be discussed at its fall 2017 
meeting. We look forward to carefully reviewing any recommendation that 
the NOSB passes, and will evaluate next steps accordingly. Any changes 
to the regulations would require a rulemaking and public comment 
process. USDA will keep you updated on any further developments.
Question Submitted by Hon. Lisa Blunt Rochester, a Representative in 
        Congress from Delaware
    Question. As the Member of Congress from Delaware, one of the 
largest economic drivers in my state is the poultry industry-coming 
from Georgia, I know this is an industry you are very familiar with.
    One of the issues I hear most about from my constituents is the 
potential impacts, both positive and negative, of the Department's 
proposed GIPSA rule. I understand you have extended the implementation 
date on this rule.
    Could you give me an update on where things stand and what 
direction you may take this policy issue?
    Answer. I appreciate your concern regarding the Grain Inspection, 
Packers and Stockyards Administration's (GIPSA) Interim Final Rule 
(IFR) and the impact this rule could potentially have on the poultry 
industry. The U.S. Department of Agriculture (USDA) delayed the 
effective date of the IFR, also referred to as the GIPSA rule, until 
October 19, 2017. USDA also requested additional comments from 
stakeholders on the disposition of the IFR--whether the IFR should 
become effective, indefinitely suspended, delayed further, or 
withdrawn. Interested persons were invited to submit comments on or 
before June 12, 2017, and GIPSA is currently analyzing the comments 
received to determine the rule's disposition.
    I look forward to working with you on developing sound policy for 
all of agriculture, including in the 2018 Farm Bill. Future policy must 
have a sound factual, economic, and scientific basis. It must consider 
all segments of the agriculture industry and consumers. While these 
decisions may be difficult, USDA will do its very best to make sure we 
are making the best possible policy decisions for all of agriculture.
                              [attachment]
Code of Federal Regulations Title 7_Agriculture
Subtitle A--Office of the Secretary of Agriculture
Part 2--Delegations Of Authority By the Secretary of Agriculture and 
        General Officers of the Department
Subpart C--Delegations of Authority to the Deputy Secretary, Under 
        Secretaries, and Assistant Secretaries
     2.17  Under Secretary for Rural Development.

    (a) The following delegations of authority are made by the 
Secretary of Agriculture to the Under Secretary for Rural Economic and 
Community Development:

          (1) Provide leadership and coordination within the Executive 
        Branch of a Nationwide Rural Development Program utilizing the 
        services of Executive Branch departments and agencies and the 
        agencies, bureaus, offices, and services of the Department of 
        Agriculture in coordination with rural development programs of 
        state and local governments (7 U.S.C. 2204).
          (2) Coordinate activities relative to rural development among 
        agencies reporting to the Under Secretary for Rural Economic 
        and Community Development and, through appropriate channels, 
        serve as the coordinating official for other departmental 
        agencies having primary responsibilities for specific titles of 
        the Rural Development Act of 1972, and allied legislation.
          (3) Administer a national program of economic, social, and 
        environmental research and analysis, statistical programs, and 
        associated service work related to rural people and the 
        communities in which they live including rural 
        industrialization; rural population and manpower; local 
        government finance; income development strategies; housing; 
        social services and utilization; adjustments to changing 
        economic and technical forces; and other related matters.
          (4) Work with Federal agencies in encouraging the creation of 
        rural community development organizations.
          (5) Assist other Federal agencies in making rural community 
        development organizations aware of the Federal programs 
        available to them.
          (6) Advise rural community development organizations of the 
        availability of Federal assistance programs.
          (7) Advise other Federal agencies of the need for particular 
        Federal programs.
          (8) Assist rural community development organizations in 
        making contact with Federal agencies whose assistance may be of 
        benefit to them.
          (9) Assist other Federal agencies and national organizations 
        in developing means for extending their services effectively to 
        rural areas.
          (10) Assist other Federal agencies in designating pilot 
        projects in rural areas.
          (11) Conduct studies to determine how programs of the 
        Department can be brought to bear on the economic development 
        problems of the country and assure that local groups are 
        receiving adequate technical assistance from Federal agencies 
        or from local and state governments in formulating development 
        programs and in carrying out planned development activities.
          (12) Assist other Federal agencies in formulating manpower 
        development and training policies.
          (13) Related to committee management. Establish and 
        reestablish regional, state, and local advisory committees for 
        activities under his or her authority. This authority may not 
        be re-delegated.
          (14) Related to defense and emergency preparedness. 
        Administer responsibilities and functions assigned under the 
        Defense Production Act of 1950, as amended (50 U.S.C. App. 
        2061, et seq.), and title VI of the Robert T. Stafford Disaster 
        Relief and Emergency Assistance Act (42 U.S.C. 5195, et seq.), 
        concerning rural development credit and financial assistance.
          (15) Related to energy. (i) Provide Department-wide 
        operational support and coordination for loan and grant 
        programs to foster and encourage the production of fuels from 
        agricultural and forestry products or by-products.
          (ii) Participate as a Department representative at 
        conferences, meetings and other contacts including liaison with 
        the Department of Energy and other government agencies and 
        departments with respect to implementation of established 
        Department energy policy.
          (iii) Serve as Co-Chairperson of the Energy Coordinating 
        Committee of the Department.
          (16) Collect, service, and liquidate loans made, insured, or 
        guaranteed by the Rural Utilities Service, the Rural Housing 
        Service, the Rural Business--Cooperative Service, or their 
        predecessor agencies.
          (17) [Reserved]
          (18) With respect to land and facilities under his or her 
        authority, exercise the functions delegated to the Secretary by 
        Executive Order 12580, 3 CFR, 1987 Comp., p. 193, under the 
        following provisions of the Comprehensive Environmental 
        Response, Compensation, and Liability Act of 1980 (``the 
        Act''), as amended:

                  (i) Sections 104(a), (b), and (c)(4) of the Act (42 
                U.S.C. 9604(a), (b), and (c)(4)), with respect to 
                removal and remedial actions in the event of release or 
                threatened release of a hazardous substance, pollutant, 
                or contaminant into the environment;
                  (ii) Sections 104(e)-(h) of the Act (42 U.S.C. 
                9604(e)-(h)), with respect to information gathering and 
                access requests and orders; compliance with Federal 
                health and safety standards and wage and labor 
                standards applicable to covered work; and emergency 
                procurement powers;
                  (iii) Section 104(i)(11) of the Act (42 U.S.C. 
                9604(i)(11)), with respect to the reduction of exposure 
                to significant risk to human health;
                  (iv) Section 104(j) of the Act (42 U.S.C. 9604(j)), 
                with respect to the acquisition of real property and 
                interests in real property required to conduct a 
                remedial action;
                  (v) The first two sentences of section 105(d) of the 
                Act (42 U.S.C. 9605(d)), with respect to petitions for 
                preliminary assessment of a release or threatened 
                release;
                  (vi) Section 105(f) of the Act (42 U.S.C. 9605(f)), 
                with respect to consideration of the availability of 
                qualified minority firms in awarding contracts, but 
                excluding that portion of section 105(f) pertaining to 
                the annual report to Congress;
                  (vii) Section 109 of the Act (42 U.S.C. 9609), with 
                respect to the assessment of civil penalties for 
                violations of section 122 of the Act (42 U.S.C. 9622), 
                and the granting of awards to individuals providing 
                information;
                  (viii) Section 111(f) of the Act (42 U.S.C. 9611(f)), 
                with respect to the designation of officials who may 
                obligate money in the Hazardous Substances Superfund;
                  (ix) Section 113(k) of the Act (42 U.S.C. 9613(k)), 
                with respect to establishing an administrative record 
                upon which to base the selection of a response action 
                and identifying and notifying potentially responsible 
                parties;
                  (x) Section 116(a) of the Act (42 U.S.C. 9616(a)), 
                with respect to preliminary assessment and site 
                inspection of facilities;
                  (xi) Sections 117(a) and (c) of the Act (42 U.S.C. 
                9617(a) and (c)), with respect to public participation 
                in the preparation of any plan for remedial action and 
                explanation of variances from the final remedial action 
                plan for any remedial action or enforcement action, 
                including any settlement or consent decree entered 
                into;
                  (xii) Section 119 of the Act (42 U.S.C. 9119), with 
                respect to indemnifying response action contractors;
                  (xiii) Section 121 of the Act (42 U.S.C. 9621), with 
                respect to cleanup standards; and
                  (xiv) Section 122 of the Act (42 U.S.C. 9622), with 
                respect to settlements, but excluding section 122(b)(1) 
                of the Act (42 U.S.C. 9622(b)(1)), related to mixed 
                funding agreements.

          (19) With respect to facilities and activities under his or 
        her authority, to exercise the authority of the Secretary of 
        Agriculture pursuant to section 1-102 related to compliance 
        with applicable pollution control standards and section 1-601 
        of Executive Order 12088, 3 CFR, 1978 Comp., p. 243, to enter 
        into an inter-agency agreement with the United States 
        Environmental Protection Agency, or an administrative consent 
        order or a consent judgment in an appropriate state, 
        interstate, or local agency, containing a plan and schedule to 
        achieve and maintain compliance with applicable pollution 
        control standards established pursuant to the following:

                  (i) Solid Waste Disposal Act, as amended by the 
                Resource Conservation and Recovery Act, as further 
                amended by the Hazardous and Solid Waste Amendments, 
                and the Federal Facility Compliance Act (42 U.S.C. 
                6901, et seq.);
                  (ii) Federal Water Pollution Prevention and Control 
                Act, as amended (33 U.S.C. 1251, et seq.);
                  (iii) Safe Drinking Water Act, as amended (42 U.S.C. 
                300f, et seq.);
                  (iv) Clean Air Act, as amended (42 U.S.C. 7401, et 
                seq.);
                  (v) Noise Control Act of 1972, as amended (42 U.S.C. 
                4901, et seq.);
                  (vi) Toxic Substances Control Act, as amended (15 
                U.S.C. 2601, et seq.);
                  (vii) Federal Insecticide, Fungicide, and Rodenticide 
                Act, as amended (7 U.S.C. 136, et seq.); and
                  (viii) Comprehensive Environmental Response, 
                Compensation, and Liability Act of 1980, as amended by 
                the Superfund Amendments and Reauthorization Act of 
                1986 (42 U.S.C. 9601, et seq.).

          (20) Related to rural utilities service. (i) Administer the 
        Rural Electrification Act of 1936, as amended (7 U.S.C. 901, et 
        seq.) except for rural economic development loan and grant 
        programs; (7 U.S.C. 940c and 950aa, et seq.): Provided, 
        however, that the Under Secretary may utilize consultants and 
        attorneys for the provision of legal services pursuant to 7 
        U.S.C. 918, with the concurrence of the General Counsel.
          (ii) Administer the Rural Electrification Act of 1938 (7 
        U.S.C. 903 note).
          (iii) Designate the chief executive officer of the Rural 
        Telephone Bank.
          (iv) Administer the following sections of the Consolidated 
        Farm and Rural Development Act (7 U.S.C. 1921, et seq.):

                  (A) Section 306 (7 U.S.C. 1926), related to water and 
                waste facilities.
                  (B) Section 306A (7 U.S.C. 1926a).
                  (C) Section 306B (7 U.S.C. 1926b).
                  (D) Section 306C (7 U.S.C. 1926c).
                  (E) Section 306D (7 U.S.C. 1926d).
                  (F) Section 306E (7 U.S.C. 1926e).
                  (G) Section 309 (7 U.S.C. 1929) and 309A (7 U.S.C. 
                1929a), relating to assets and programs related to 
                watershed facilities, resource and conservation 
                facilities, and water and waste facilities.
                  (H) Section 310A (7 U.S.C. 1931), relating to 
                watershed and resource conservation and development
                  (I) Section 310B(b) (7 U.S.C. 1932(b)).
                  (J) [Reserved]
                  (K) Administrative Provisions of subtitle D of the 
                consolidated Farm and Rural Development act relating to 
                rural utility activities.
                  (L) Section 379B (7 U.S.C. 2008p).

          (v) Administer section 8, and those functions with respect to 
        repayment of obligations under section 4 of the Watershed 
        Protection and Flood Prevention Act (16 U.S.C. 1006a, 1004) and 
        administer the Resource Conservation and Development Program to 
        assist in carrying out resource conservation and development 
        projects in rural areas under section 32(e) of the Bankhead-
        Jones Farm Tenant Act (7 U.S.C. 1011(e)).
          (vi) Administer the Water and Waste Loan Program (7 U.S.C. 
        1926-1).
          (vii) Administer the Rural Wastewater Treatment Circuit Rider 
        Program (7 U.S.C. 1926 note).
          (viii) Administer the Distance Learning and Medical Link 
        Programs (7 U.S.C. 950aaa, et seq.).
          (ix) Administer Water and Waste Facility Programs and 
        activities (7 U.S.C. 1926-1).
          (x) [Reserved]
          (xi) In coordination with the Assistant Secretary for 
        Administration, issue receipts under section 2501A(e) of the 
        Food, Agriculture, Conservation, and Trade Act of 1990 (7 
        U.S.C. 2279-1(e)).
          (xii) Administer section 6407 of the Farm Security and Rural 
        Investment Act of 2002 (7 U.S.C. 8107a), relating to a rural 
        energy savings program.
          (xiii) Administer section 6210 of the Agricultural Act of 
        2014, Public Law 113-79, relating to funding of pending rural 
        development loan and grant applications.
          (21) Related to rural business--cooperative. (i) Administer 
        the Rural Economic Development Loan and Grant Programs under 
        the Rural Electrification Act (7 U.S.C. 940c and 950aa, et 
        seq.).
          (ii) Administer the following sections of the Consolidated 
        Farm and Rural Development Act (7 U.S.C. 1921, et seq.):

                  (A) Section 306(a)(110(A) (7 U.S.C. 1926(a)(11)(A)), 
                relating to grants for business technical assistance 
                and planning.
                  (B) [Reserved]
                  (C) Sections 309 (7 U.S.C. 1929) and 309A (7 U.S.C. 
                1929a), relating to assets and programs related to 
                rural development.
                  (D) Section 310B (7 U.S.C. 1932), relating to various 
                Rural Development programs, except for subsection (b) 
                of that section.
                  (E) Section 310H (7 U.S.C. 1936b), relating to an 
                intermediary relending program.
                  (F) Administrative Provisions of subtitle D of the 
                Consolidated Farm and Rural Development Act relating to 
                rural business--cooperative activities.
                  (G) Section 378 (7 U.S.C. 2008m) relating to the 
                National Rural Development Partnership;
                  (H) Section 379E (7 U.S.C. 2008s) relating to the 
                Rural Microentrepreneur Assistance Program.
                  (I) Section 379F (7 U.S.C. 2000t) relating to the 
                Expansion of Employment Opportunities for Individuals 
                with Disabilities in Rural Areas Program.
                  (J) Section 379G (7 U.S.C. 2008u) relating to Health 
                Care Services.
                  (K) Section 382A, et seq. (7 U.S.C. 2009aa, et seq.) 
                relating to the Delta Regional Authority.
                  (L) Section 383A, et seq. (7 U.S.C. 2009bb, et seq.) 
                relating to the Northern Great Plains Regional 
                Authority.
                  (M) Section 384A, et seq. (7 U.S.C. 2009cc, et seq.) 
                relating to the Rural Business Investment Program;
                  (N) Section 385A, et seq. (7 U.S.C. 2009dd, et seq.) 
                relating to the Rural Collaborative Investment Program.

          (iii) Administer Alcohol Fuels Credit Guarantee Program 
        Account (Pub. L. 102-341, 106 Stat. 895).
          (iv) [Reserved]
          (v) Administer loan programs in the Appalachian region under 
        sections 203 and 204 of the Appalachian Regional Development 
        Act of 1965 (40 U.S.C. App. 204).
          (vi) Administer section 601 of the Powerplant and Industrial 
        Fuel Use Act of 1978 (Pub. L. 95-620).
          (vii) Administer the Drought and Disaster Guaranteed Loan 
        Program under section 331 of the Disaster Assistance Act of 
        1988 (7 U.S.C. 1929a note).
          (viii) Administer the Disaster Assistance for Rural Business 
        Enterprises Guaranteed Loan Program under section 401 of the 
        Disaster Assistance Act of 1989 (7 U.S.C. 1929a note).
          (ix) Administer the Rural Economic Development Demonstration 
        Grant Program (7 U.S.C. 2662a).
          (x) Administer the Economically Disadvantaged Rural Community 
        Loan Program (7 U.S.C. 6616).
          (xi) Administer the assets of the Alternative Agricultural 
        Research and Commercialization Corporation and the funds in the 
        Alternative Agricultural Research and Commercialization Fund in 
        accordance with section 6201 of the Farm Security and Rural 
        Investment Act of 2000 (note to 7 U.S.C. 5901 (repealed)).
          (xii) Administer programs authorized by the Cooperative 
        Marketing Act of 1926 (7 U.S.C. 451-457).
          (xiii) Carry out the responsibilities of the Secretary of 
        Agriculture relating to the marketing aspects of cooperatives, 
        including economic research and analysis, the application of 
        economic research findings, technical assistance to existing 
        and developing cooperatives, education on cooperatives, and 
        statistical information pertaining to cooperatives as 
        authorized by the Agricultural Marketing Act of 1946 (7 U.S.C. 
        1621-1627).
          (xiv) Work with institutions and international organizations 
        throughout the world on subjects related to the development and 
        operation of agricultural cooperatives. Such work may be 
        carried out by:

                  (A) Exchanging materials and results with such 
                institutions or organizations;
                  (B) Engaging in joint or coordinated activities; or
                  (C) Stationing representatives at such institutions 
                or organizations in foreign countries (7 U.S.C. 3291).

          (xv) Administer in rural areas the process of designation, 
        provision of monitoring and oversight, and provision of 
        technical assistance for Empowerment Zones and Enterprise 
        Communities pursuant to section 13301 of Public Law 103-66, 
        Omnibus Budget Reconciliation Act of 1993 (26 U.S.C. 1391, et 
        seq.)
          (xvi) Work with Federal agencies in encouraging the creation 
        of local rural community development organizations. Within a 
        state, assist other Federal agencies in developing means for 
        extending their services effectively to rural areas and in 
        designating pilot projects in rural areas (7 U.S.C. 2204).
          (xvii) Conduct assessments to determine how programs of the 
        Department can be brought to bear on the economic development 
        problems of a state or local area and assure that local groups 
        are receiving adequate and effective technical assistance from 
        Federal agencies or from local and state governments in 
        formulating development programs and in carrying out planned 
        development activities (7 U.S.C. 2204b).
          (xviii) Develop a process through which state, sub-state and 
        local rural development needs, goals, objectives, plans, and 
        recommendations can be received and assessed on a continuing 
        basis (7 U.S.C. 2204b).
          (xix) Prepare local or area-wide rural development strategies 
        based on the needs, goals, objectives, plans and 
        recommendations of local communities, sub-state areas and 
        states (7 U.S.C. 2204b).
          (xx) Develop a system of outreach in the state or local area 
        to promote rural development and provide for the publication 
        and dissemination of information, through multi-media methods, 
        relating to rural development. Advise local rural development 
        organizations of availability of Federal programs and the type 
        of assistance available, and assist in making contact with 
        Federal program (7 U.S.C. 2204; 7 U.S.C. 2204b).
          (xxi) Administer the Value-Added Agricultural Product Market 
        Development Grant program (note to 7 U.S.C. 1621).
          (xxii) Administer the Agriculture Innovation Center 
        Demonstration program (note to 7 U.S.C. 1621).
          (xxiii) Administer the renewable energy programs authorized 
        in sections 9003, 9004, 9005, 9007, and 9009 of the Farm 
        Security and Rural Investment Act of 2002 (7 U.S.C. 8103, 8104, 
        8105, 8107, and 8109).
          (xxiv) Implement the information disclosure authorities of 
        section 1619(b)(3)(A) of the Food, Conservation, and Energy Act 
        of 2008 (7 U.S.C. 8791(b)(3)(A)).
          (xxv) In coordination with the Assistant Secretary for 
        Administration, issue receipts under section 2501A(e) of the 
        Food, Agriculture, Conservation, and Trade Act of 1990 (7 
        U.S.C. 2279-1(e)).
          (xxvi) Administer the Healthy Food Financing Initiative under 
        section 243 of the Department of Agriculture Reorganization Act 
        of 1994 (7 U.S.C. 6953).
          (xxvii) Administer section 6209 of the Agricultural Act of 
        2014 (7 U.S.C. 2207b), relating to the collection and reporting 
        of program metrics.
          (22) Related to rural housing. (i) Administer the following 
        under the Consolidated Farm and Rural Development Act (7 U.S.C. 
        1921, et seq.):

                  (A) Section 306 (7 U.S.C. 1926), except with respect 
                to financing for water and waste disposal facilities; 
                or loans for rural electrification or telephone systems 
                or facilities other than hydroelectric generating and 
                related distribution systems and supplemental and 
                supporting structures if they are eligible for Rural 
                Utilities Service financing; and financing for grazing 
                facilities and irrigation and drainage facilities; and 
                subsection 306(a)(11).
                  (B) Section 309A (7 U.S.C. 1929a), regarding assets 
                and programs relating to community facilities.
                  (C) Administrative Provisions of subtitle D of the 
                Consolidated Farm and Rural Development Act relating to 
                rural housing activities.
                  (D) Section 379 (7 U.S.C. 2008n) relating to the 
                Rural Telework program;
                  (E) Section 379A (7 U.S.C. 2008o) relating to the 
                Historic Barn Preservation program; and
                  (F) Section 379C (7 U.S.C. 2008q) relating to the 
                Farm Workers Training Grant program.

          (ii) Administer title V of the Housing Act of 1949 (42 U.S.C. 
        1471, et seq.), except those functions pertaining to research.
          (iii) [Reserved]
          (iv) Administer the Rural Housing Disaster Program under 
        sections 232, 234, and 253 of the Disaster Relief Act of 1970 
        (Pub. L. No. 91-606).
          (v) Exercise all authority and discretion vested in the 
        Secretary by section 510(d) of the Housing Act of 1949, as 
        amended by section 1045 of the Stewart B. McKinney Homeless 
        Assistance Amendments Act of 1988, Pub. L. 100-628 (42 U.S.C. 
        1480(d)), including the following:

                  (A) Determine, with the concurrence of the General 
                Counsel, which actions are to be referred to the 
                Department of Justice for the conduct of litigation, 
                and refer such actions to the Department of Justice 
                through the General Counsel;
                  (B) Determine, with the concurrence of the General 
                Counsel, which actions are to be referred to the 
                General Counsel for the conduct of litigation and refer 
                such actions; and
                  (C) Enter into contracts with private-sector 
                attorneys for the conduct of litigation, with the 
                concurrence of the General Counsel, after determining 
                that the attorneys will provide competent and cost 
                effective representation for the Rural Housing Service 
                and representation by the attorney will either 
                accelerate the process by which a family or person 
                eligible for assistance under section 502 of the 
                Housing Act of 1949 will be able to purchase and occupy 
                the housing involved, or preserve the quality of the 
                housing involved.

          (vi) Administer the Rural Firefighters and Emergency 
        Personnel Grant program (7 U.S.C. 2655).
          (vii) Implement the information disclosure authorities of 
        section 1619(b)(3)(A) of the Food, Conservation, and Energy Act 
        of 2008 (7 U.S.C. 8791(b)(3)(A)).
          (viii) In coordination with the Assistant Secretary for 
        Administration, issue receipts under section 2501A(e) of the 
        Food, Agriculture, Conservation, and Trade Act of 1990 (7 
        U.S.C. 2279-1(e)).
          (23) Related to hazardous materials management. (i) Serve on 
        the USDA Hazardous Materials Policy Council.
          (ii) Recommend actions and policies that enable USDA agencies 
        under his or her authority to comply with the intent, purposes, 
        and standards of environmental laws for pollution prevention, 
        control, and abatement.
          (iii) Consult with the United States Environmental Protection 
        Agency and other appropriate Federal agencies in developing 
        pollution prevention, control, and abatement policies and 
        programs relating to agencies under his or her authority.
          (iv) Recommend actions and policies of the loan and grant 
        programs under his or her authority concerning compliance with 
        the Asset Conservation, Lender Liability, and Deposit Insurance 
        Protection Act of 1996, Subtitle E of Public Law No. 104-208.
          (24)-(25) [Reserved]
          (26) Related cooperative agreements. Enter into cooperative 
        agreements with other Federal agencies, state and local 
        governments, and any other organizations or individuals to 
        improve the coordination and effectiveness of Federal programs, 
        services, and actions affecting rural areas, including the 
        establishment and financing of interagency groups, as long as 
        the objectives of the agreement will serve the mutual interest 
        of the parties in rural development activities (7 U.S.C. 
        2204b(b)(4)).
          (27) Exercise the authority in section 10101 of the Disaster 
        Relief and Recovery Supplemental Appropriations Act, 2008, 
        Public Law 110-329, div. B., regarding the Rural Development 
        Disaster Assistance Fund.
          (28) [Reserved]
          (29) Implement section 14218 of the Food, Conservation, and 
        Energy Act of 2008 (7 U.S.C. 6941a).
          (30) Related to biomass research and development.

                  Administer section 9008 of FSRIA (7 U.S.C. 8108) with 
                respect to biomass research and development, including 
                administration of the Biomass Research and Development 
                Board and Biomass Research and Development Technical 
                Advisory Committee, and submission of reports to 
                Congress, except for the authority delegated to the 
                Under Secretary for REE in  2.21(a)(1)(cci) to carry 
                out the Biomass Research and Development Initiative; 
                consult and coordinate, as appropriate, with the Under 
                Secretary for REE and other mission areas within the 
                Department as deemed necessary in carrying out the 
                authorities delegated herein; and serve as the 
                designated point of contact referenced in 7 U.S.C. 8108 
                for the Department, except for purposes of 
                administering the Biomass Research and Development 
                Initiative as provided in  2.21(a)(1)(cci).

          (31) Carry out prize competition authorities in section 24 of 
        the Stevenson-Wydler Technology Innovation Act of 1980 (15 
        U.S.C. 3719) related to functions otherwise delegated to the 
        Under Secretary for Rural Development, except for authorities 
        delegated to the Chief Financial Officer in  2.28(a)(29) and 
        authorities reserved to the Secretary in paragraph (b)(2) of 
        this section.

    (b) The following authority is reserved to the Secretary of 
Agriculture:

          (1) Related to rural business--cooperative. Submission to the 
        Congress of the report required pursuant to section 1469 of 
        Pub. L. No. 101-624.
          (2) Approval of prize competitions that may result in the 
        award of more than $1,000,000 in cash prizes under section 
        24(m)(4)(B) of the Stevenson-Wydler Technology Innovation Act 
        of 1980 (15 U.S.C. 3719(m)(4)(B)).

          [60 FR 56393, Nov. 8, 1995, as amended at 65 FR 12427, Mar. 
        9, 2000; 66 FR 31107, June 11, 2001; 68 FR 27436, May 20, 2003; 
        74 FR 3402, Jan. 21, 2009; 75 FR 43368, July 23, 2010; 76 FR 
        52851, Aug. 24, 2011; 78 FR 40937, July 9, 2013; 79 FR 44106, 
        July 30, 2014; 80 FR 58336, Sept. 29, 2015]

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
